NO. ___________
IN THE

Supreme Court of the United States
STEPHEN BUSCH, MICHAEL PRYSBY, LIANE SHEKTER
SMITH, AND BRADLEY WURFEL, Petitioners,
v.
SHARI GUERTIN, ET AL., Respondents.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CHARLES E. BARBIERI
ALLISON M. COLLINS
FOSTER, SWIFT, COLLINS
& SMITH, P.C.
313 S. Washington Square
Lansing, MI 48933
(517) 371-8155
CBarbieri@fosterswift.com
Counsel for Petitioner
Prysby

JOHN J. BURSCH
Counsel of Record
BURSCH LAW PLLC
9339 Cherry Valley
Avenue SE, #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com
Counsel for Petitioners

(Additional counsel on inside cover)

MICHAEL JOHN PATTWELL
JAY M. BERGER
CHRISTOPHER B. CLARE
CLARK HILL PLC
500 Woodward Ave.
Suite 3500
Detroit, MI 48226
(517) 318-3043
mpattwell@clarkhill.com
Counsel for Petitioner
Wurfel
PHILIP A. GRASHOFF, JR.
SMITH HAUGHEY RICE &
ROEGGE
100 Monroe Center NW
Grand Rapids, MI 49503
(616) 458-3633
pgrashoff@shrr.com
Counsel for Petitioner
Busch

THADDEUS E. MORGAN
MICHAEL J. PERRY
FRASER TREBILCOCK
124 W. Allegan Street
Suite 1000
Lansing, MI 48933
(517) 377-0877
tmorgan@fraserlawfirm.com
Counsel for Petitioner
Shekter Smith

i
QUESTIONS PRESENTED
1. Whether the 14th Amendment’s constitutional
right to “bodily integrity” extends to encapsulate a
right to be protected by state regulators from a foreseeable risk of harm from exposure to contaminants
in public drinking water, or to be free from allegedly
false statements by an agency spokesperson.
2. If so, whether such a bodily-integrity right was
clearly established at the time the defendant officials
were fulfilling their official duties.
3. Whether mere alleged mistakes and regulatory
inaction by state regulators, or allegedly false statements by an agency spokesperson, are sufficiently
“conscience shocking” to strip a government official of
qualified immunity.

ii
PARTIES TO THE PROCEEDING
Petitioners are Stephen Busch, Michael Prysby,
Liane Shekter Smith, and Bradley Wurfel.
Respondents are Shari Guertin, individually and
as next friend of her child, E.B., a minor, and Diogenes
Muse-Cleveland.
Additional Defendants (but not Petitioners here)
are the City of Flint, Darnell Earley, Gerald Ambrose,
Howard Croft, Veolia North America, LLC, Lockwood
Andrews & Newnam, Inc., and the State of Michigan.
DIRECTLY RELATED CASES1
1. United States District Court for the Eastern
District of Michigan: Guertin, et al. v. State of
Michigan, et al., No. 16-cv-12421. Opinion and Order
entered June 5, 2017.
2. United States Court of Appeals for the Sixth
Circuit: (1) Guertin, et al. v. State of Michigan, et al.,
Nos. 17-1698, 17-1699, 17-1745, 17-1752, and 171769. Opinion entered January 4, 2019. (2) Guertin, et
al. v. State of Michigan, et al., Nos. 17-1699 and 171745. Order denying rehearing en banc entered May
16, 2019.
3. United States Supreme Court. (1) Busch, et al.
v. Guertin, et al., Application No. 19A111. (2) City of
Flint, et al. v. Guertin, et al., No. 19-205.

1

This case is one of 49 pending in the United States District
Court for the Eastern District of Michigan that have been
consolidated as In re Flint Water Litigation, No. 16-cv-10444.
Petitioners do not interpret this Court’s Rule 14.1(b)(i) as
including the other cases as “related” to the present case.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING ........................... ii
DIRECTLY RELATED CASES ................................. ii
PETITION APPENDIX TABLE OF CONTENTS ..... v
TABLE OF AUTHORITIES.......................................vi
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL PROVISION INVOLVED ........1
INTRODUCTION ........................................................2
STATEMENT ..............................................................6
A. Plaintiffs ....................................................6
B. Petitioners .................................................7
C. Specific allegations against the MDEQ
Petitioners .................................................7
D. District court proceedings ....................... 13
E. The Sixth Circuit’s split decision............ 13
F. The divided denial of rehearing en
banc.......................................................... 17
REASONS FOR GRANTING THE PETITION ....... 19
I. The Sixth Circuit’s decision transforms the
qualified-immunity defense. ......................... 20
A. Qualified
immunity
protects
government officials from being sued
for mistakes ............................................. 20

iv
TABLE OF CONTENTS—Continued
B. The Sixth Circuit changed what it
means for a constitutional right to be
“clearly established.” ............................... 21
C. The Sixth Circuit has changed the
meaning of “conscience-shocking”
behavior ................................................... 27
II. No previous court has recognized a
constitutional right to bodily integrity to
be protected by state regulators from
exposure to contaminants in drinking
water or from allegedly false statements
made by an agency spokesperson to the
media. ............................................................. 32
III.This case is an ideal vehicle to clear up the
substantial confusion caused by the Sixth
Circuit’s published decision. ......................... 35
CONCLUSION .......................................................... 37

v
PETITION APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the Sixth
Circuit,
Opinion in 17-1698 /1699 /1745 /1752 /1769,
Issued January 4, 2019 ........................ 1a–105a
United States District Court for the Eastern
District of Michigan,
Opinion and Order Granting in Part and
Denying in Part Defendants’ Motions to
Dismiss in 16-cv-12412,
Issued June 5, 2017 .......................... 106a–183a
United States Court of Appeals for the Sixth
Circuit,
Order Denying Petitions for Rehearing En
Banc in 17-1699/1745,
Issued May 16, 2019 ......................... 184a–200a

vi
TABLE OF AUTHORITIES
Page(s)
Cases
Allen v. N.Y.C. Hous. Auth.,
2012 U.S. Dist. LEXIS 130307 (S.D.N.Y.
July 16, 2012) ....................................................... 24
Anderson v. Creighton,
483 U.S. 635 (1987) .............................................. 14
Ashcroft v. al-Kidd,
563 U.S. 731 (2011) ........................................ 20, 21
Barrett v. United States,
798 F.2d 565 (2d Cir. 1986) ........................... 14, 32
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007) ................................................7
Benzman v. Whitman,
523 F.3d 119 (2d Cir. 2008) ......................... passim
Branch v. Christie,
2018 WL 337751 (D.N.J. Jan. 8, 2018) ......... 17, 22
Brown v. Detroit Pub. Sch. Cmty. Dist.,
763 Fed. App’x 497 (6th Cir. 2019) ...................... 30
Collins v. Harker Heights,
503 U.S. 115 (1992) .............................................. 27
Coshow v. City of Escondido,
132 Cal. App. 4th 687 (Cal. Ct. App. 2005) ... 17, 22
Cruzan v. Director, Missouri Dep’t of Health,
497 U.S. 261 (1990) .............................................. 14
Daniels v. Williams,
474 U.S. 327 (1986) .......................................... 6, 27

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Davis v. New York City Hous. Auth.,
379 F. Supp. 3d 237 (S.D.N.Y. 2019) ................... 36
DeShaney v. Winnebago Cty. Dep’t of Soc. Servs.,
489 U.S. 189 (1989) ........................................ 27, 29
Etherton v. Rivard,
800 F.3d 737 (6th Cir. 2015) ................................ 19
Eves v. LePage,
927 F.3d 575 (1st Cir. 2019) ................................ 31
Foli v. Metro. Water Dist. of S. Cal.,
592 Fed. App’x 634 (9th Cir. 2015) ...................... 22
Greene v. Plano Indep. Sch. Dist.,
103 Fed. App’x 542 (5th Cir. 2004) ...................... 23
Guertin v. Michigan,
924 F.3d 309 (6th Cir. 2019) ..................................1
Guertin v. State of Michigan,
912 F.3d 907 (6th Cir. 2019) ..................................1
Guertin v. State of Michigan,
No. 16-cv-12412, 2017 WL 2418007 (E.D.
Mich. June 5, 2017) ................................................1
Hood v. Suffolk City Sch. Bd.,
469 Fed. App’x 154 (4th Cir. 2012) ................ 23, 25
Hootstein v. Amherst-Pelham Reg’l Sch. Comm.,
361 F. Supp. 3d 94 (D. Mass. 2019) ..................... 36
In re Camp Lejeune N. Carolina Water
Contamination Litig.,
263 F. Supp. 3d 1318 (N.D. Ga. 2016) ................. 24
In re Cincinnati Radiation Litig.,
874 F. Supp. 796 (S.D. Ohio 1995) ................ 14, 33

viii
TABLE OF AUTHORITIES—Continued
Page(s)
J.S. ex rel. Simpson v. Thorsen,
766 F. Supp. 2d 695 (E.D. Va. 2011) ................... 25
Kallstrom v. City of Columbus,
136 F.3d 1055 (6th Cir. 1998) .............................. 13
Kaucher v. County of Bucks,
455 F.3d 418 (3d Cir. 2006) ................................. 23
Lewellen v. Metropolitan Gov’t,
34 F.3d 345 (6th Cir. 1994) .................................. 29
Lojuk v. Quandt,
706 F.2d 1456 (7th Cir. 1983) ........................ 14, 33
Lombardi v. Whitman,
485 F.3d 73 (2d Cir. 2007) ................. 17, 23, 31, 34
Lopresti v. Norwalk Pub. Sch.,
2014 U.S. Dist. LEXIS 139361 (D. Conn.
Sept. 30, 2014) ...................................................... 25
Missouri v. McNeely,
569 U.S. 141 (2013) ........................................ 16, 32
Mullenix v. Luna,
136 S. Ct. 305 (2015) ............................................ 20
Naperville Smart Meter Awareness v. City of
Naperville,
69 F. Supp. 3d 830 (N.D. Ill. 2014) ...................... 25
Naumovski v. Norris,
934 F.3d 200 (2d Cir. 2019) ................................. 31
Paige v. N.Y.C. Hous. Auth.,
2018 U.S. Dist. LEXIS 137238 (S.D.N.Y.
Aug. 18, 2018) ...................................................... 24

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Pearson v. Callahan,
555 U.S. 223 (2009) ........................................ 20, 30
Reichle v. Howards,
566 U.S. 658 (2012) .............................................. 20
Riggins v. Nevada,
504 U.S. 127 (1992) .................................. 14, 16, 32
Rochin v. California,
342 U.S. 165 (1952) .................................. 14, 16, 32
Rogers v. Okin,
634 F.2d 650 (1st Cir. 1980) .......................... 14, 33
Roudat v. Georgia Dep’t of Cmty. Affairs,
2017 U.S. Dist. LEXIS 25192 (N.D. Ga.
Feb. 23, 2017) ....................................................... 25
Saucier v. Katz,
533 U.S. 194 (2001) .............................................. 20
Schulkers v. Kammer,
367 F. Supp. 3d 626 (E.D. Ky. 2019) ................... 37
Singh v. Cordle,
__ F.3d __, 2019 WL 4050272 (10th Cir.
Aug. 28, 2019) ...................................................... 31
United States v. Brandon,
158 F.3d 947 (6th Cir. 1988) ................................ 14
Upsher v. Grosse Point Pub. Sch. Sys.,
285 F.3d 448 (6th Cir. 2002) ................................ 29
Walker v. City of East Chicago,
2017 WL 4340259 (N.D. Ind. Sept. 29,
2017) ..................................................................... 24

x
TABLE OF AUTHORITIES—Continued
Page(s)
Washington v. Harper,
494 U.S. 210 (1990) .................................. 14, 16, 32
White v. Pauly,
137 S. Ct. 548, 552 (2017) .......................... 5, 15, 21
Winston v. Lee,
470 U.S. 753 (1985) .................................. 14, 16, 32
Woods v. Etherton,
136 S. Ct. 1149 (2016) .......................................... 19
Statutes
28 U.S.C. 1254 .............................................................1
Rules
40 C.F.R. 141.80 ..........................................................2
40 C.F.R. 141.81 ..........................................................3
Sup. Ct. R. 14.1 ........................................................... ii
Other Authorities
U.S. Const. amend. XIV, § 1 .......................................1

1
OPINIONS BELOW
The District Court opinion granting in part and
denying in part Petitioners’ motions to dismiss is
reported at Guertin v. State of Michigan, No. 16-cv12412, 2017 WL 2418007 (E.D. Mich. June 5, 2017),
and is reprinted at App. 106a. The court of appeals
opinion affirming that ruling is reported at Guertin v.
State of Michigan, 912 F.3d 907 (6th Cir. 2019), and is
reprinted at App. 1a. The Sixth Circuit’s deeply
divided order denying Petitioners’ petition for rehearing en banc is reported at Guertin v. Michigan, 924
F.3d 309 (6th Cir. 2019), and is reprinted at 184a.
JURISDICTION
The judgment of the court of appeals was entered
on January 4, 2019. App. 1a. The court of appeals
denied Petitioners’ timely request for rehearing en
banc on May 16, 2019. App. 184a. Justice Sotomayor
extended the time to file a petition for a writ of
certiorari to September 13, 2019. This Court has
jurisdiction under 28 U.S.C. 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Fourteenth Amendment to the United States
Constitution states, in relevant part:
[N]or shall any State deprive any person of
life, liberty, or property, without due process
of law . . . .

2
INTRODUCTION
The so-called “Flint Water Crisis” began in 2013,
when an emergency financial manager for the City of
Flint, Michigan, decided to switch Flint’s public drinking water source to the more affordable Karegnondi
Water Authority, and the City of Detroit then unilaterally terminated its longstanding contract for providing drinking water to Flint. Because the Authority
was not yet operational, the emergency manager
chose an interim measure: to use water from the Flint
River, treated at the City’s water treatment plant
until the Authority could deliver water. That changeover was supervised by a subsequent emergency
manager and an outside engineering consultant. This
case arises from the alleged improper treatment of
Flint River water, which purportedly caused contaminants and lead to leach into the drinking water from
the City’s water distribution pipes and homeowner
service lines.
Petitioners are four current or former employees
of the Michigan Department of Environmental
Quality, or MDEQ,1 the state agency responsible for
oversight of compliance with state and federal safe
drinking-water laws by public water systems, like the
City of Flint’s. The MDEQ’s task included ensuring
that Flint complied with the federal Lead and Copper
Rule (“LCR”), which generally requires public water
systems to monitor lead and copper levels in drinking
water and implement corrosion control treatments, as
necessary. 40 C.F.R. 141.80 et seq.

1

This Department is now known as the Department of Environment, Great Lakes, and Energy.

3
Flint did not previously treat the water it received
from Detroit with corrosion-control chemicals, and
there was therefore no corrosion control to be
“maintained” when the water source was changed, as
the LCR contemplates. 40 C.F.R. 141.81. MDEQ has
historically interpreted the LCR as requiring a public
water system to conduct two rounds of lead and copper
monitoring to determine what, if any, corrosioncontrol treatment may be needed for a particular
water source before implementation of corrosion
controls. This interpretation was applied to Flint’s
water source switch, and Flint began using the Flint
River without first implementing corrosion-control
treatment chemicals. It is this plausible but allegedly
mistaken interpretation of the federal LCR that gives
rise to the constitutional claims against Petitioners.
As concerns of lead in Flint’s drinking water
emerged, the City hired another engineering firm that
completed a 160-hour assessment and concluded that
Flint’s water was in compliance with federal and state
water quality regulations and remained safe to drink.
Despite increasing complaints, MDEQ continued to
believe that Flint’s drinking water was safe based on
Flint’s submitted sampling data, and MDEQ’s
Communications Director, Petitioner Wurfel, made
several public statements to that effect.
By October 2015, Flint’s two rounds of lead and
copper testing submitted to MDEQ demonstrated a
need to implement some form of corrosion control, and
Flint was notified that such treatment would be
required. As a result of numerous meetings between
MDEQ, the EPA, and Flint, Flint reconnected its
water supply system to Detroit on October 16, 2015.

4
The EPA subsequently issued a legal opinion in
November 2015 concluding that the LCR was
ambiguous when applied to Flint’s water source
switch, and that MDEQ applied a plausible interpretation of the LCR. The EPA stated that the situation
confronted in Flint: “rarely arises and the language of
the LCR does not specifically discuss such
circumstances. . . . [I]t appears that there are differing possible interpretations of the LCR with respect to
how the rule’s optimal corrosion-control treatment
procedures apply to this situation, which may have led
to some uncertainty with respect to the Flint water
system.”2
Plaintiffs filed this lawsuit claiming that Petitioners failed to protect them from a foreseeable risk
of harm from contaminants, including lead, following
Flint’s water-source switch. Their only remaining
claim is for violation of their substantive-due-process
right to bodily integrity, a right they say protects them
from foreseeable harm tangentially arising from
decisions made by regulators and agency spokesperson statements to media members. The Sixth
Circuit, in a 2-1 decision, allowed that claim to go
forward, causing the dissent, penned by Judge
McKeague, to observe: “the majority extends the
protection of substantive due process into new and
uncharted territory and holds government officials
liable for conduct they could not possibly have known
was prohibited by the Constitution.” App. 61a.

2

https://bit.ly/2ktoaaE

5
What’s more, commented Judge McKeague, “the
majority unfairly denies defendants protection from
suit under the doctrine of qualified immunity,”
because “the conduct actually alleged in the complaint
does not appear to be conscience-shocking and
because the Due Process Clause has never before been
recognized as protecting against government conduct
that in some way results in others being exposed to
contaminated water.” Ibid. “The mere fact that no
court of controlling authority has ever recognized the
type of due process right that plaintiffs allege in this
case is all we need to conclude the right is not clearly
established,” meaning qualified immunity applies.
App. 62a.
The panel majority’s decision, Judge McKeague
declared, was problematic for two reasons. First, the
decision created a deep, jurisprudential conflict: “[I]n
case after case around the country, courts have
consistently rejected substantive-due-process claims
based on the type of conduct alleged here.” App. 96a–
101a (discussing cases). Second, the opinion “effectively ‘convert[s] the rule of qualified immunity . . .
into a rule of virtually unqualified liability for government officials making policy or regulatory decisions or
statements that have any effect on a publicly consumed environmental resource.” App. 105a (quoting
White v. Pauly, 137 S. Ct. 548, 552 (2017)).
The Sixth Circuit denied rehearing en banc in a
deeply fractured ruling. App. 184a. A five-judge dissent authored by Judge Kethledge concluded that “the
majority’s decision on the issue of qualified immunity
is barely colorable.” App. 197a. Substantive due process is “the vaguest of constitutional doctrines,” and
its “easy malleability makes it a notably poor instrument for prying away an officer’s qualified immunity.”

6
Ibid. The decision turns substantive due process into
“a font of tort law” by “expanding substantive due
process to reach claims based on negligence rather
than intent.” App. 200a (quoting Daniels v. Williams,
474 U.S. 327, 332 (1986)).
“No official,” said the dissenters, “can be expected
to recognize in advance that a court will recast a legal
rule so that it applies to conduct to which it has never
applied before.” App. 200a. That is why this Court
requires that a right be “clearly established” before a
plaintiff can overcome qualified immunity. Ibid. In
stretching substantive due process to cover an entirely
new claim against government regulators and an
agency spokesperson, then denying qualified immunity, the Sixth Circuit has done “exactly what the
Supreme Court has repeatedly told us not to do.” Ibid.
(citations omitted).
Certiorari is warranted.
STATEMENT
A. Plaintiffs
Plaintiffs are Flint residents that for decades
received water treated by Detroit’s Water and
Sewerage Department. ¶¶ 15–16, 19. In 2013, the
City’s emergency financial manager decided to temporarily switch the City’s water source to the Flint River
after Detroit terminated its water supply contract
with Flint while the Karegnondi Water Authority
water pipeline was still being built from Lake Huron
to Flint and other communities. Id. ¶¶ 20, 28, 93–94.
Plaintiffs allege they were harmed when they consumed Flint water after the switch and were exposed
to lead. Id. ¶ 13.

7
B. Petitioners
Petitioner Stephen Busch was the District Supervisor assigned to MDEQ’s Lansing District Office.
Compl. ¶ 33. Petitioner Michael Prysby was an engineer assigned to MDEQ’s District 11 (Genesee
County). Id. ¶ 35. Petitioner Liane Shekter Smith was
the Chief of MDEQ’s Office of Drinking Water and
Municipal Assistance. Id. ¶ 31. And Petitioner
Bradley Wurfel was MDEQ’s Communications
Director. Id. ¶ 32.
C. Specific allegations
MDEQ Petitioners

against

the

When assessing qualified immunity, there is a
world of difference between regulators and spokespersons who purportedly made mistakes and officials
who intentionally and forcefully beat, inject, or otherwise infringe on someone’s bodily integrity. Yet the
panel majority here wrongly analogized the MDEQ
Petitioners’ conduct to cases involving intentional,
forceful conduct while at the same time conceding that
“[t]here is no allegation defendants intended to harm
Flint residents.”3 App. 27a. The alleged conduct of
Petitioners is as follows, with the focus on alleged
facts, not alleged conclusions. Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007).
Stephen Busch. Busch was an MDEQ district
supervisor. Plaintiffs claimed generically that Busch
“participated in MDEQ’s repeated violations of federal
water quality laws, the failure to properly study and
treat Flint River water, and the MDEQ’s program of
3

See also Drs. Gómez and Dietrich, The Children of Flint Were
Not ‘Poisoned,’ The New York Times (July 22, 2018), available at
https://nyti/ms/2mBqNEs.

8
systemic denial, lies and attempts to discredit honest
outsiders.” Compl. ¶ 33.
More specifically, Plaintiffs claimed that Busch
“falsely reported to the EPA that Flint had enacted an
optimized corrosion control plan, providing assurances to Plaintiffs that the water was safe when he
knew or should have known that these assurances
were false or were no more likely to be true than
false.” Compl. ¶ 33. The record shows that on March
26, 2014, Busch’s internal email to Shekter Smith
sought a consensus as to what Flint would be required
to do to begin using its own water supply on a fulltime basis. Id. ¶ 98. On April 17, 2014, Busch received
an email from Flint’s water treatment plant operator
who opined that the plant’s staff were not ready to
distribute water in the short term. Id. ¶ 96. On April
23, 2014, Busch told Wurfel that a “talking point” for
a forthcoming meeting was that the MDEQ is satisfied
with Flint’s ability to treat Flint River water and that
the Department looked forward to the City’s longterm continued operation of its treatment plant using
water from the Karegnondi Water Authority, a more
consistent water source. Id. ¶ 101.
Plaintiffs claim that on February 27, 2015, 10
months after Flint switched its water source, Busch
told the EPA that the Flint plant had an optimized
corrosion-control program even though it did not.
Compl. ¶¶ 33, 152. But “Flint did have a corrosioncontrol ‘program’ in place,” one that MDEQ opined
complied with the EPA’s Lead and Copper Rule. App.
81a–82a. And as Judge McKeague noted, “[e]ven [if]
the MDEQ was wrong, that error does not support the
allegation that Busch lied.” App. 82a.

9
“In sum,” Judge McKeague recognized, “neither
that statement nor the various other internal emails
in which Busch expressed support for the MDEQ’s
interpretation of the Lead and Copper Rule or his
belief that the water treatment plant was capable of
treating Flint River water plausibly demonstrate that
Busch created the Flint Water Crisis and then
attempted to deceive the public.” App. 82a.
Michael Prysby. Prysby was an MDEQ engineer
assigned to the district that included Flint. Plaintiffs
generally claim that Prysby “. . . participated in,
approved, and/or assented to the decision to switch
the water source, failed to properly monitor and/or
test the Flint River water, and provided assurances to
Plaintiffs that the Flint River water was safe when he
knew or should have known those statements to be
untrue or no more likely to be true than false.” Compl.
¶ 35. Plaintiffs did not provide any allegations
specifying the false assurances Prysby made to them.
The key document used to implicate Prysby is an
internal, October 2014 email Prysby wrote after
General Motors stopped using the Flint River water
at its engine plant because of fears that it would cause
corrosion due to high levels of chloride. Prysby’s email
said that despite the elevated chloride levels and the
fact that the water was “not optimal,” it was “satisfactory.” Prysby also stressed to his colleagues the
importance of not labeling Flint’s water as corrosive
merely because it failed to meet a manufacturing
facility’s criteria. Compl. ¶ 142.
As Judge McKeague observed, “no other allegation against Prysby demonstrates anything more than
a failure to act—plaintiffs’ remaining allegations
name Prysby as merely a recipient of various emails
but they do not identify any specific actions taken by

10
him.” App. 81a. “Plaintiffs thus do not plausibly allege
that Prysby created the Flint Water Crisis and then
deceived the public about it.” Ibid.
Liane Shekter Smith. Plaintiffs claimed
generally that Petitioner Shekter Smith, MDEQ’s
Chief of the Office of Drinking Water and Municipal
Assistance, “knowingly participated in, approved of,
and caused the decision to transition Flint’s water
source to a highly corrosive, inadequately studied and
treated alternative,” and that Shekter Smith
“disseminated false statements to the public that led
to the continued consumption of dangerous water
despite knowing or having reason to know that the
water was dangerous.” Compl. ¶ 31. But Plaintiffs’
Complaint did not allege that Shekter Smith made or
disseminated any specific false statements to the
public.
The panel majority focused on two of her emails.
In the first, Shekter Smith asked that an EPA official
confirm “that the city [was] in compliance with the
Lead and Copper Rule,” to help the MDEQ
“distinguish between [its] goals to address important
public health issues separately from the compliance
requirements of the actual rule.” Compl. ¶ 207. As
Judge McKeague said, “all that her email exhibits is
an attempt to address” technical compliance and
public health separately. App. 82a–83a.
The second email was Shekter Smith’s response to
a query asking why MDEQ would allow anything less
than 100% of Michigan drinking water to meet all
health standards. Compl. ¶¶ 199–200. Her honest
answer was that such a goal is “impossible,” and that
the MDEQ did not “‘allow’ a Flint to occur; circumstances happen.” Ibid. She wanted goals that could be
achieved. “This second email,” said Judge McKeague,

11
“shows nothing more than Shekter-Smith’s concern
with meeting agency goals.” App. 83a. “These two
emails, in short, do not demonstrate that ShekterSmith created the Flint Water Crisis and subsequently attempted to deceive the public.” App. 84a.
Bradley
Wurfel.
Wurfel
was
MDEQ’s
Communications Director and the only Petitioner
plausibly implicated by Plaintiffs’ deceived-the-public
theory. Compl. ¶¶ 36–37. Wurfel played no role in
regulating Flint’s water supply and had no authority
to change the source of Flint’s water or treatment
requirements. Plaintiffs do not allege that they ever
directly spoke with Wurfel. The allegations against
him concern out-of-context statements made to media
members and other government officials.
In mid-July, 2015, Wurfel told a journalist: “let me
start here–anyone who was concerned about lead in
the drinking water in Flint can relax.” Compl. ¶ 204.
A few days later, Wurfel emailed his colleagues
requesting an update on the January/June testing
results, a recap of the December testing numbers, and
any additional information they could offer in light of
representations of high lead levels in 80 water tests in
Flint. Id. ¶ 212. The same day, Wurfel emailed a
member of the Governor’s staff and the former MDEQ
Director, stating that Flint had complied with the
Lead and Copper Rule but had not yet optimized its
water treatment, that Flint’s residents should not
worry about lead in their water supply, and that the
MDEQ’s recent sampling information submitted by
Flint did not indicate an imminent health threat from
lead or copper. Id. ¶ 217.

12
In August 2015, Wurfel responded to an inquiry
from the Governor’s office regarding reports of high
lead levels by researchers and the discrepancy
between those figures and the test results submitted
to MDEQ by opining that the source of the lead and
copper detected in the drinking water was not the
Flint River water or the City’s transmission lines but
was instead the plumbing in residents’ homes. Compl.
¶ 221. The email also included statements concerning
an “unvetted draft” of the EPA’s report to a Flint
resident, which “hopped-up and misinformed the
residents.” Id. ¶ 223.
Plaintiffs also claimed that in early September
2015, Wurfel issued statements to reporters discrediting the work of Virginia Tech Professor Marc Edwards
and stating that Edwards’ results were not supported
by lead sampling conducted by the city or blood-leadlevel testing the State conducted. Id. ¶¶ 225–27, 234.
Plaintiffs further claimed that Wurfel discredited persons working to protect the public and provided false
assurances to Flint’s residents about the water’s
safety. Id. 237. Plaintiffs’ allegations conclude with
the contention that, on September 28, 2015, Wurfel
released a public statement describing a Flint
physician’s statements about lead in the City of Flint’s
water as “unfortunate,” and stated that Flint’s water
was safe. Id. ¶ 287.
Judge McKeague explained that though Plaintiffs
say Wurfel’s statements were “knowing lies,” their
“allegations do not support that conclusion.” App. 85a.
“As plaintiffs’ complaint alleges, Wurfel made his
public statements after other MDEQ employees represented both that Flint’s water treatment plant was
prepared to treat Flint River water and that Flint’s
water testing results showed Flint was in compliance

13
with the requirements of the Lead and Copper Rule.”
Ibid. Plaintiffs do not allege Wurfel had any contrary
information. Ibid. “Wurfel’s handful of statements in
July and September do not evince a knowing and
intentional attempt to deceive the public about known
deficiencies in Flint’s water treatment procedures or
any conduct designed to intentionally contaminate the
public.” Ibid.
D. District court proceedings
The district court granted and denied Petitioners’
motions to dismiss in part, preserving Plaintiffs’
§ 1983 claim based on an alleged violation of their
substantive-due-process right to bodily integrity.
Based on the allegations summarized above, the
district court held that Plaintiffs “have a fundamental
interest in bodily integrity under the Constitution,
and, as set forth below, defendants violated plaintiffs’
fundamental interest by taking conscience-shocking,
arbitrary executive action, without plaintiffs’ consent,
that directly interfered with their fundamental right
to bodily integrity.” App. 156a. As to Petitioners’
qualified-immunity claim, the district court said that
“a series of Supreme Court cases over the last seventyfive years makes clear that defendants violated
plaintiffs’ clearly established rights.” Ibid.
E. The Sixth Circuit’s split decision
The Sixth Circuit panel majority affirmed. To
establish the contours of the constitutional right to
bodily integrity, the majority began by explaining that
bodily-integrity cases “‘usually arise in the context of
government-imposed
punishment
or
physical
restraint.’” App. 12a (quoting Kallstrom v. City of
Columbus, 136 F.3d 1055, 1062 (6th Cir. 1998)). The
majority then cited a series of cases involving direct,

14
forcible, physical invasion of nonconsenting individuals: Washington v. Harper, 494 U.S. 210, 213–17
(1990) (involuntary administration of antipsychotic
medication to an inmate); Riggins v. Nevada, 504 U.S.
127, 135–38 (1992) (forced administration of drugs);
Cruzan v. Director, Missouri Dep’t of Health, 497 U.S.
261, 265–69 (forced hydration and nutrition); Winston
v. Lee, 470 U.S. 753, 759 (1985) (non-consensual
surgical intrusion); United States v. Brandon, 158
F.3d 947, 953 (6th Cir. 1988) (forced medication);
Barrett v. United States, 798 F.2d 565 (2d Cir. 1986)
(government experiment on unknowing and unwilling
patients); Lojuk v. Quandt, 706 F.2d 1456 (7th Cir.
1983) (same); Rogers v. Okin, 634 F.2d 650 (1st Cir.
1980) (same); In re Cincinnati Radiation Litig., 874 F.
Supp. 796 (S.D. Ohio 1995) (same). App. 12a–17a.
Next, the majority recognized that to be actionable, government conduct must “shock the conscience.”
App. 19a–20a (citing Rochin v. California, 342 U.S.
165, 169, 172–74 (1952)). The majority was forced to
concede that there “is no allegation defendants
intended to harm Flint residents.” App. 27a.
Nonetheless, based on the bare-bones factual allegations noted above, the majority accused Petitioners of
“creat[ing] the Flint Water environmental disaster
and then intentionally attempt[ing] to cover-up their
grievous decision. Their actions shock our conscience.”
App. 32a.
Turning to Petitioners’ qualified-immunity
defense, the panel majority started with the premise
that the plaintiffs had to show a “clearly established”
right. App. 40a (quoting Anderson v. Creighton, 483
U.S. 635, 640 (1987)). That is, “Plaintiffs must
generally identify a case with a fact pattern similar
enough to have given ‘fair and clear warning to

15
officers’ about what the law requires.” App. 41a
(quoting White v. Pauly, 137 S. Ct. 548, 552 (2017) (per
curiam)). But, finding no case with an analogous fact
pattern, the majority dispensed with that requirement, holding that the “lack of a comparable
government-created public health disaster precedent
does not grant defendants a qualified immunity
shield. Rather it showcases the grievousness of their
alleged conduct.” App. 42a. “To be sure,” said the
majority, “sweeping statements about constitutional
rights do not provide officials with the requisite
notice.” App. 45a. But the majority believed Petitioners’ conduct to be akin to “strip[ping] the very essence
of personhood” from Plaintiffs. App. 46a.
Judge McKeague dissented. “The majority tells a
story of intentional poisoning based on a grossly exaggerated version of plaintiffs’ allegations. The complaint tells an entirely different story. It is a story of
a series of discrete and discretionary decisions made
by a variety of policy and regulatory officials who were
acting on the best information available to them at the
time.” App. 60a. The majority, he said, “extends the
protections of substantive due process into new and
uncharted territory and holds government officials
liable for conduct they could not possibly have known
was prohibited by the Constitution.” Ibid. And in so
doing, “the majority unfairly denies defendants protection from suit under the doctrine of qualified
immunity.” App. 61a.
Judge McKeague began by analyzing whether
Petitioners’ conduct was conscience shocking. App.
72a. He painstakingly walked through Plaintiffs’
allegations and concluded that they “do not plausibly
demonstrate a callous disregard for or intent to injure
plaintiffs, let alone any effort to ‘systematically

16
contaminate’ the Flint community.” App. 85a–86a.
“What they show instead is a series of internal emails
and a handful of public statements regarding the
requirements of the Lead and Copper Rule and the
water’s safety. Even if the MDEQ employees made
mistakes in interpreting the Rule, those mistakes are
not conscience-shocking.” App. 86a.
Next, Judge McKeague turned to whether Plaintiffs stated a claim based on a fundamental right to
bodily integrity. App. 88a–89a. He concluded that the
majority’s holding was at odds with decisions of this
Court and many others: “no concrete examples arising
from the established bodily integrity jurisprudence or
from our Nation’s history or traditions support the
right asserted here—protection from policy or regulatory decisions or public statements that, somewhere
down the line, result in exposure to contaminated
water.” App. 91a. All “analogous” cases relied on by
the majority, Judge McKeague observed, involved a
direct, physical intrusion. App. 91a–92a (analyzing
Rochin, 342 U.S. at 172–174 (forced vomiting);
Missouri v. McNeely, 569 U.S. 141, 148 (2013) (forced
blood sample), Winston v. Lee, 470 U.S. 753, 767
(1985) (anal probe); Washington v. Harper, 494 U.S.
210, 221, 223 (1990) (unwanted administration of
drugs); Riggins v. Nevada, 504 U.S. 127, 135 (1992)
(same)). “These [and other] cases delineate the contours of the right to bodily integrity in terms of
intrusive searches or forced medication. None of them
is compatible with the ‘careful description’ of the right
at issue here: protection from exposure to leadcontaminated water allegedly caused by policy or
regulatory decisions or statements.” App. 92a–93a.

17
Judge McKeague then shifted to the second prong
of the qualified-immunity analysis—whether Plaintiffs’ alleged constitutional right was “clearly
established”—and recognized that this “presents the
most fundamental problem for plaintiffs’ case.” App.
95a. In addition to the clear factual differences
between the cases on which the majority relied and
Plaintiffs’ allegations, “courts have consistently
rejected substantive-due-process claims based on the
type of conduct alleged here.” App. 96a–101a (citing
Branch v. Christie, 2018 WL 337751 (D.N.J. Jan. 8,
2018); Coshow v. City of Escondido, 132 Cal. App. 4th
687 (Cal. Ct. App. 2005); Benzman v. Whitman, 523
F.3d 119, 125, 127 (2d Cir. 2008); Lombardi v.
Whitman, 485 F.3d 73 (2d Cir. 2007)). “This is not a
case about a government official knowingly and
intentionally introducing a known contaminant into
another’s body without that person’s consent,” said
Judge McKeague, but rather “a case about a series of
erroneous and unfortunate policy and regulatory decisions and statements that, taken together, allegedly
caused plaintiffs to be exposed to contaminated
water.” App. 101a–02a. “The number of cases rejecting similar environmentally based claims is significant.” App. 103a–04a & n.8 (discussing numerous
cases).
F. The divided denial of rehearing en
banc
The Sixth Circuit denied rehearing en banc. In
dissent, Judge Kethledge, joined by Judges Thapar,
Larsen, Nalbandian, and Murphy, opined that “the
majority’s decision on the issue of qualified immunity
is barely colorable.” App. 197a. The dissent began by
noting that “the putative constitutional violation
concerns the vaguest of constitutional doctrines,

18
namely substantive due process,” and that claim’s
“easy malleability makes it a notably poor instrument
for prying away an officer’s qualified immunity.” Ibid.
What’s more, “the bodily integrity caselaw fails to
provide the high degree of specificity necessary to
overcome qualified immunity, at least as to the claim
here.” App. 198a (cleaned up). “To cite the majority’s
own examples: the right protects against forcible
injection of antipsychotic medication; against forcible
stomach-pumping; and, in a district court case,
against conducting medical experiments upon cancer
patients without their consent.” App. 198a–99a
(cleaned up). “Nobody forcibly injects or stomachpumps or conducts medical experiments upon another
person by accident,” yet “even the majority concedes
that there is no allegation defendants intended to
harm Flint residents.” App. 199a (cleaned up). “Thus,
the only manner in which the majority’s ‘examples
illustrate the breadth’ of the right to bodily integrity,
is to show that the right is inapposite here.” Ibid.
(cleaned up).
The dissent recognized that what the majority did
in response to the adverse caselaw was to inappropriately describe the alleged right at a very general
level: “a constitutional right to be free of unwanted
substances.” App. 199a. (cleaned up). “That putative
right is violated every day, indeed every time that
virtually any of us takes a breath.” Ibid. And “the
majority’s formulation elides what the prior cases
requires—namely that the officer’s injection or
intrusion of the ‘foreign substance’ into the plaintiff’s
body be intentional. App. 199a–200a.

19
In sum, said the dissent, the majority’s opinion
“does exactly what the Supreme Court has repeatedly
told us not to do.” App. 200a (quoting Etherton v.
Rivard, 800 F.3d 737, 757 (6th Cir. 2015) (dissenting
opinion), rev’d sub nom. Woods v. Etherton, 136 S. Ct.
1149 (2016) (per curiam)).
REASONS FOR GRANTING THE PETITION
The Sixth Circuit’s opinion conflicts with numerous decisions of this and other courts by expanding the
Due Process Clause’s coverage into new territory and
altering the scope of qualified immunity for government officials. Absent this Court’s intervention,
nearly 50 similar cases in Michigan—and hundreds
more around the country—will be litigated based on a
suspect constitutional theory and in derogation of a
right to qualified immunity that courts have long
endorsed. Given the pervasive conflicts and the
tremendous waste of judicial and party resources, the
Court should grant the petition, reverse, and direct
that judgment be entered for Petitioners.

20
I.

The Sixth Circuit’s decision transforms the
qualified-immunity defense.
A. Qualified immunity protects government
officials from being sued for mistakes.

When resolving a governmental employee’s
assertion of qualified immunity, courts determine
(1) whether the facts the plaintiff has alleged
establish the violation of a constitutional right, and
(2) whether the right at issue was “clearly established” at the time of the incident. Pearson v.
Callahan, 555 U.S. 223, 232 (2009). Courts may
examine the two prongs in any order. Id. at 236.
An employee invoking qualified immunity does
not have to be infallible. It applies even when a government employee is mistaken about the law, facts, or
mixed questions of law and fact. Pearson, 555 U.S. at
231. “Qualified immunity gives government officials
breathing room to make reasonable but mistaken
judgments about open legal questions [and] protects
‘all but the plainly incompetent or those who
knowingly violate the law.’” Ashcroft v. al-Kidd, 563
U.S. 731, 743 (2011) (citations omitted).
To overcome a qualified-immunity defense, a
plaintiff must show that the constitutional right allegedly violated is clearly established in a particularized
sense so that a reasonable official in the defendant’s
position knows that his or her actions violate that
right. Saucier v. Katz, 533 U.S. 194, 202 (2001). For a
right to be clearly established, its contours must be
“sufficiently clear that every reasonable official would
have understood that what he is doing violates that
right.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(quoting Reichle v. Howards, 566 U.S. 658, 664
(2012)).

21
Because the “dispositive question is whether the
violative nature of particular conduct is clearly established,” courts look to how existing precedent applies
to each defendant’s actions in the ‘specific context of
the case” before it. Id. (cleaned up). A plaintiff must
be able to identify a case with a similar fact pattern,
one that would have given “fair and clear warning to
officers” about what the law requires. White v. Pauly,
137 S. Ct. 548, 552 (2017). Whether a law is clearly
established may not be defined at a high level of
generality. al-Kidd, 563 U.S. at 742.
B. The Sixth Circuit changed what it means
for a constitutional right to be “clearly
established.”
“As the majority acknowledge[d], plaintiffs point
to no factually similar controlling case in which a
court found that such conduct violated a right to
bodily integrity.” App. 96a (McKeague, J., dissenting).
“This alone should have been an important indication
to the majority that the defendants’ conduct did not
violate plaintiffs’ ‘clearly established rights.’” Ibid.
(quoting White, 137 S. Ct. at 552 (cleaned up)).
Indeed, “in case after case around the country,
courts have consistently rejected substantive-dueprocess claims based on the type of conduct alleged
here.” App. 96a (McKeague, J., dissenting). Courts
have refused to extend due-process protection to
include a right to a contaminant-free environment,
contaminant-free water, the right to receive clean
water, or the right to accurate information from a
government spokesperson about water. These cases
include but are not limited to:

22
•

Branch v. Christie, where the court rejected
claims against state officials who were alleged
to have “knowingly exposed [school] children
. . . to water that was contaminated with
unsafe levels of lead,” and “concoct[ing] a
scheme to cover up the health hazard.” 2018
WL 337751, at *1 (D.N.J. Jan. 8, 2018). While
the right to bodily integrity guarantees the
“right generally to resist enforced medication,” and to be “free from medical invasion,”
the right does not guarantee “a right to
minimum levels of safety” or protection from
contaminated water. Id. at *7.

•

Coshow v. City of Escondido, where the court
rejected the plaintiffs’ bodily-integrity claims
against city officials who knowingly added
fluoride to public drinking water even though
the fluoride might have contained “trace
levels of lead and arsenic.” 132 Cal. App. 4th
687, 700 (Cal. Ct. App. 2005). And unlike the
officials in Coshow, none of the MDEQ
Petitioners here “made a conscious decision to
introduce lead into Flint’s water.” App. 99a
(McKeague, J., dissenting).

•

Foli v. Metro. Water Dist. of S. Cal., where the
Ninth Circuit adopted the Coshow court’s
“well-reasoned conclusion” denying a bodilyintegrity claim based on additives in public
drinking water. It agreed that fluoridating
public drinking water “is not forced medication because the public is not forced to use the
water and fluoridation is not the type of invasive medical procedure that implicates” a constitutional bodily-integrity right. 592 Fed.
App’x 634, 635 (9th Cir. 2015).

23
•

Hood v. Suffolk City Sch. Bd., where the
Fourth Circuit rejected a plaintiff’s claim for
exposure to mold and contaminants as a
bodily-integrity violation because a liberty
interest in bodily integrity is only recognized
in very limited circumstances. There is no
right to be free from unreasonable risks of
bodily harm. 469 Fed. App’x 154, 159 (4th Cir.
2012)

•

Greene v. Plano Indep. Sch. Dist., where the
Fifth Circuit affirmed the grant of defendants’
motion to dismiss because the plaintiff’s
allegations that the school knew of dangerous
mold but failed to remedy or warn her of the
risk of harm did not rise to the level of a
substantive-due-process violation. 103 Fed.
App’x 542, 544–45 (5th Cir. 2004).

•

Benzman v. Whitman, which involved the
Second Circuit’s rejection of substantive-dueprocess claims against EPA officials for
making “false and misleading” statements
regarding air quality after the September 11
terrorist attacks. 523 F.3d 119, 123–27 (2d
Cir. 2008) (“no court has ever held a government official liable for denying substantive
due process by issuing press releases or making public statements”); Lombardi v. Whitman, 485 F.3d 73, 74 (2d Cir. 2007) (same).

•

Kaucher v. County of Bucks, where the Third
Circuit rejected a substantive-due-process
claim by corrections employees who became ill
due to a jail’s unsanitary conditions and officials’ false and misleading statements about
the scope of the problem. 455 F.3d 418, 420,
428–30 (3d Cir. 2006).

24
•

Walker v. City of East Chicago, where the
federal court rejected a claim based on officials allowing a housing authority to “build
and operate public housing in an area with
contaminated soil.” 2017 WL 4340259, at *6
(N.D. Ind. Sept. 29, 2017).

•

Allen v. N.Y.C. Hous. Auth., denying a
substantive-due-process claim based on the
housing authority knowing of mold in plaintiff’s apartment but failing to effectively
remediate the condition because a government actor’s failure to protect an individual
from a known danger to bodily harm did not
amount to a constitutional violation. 2012
U.S. Dist. LEXIS 130307, at *20–28 (S.D.N.Y.
July 16, 2012).

•

Paige v. N.Y.C. Hous. Auth., granting defendants’ motion to dismiss a substantive-dueprocess claim based on a failure to remove or
address lead paint in residences because allegations of failing to provide a safe environment are insufficient to state a substantivedue-process claim. 2018 U.S. Dist. LEXIS
137238, at *32–35 (S.D.N.Y. Aug. 14, 2018).

•

In re Camp Lejeune N. Carolina Water
Contamination Litigation, which rejected a
claim by service members who alleged that
officials failed to monitor water quality and
notify them of toxic substances. 263 F. Supp.
3d 1318, 1325, 1359 (N.D. Ga. 2016).

25
•

Naperville Smart Meter Awareness v. City of
Naperville, where a court rejected a claim that
radio waves from devices officials installed in
homes posed health risks. 69 F. Supp. 3d 830,
839 (N.D. Ill. 2014).

•

Lopresti v. Norwalk Pub. Sch., 2014 U.S. Dist.
LEXIS 139361 (D. Conn. 2014), rejecting a
claim that the defendant had “intentionally
and maliciously” exposed individuals to a
highly dangerous environment related to mold
and concealed it because failure to warn or
remedy dangerous environmental conditions
did not constitute a constitutional violation.

•

Roudat v. Georgia Dep’t of Cmty. Affairs, 2017
US Dist. LEXIS 25192 (N.D. Ga. 2017),
rejecting a due-process claim based on failing
to remedy or prevent exposure to mold and
contaminants.

•

And J.S. ex rel. Simpson v. Thorsen, which
rejected a claim by a student that school
officials knowingly concealed a mold problem
that affected the student’s health. 766 F.
Supp. 2d 695, 712 (E.D. Va. 2011). See also
Hood v. Suffolk City School Board, 469 Fed.
App’x 154 (4th Cir. 2012) (similar).

The majority ignored these and similar cases
because it believed that Petitioners’ conduct was
comparable to intentionally and systemically poisoning an entire community. But this “is not a case about
a government official knowingly and intentionally
introducing a known contaminant into another’s body
without that person’s consent.” App. 101a–02a
(McKeague, J., dissenting). “It is about a series of

26
erroneous and unfortunate policy and regulatory decisions and statements that, taken together, allegedly
caused plaintiffs to be exposed to contaminated
water.” App. 102a. The “clearly established” law the
majority cited put the MDEQ Petitioners on notice of
completely different prohibited conduct: it is unlawful
for government officials to forcibly induce vomiting,
administer anti-psychotic drugs to pretrial detainees,
or to cut off life support in some circumstances.
The Sixth Circuit majority’s willingness to let
inapposite case law “clearly establish” Plaintiffs’
rights has mammoth repercussions. Without the
traditional limits on the malleable substantive-dueprocess guarantees of the Constitution, public officials
are exposed to unqualified liability based on allegations of abstract rights. Here, that allowed the
majority to deny qualified immunity to the MDEQ
Petitioners despite no court having ever recognized a
right to have government regulators act a certain way
if there is a possible water contamination problem or
a right to accurate press statements from agency
spokespersons. The opinion welcomes lawsuits
against food inspectors, regulators who approve
medicines and medical devices, FAA regulators who
oversee aircraft manufacturers, environmental
regulators issuing permits, and even agency
spokespersons who play no part in the regulatory
process, making it nearly impossible to find anyone
willing to accept these important government
positions.

27
C. The Sixth Circuit has changed the meaning of “conscience-shocking” behavior.
“[A] policymaker’s or regulator’s unwise decisions
and statements or failures to protect the public are
typically
not
considered
conscience-shocking
conduct.” App. 72a (McKeague, J., dissenting).
“[N]egligence—even gross negligence—does not
implicate the Due Process Clause’s protections.” Ibid.
(citing Daniels v. Williams, 474 U.S. 327, 331–33
(1986)). That is because the Due Process Clause is not
supposed to be a substitute for common-law tort
liability. Collins v. Harker Heights, 503 U.S. 115, 128
(1992). Instead, it limits government officials from
using their power as an “instrument of oppression.”
DeShaney v. Winnebago Cty. Dep’t of Soc. Servs., 489
U.S. 189, 195 (1989).
Significantly, “plaintiffs do not allege facts
showing that Shekter-Smith, Busch, Prysby, or
Wurfel personally approved the City’s use of the Flint
River and the Flint water treatment plant.” App. 79a
(McKeague, J., dissenting). Plaintiffs say the decision
was made by Flint’s Emergency Manager. App. 79a–
80a. And “plaintiffs fail to allege that any of these
MDEQ employees knew that the Flint water treatment plant was incapable of treating Flint River
water.” App. 80a. “Nor do the majority’s ‘poignant
examples’ of a handful of plaintiffs’ allegations show
an attempt by any MDEQ employee to knowingly
mislead the public about Flint’s alleged noncompliance with drinking water laws or to falsely assure
residents of the water’s safety.” Ibid. In sum,
Plaintiffs’ allegations “do not plausibly demonstrate a
callous disregard for or intent to injure plaintiffs, let
alone any effort to ‘systematically contaminate’ the
Flint community.” App. 85a–86a.

28
Regarding the claims against Prysby, Shekter
Smith, and Busch, “[e]ven if the MDEQ employees
made mistakes in interpreting the [Lead and Copper]
Rule, those mistakes are not conscience-shocking.”
App. 86a (McKeague, J., dissenting). The EPA has
said that the unique situation here “rarely arises and
the language of the [Lead and Copper Rule] does not
specifically discuss such circumstances. . . . [I]t
appears that there are differing possible interpretations of the LCR with respect to how the rule’s optimal
corrosion control treatment procedures apply to this
situation, which may have led to some uncertainty
with respect to the Flint water system.” 11/3/15 EPA
Memorandum, Mays v. City of Flint, E.D. Mich. No.
16-cv-11519 (RE 29-11, PgID 1135–37), Sixth Circuit
No. 16-2484. Given that MDEQ officials could be
confused by this uncertainty and apply a plausible
interpretation different from that which the EPA now,
in hindsight, has opined should be applied in these
unique circumstances, it is impossible to say that the
MDEQ Petitioners’ conduct rose to the level of
egregiousness required to strip them of qualified
immunity.
Similarly, regarding the claims against Wurfel,
even if his statements were erroneous, the factual
allegations against him do not support a conclusion
that these statements were intentional lies or that
they shock the conscience. Instead, as Judge
McKeague noted, “[a]t most, they show a mistake of
law or fact, made at least in partial reliance on the
representations of other State employees.” App. 85a
(McKeague, J., dissenting).

29
Again, the majority has rendered a significant rift
in qualified-immunity jurisprudence. To begin, in
opening the door to amorphous constitutional claims
based on alleged failures to act, the Sixth Circuit
allowed allegations to go forward that this Court has
said are not actionable. E.g., DeShaney, 489 U.S. at
195 (“It is not enough to allege that a government
actor failed to protect an individual from a known
danger of bodily harm or failed to warn the individual
of that danger.”).
The Sixth Circuit itself has previously declined to
recognize a substantive-due-process right to be protected from exposure to contaminants, even when the
government actors allegedly created the exposure,
because such conduct did not “shock the conscience.”
In Upsher v. Grosse Point Pub Sch. Sys., 285 F.3d 448,
450 (6th Cir. 2002), the court rejected Section 1983
substantive-due-process claims premised on the
defendant forcing plaintiffs to remove carpet knowing
that the process would expose them to asbestos. A
contractor had refused to perform the work due to
asbestos-exposure concerns, yet defendant required
plaintiffs to perform the work without appropriate
safety equipment. Id. The Sixth Circuit turned to how
the plaintiffs described the constitutional right in
their complaint, and found that plaintiffs’ claim that
defendants had willfully, maliciously, and recklessly
disregarded their health and safety was not substantiated because there was no evidence that the defendants either intentionally injured the plaintiffs or
engaged in arbitrary conduct “intentionally designed
to punish someone.” Id. at 452–53; accord Lewellen v.
Metropolitan Gov’t, 34 F.3d 345, 348 (6th Cir. 1994)
(denying substantive-due-process claim based on
government’s decision to build a school in the
immediate vicinity of a high-voltage conductor line in

30
violation of applicable safety codes and standards
because the defendants “obviously did not make a
deliberate decision to inflict pain and bodily injury.”).
Highlighting the inherent contradiction between
the majority’s opinion and existing, clearly established substantive-due-process case law of what
constitutes “conscience shocking behavior,” the Sixth
Circuit came to the opposite conclusion in a substantially similar bodily-integrity case just a few months
ago. The court recently affirmed dismissal of a bodilyintegrity claim premised on forced consumption of
lead-contaminated water because it was in a noncustodial setting and the plaintiff had not proven
either intentional injury or arbitrary conduct intentionally designed to punish the plaintiff that “shocks
the conscience.” Brown v. Detroit Pub. Sch. Cmty.
Dist., 763 Fed. App’x 497, 503–04 (6th Cir. 2019). The
allegations in Brown closely track those here. While
the plaintiff in Brown argued that defendants violated
her constitutional rights by forcing her to use toxic
water for weeks due to the school’s “shocking misrepresentations,” the Sixth Circuit upheld dismissal of
plaintiff’s bodily-integrity claim because allegations of
providing plaintiff with contaminated water and
causing her to consume the water, thereby exposing
her to a foreseeable risk of harm, “suggest negligence,
rather than a deliberate imposition of bodily harm.”
Id. at 503.
In addition, the Sixth Circuit’s new conscienceshocking standard conflicts with numerous decisions
holding that a mere mistake of law—like most of
Petitioners’ differing interpretation of the Lead and
Copper Rule—is insufficient to defeat a qualifiedimmunity defense. E.g., Pearson, 555 U.S. at 231

31
(“The protection of qualified immunity applies regardless of whether the government official’s error is ‘a
mistake of law, a mistake of fact, or a mistake based
on mixed questions of law and fact.’”); Singh v. Cordle,
__ F.3d __, 2019 WL 4050272, at *5 (10th Cir. Aug. 28,
2019) (qualified immunity “applies regardless of
whether the government official’s error is a mistake of
law”); Naumovski v. Norris, 934 F.3d 200 (2d Cir.
2019) (“Government officials are thus shielded from
liability whenever their actions are based on reasonable mistakes of law”); Eves v. LePage, 927 F.3d
575, 588 (1st Cir. 2019) (“A reasonable mistake of law
does not defeat qualified immunity.”). The standard
also conflicts with the Second Circuit’s opinions in
Benzman and Lombardi, which rejected bodilyintegrity claims indistinguishable from the current
claim against Wurfel based on allegedly false statements to the press.
Petitioners’ alleged conduct here consists of
internal emails, intra-governmental communications,
communications with the EPA, and press statements
to media members in a quickly changing and difficult
regulatory situation. None of this conduct satisfies the
“shocks the conscience” standard, and the Sixth
Circuit’s contrary holding warrants this Court’s grant
of this petition.

32
II. No previous court has recognized a
constitutional right to bodily integrity to be
protected by state regulators from exposure
to contaminants in drinking water or from
allegedly false statements made by an
agency spokesperson to the media.
As Judge McKeague explained in his panel
dissent, this Court and other federal circuits have
consistently interpreted the bodily-integrity right as
one that prohibits “forcible physical intrusion of the
body by the government.” App. 91a–94a (citations
omitted). The Sixth Circuit’s contrary decision creates
a substantial rift in the law of substantive due
process, one that will expose government regulators to
constitutional liability in a broad variety of contexts.
The same cases that make it impossible for Plaintiffs to show that they have a “clearly established”
constitutional right to safe drinking water, see supra
§ I.B., make clear that Plaintiffs have no substantivedue-process claim at all. Plaintiffs’ cited cases, and
those on which the Sixth Circuit majority relied,
consistently involve a direct physical invasion. This
Court’s precedents are of the same ilk. E.g., Rochin,
342 U.S. at 172–74 (state secured evidence for a
criminal prosecution by using a vomit-inducing
solution to forcibly extract evidence from the suspect’s
stomach); McNeely, 569 U.S. at 148 (“compelled
physical intrusion beneath [a suspect’s] skin and into
[the] veins to obtain a” blood sample); Winston, 470
U.S. at 767 (nonconsensual surgery to retrieve a bullet
from a suspect’s chest); Harper, 494 U.S. at 223
(unwanted administration of antipsychotic drugs to
an inmate); Riggins, 540 U.S. at 135 (unwanted
administration of drugs for pretrial detainees). So are
decisions from other circuits. E.g., Barrett (state

33
psychiatric hospital administered injections of a
compound the United States furnished as part of a
program to test the suitability of the injected
substance as a warfare agent); Lojuk (administering
of electroconvulsive therapy without patient consent);
Rogers (state administration of antipsychotic drugs to
involuntary patients at state mental health facilities).
Contrast all these cases with the one that the
Sixth Circuit majority found “especially analogous,”
In re Cincinnati Radiation Litigation, 874 F. Supp.
796 (S.D. Ohio 1995), a nonbinding district-court case.
That litigation involved government officials who
subjected unwitting cancer patients to high levels of
radiation on the pretense of performing cancer
treatment. Government officials intentionally and
deliberately injected the patients with radiation. That
situation is a far cry from saying that substantive due
process “protects an indeterminate number of public
citizens from certain regulatory decisions or
statements that have some impact on the quality of
public drinking water or any other environmental
resource,” the claim that Plaintiffs allegedly
presented and the majority accepted. App. 93a–94a
n.4 (McKeague, J., dissenting).
Deliberately injecting specific citizens with
radiation is not comparable to what happened here.
The MDEQ Petitioners did not intentionally or purposefully inject Plaintiffs with lead or force them to
ingest anything. They were doing the best they could
in difficult circumstances with limited information
certified by Flint as accurate and in compliance with
Lead and Copper Rule mandates. What the cases cited
in section I.A. show are that substantive-due-process
claims are regularly dismissed even where governmental defendants exercise a much greater degree of

34
control over the complained of environment or
contaminant because there is no constitutional right
to be protected by public officials from exposure to
contaminants under the Fourteenth Amendment.
These cases also demonstrate that the provision of
public housing or public water is not akin to forcible
injections or intrusions.
These differing circumstances are why the majority conceded that Plaintiffs have not alleged that any
MDEQ Petitioners intentionally tried to harm anyone. Yet the majority’s substantial departure from the
Sixth Circuit’s precedents and those of other courts
blows wide open the doors to governmental liability in
a context where constitutional claims are easy to
assert and difficult to defend.
Regarding Wurfel’s alleged media statements, no
court anywhere has ever held that statements made
to media members were a violation of a right to bodily
integrity. Indeed, the Second Circuit recognized this
in dismissing analogous claims in Benzman and
Lombardi. The panel majority here suggested that
Benzman and Lombardi were distinguishable because
those cases “involved the balancing of competing
government interests . . . during a time-sensitive
environmental emergency.” App. 33a. But the
Benzman plaintiffs resided, attended school, or
worked in lower Manhattan or Brooklyn, and there
was no immediate emergency (as in Lombardi) that
would have required the EPA to make public
statements reassuring the public that they could
return to their homes, jobs, or schools. Benzman, 523
F.3d at 123. Though the Benzman plaintiffs emphasized this point, id. at 128, the court nonetheless
dismissed their claims.

35
Additionally, the “competing government interests” at issue in Benzman were the EPA Administrator’s choice between accepting guidance from the
White House Council on Environmental Quality
(“CEQ”) or disregarding the CEQ’s views when communicating with the public. Id. at 128. Here, Wurfel
faced similar competing government interests. Just as
the EPA Administrator faced a choice over whether to
accept guidance from the CEQ, Wurfel similarly faced
a choice between accepting guidance from the State’s
technical experts regulating Flint’s operation of its
water treatment plant or disregarding these views in
communicating with the press. The Sixth Circuit’s
reliance on the emergency-nature dichotomy was
misguided, and its holding a significant, unwarranted
expansion of substantive-due-process liability.
III. This case is an ideal vehicle to clear up the
substantial confusion caused by the Sixth
Circuit’s published decision.
The Sixth Circuit’s unprecedented holding
requires this Court’s immediate intervention, and this
case is an ideal vehicle for this Court to address the
important questions presented.
First, the legal questions presented are unencumbered by factual issues. For purposes of this proceeding, Petitioners accept the truth of all the allegations
pled in the Complaint. Notably, this Court regularly
reviews qualified-immunity issues.
Second, the issues are monumentally important.
Claims based on the constitutional right to bodily
integrity are a growing cottage industry for plaintiffs’
lawyers. And given the legacy of lead-pipe systems in
nearly all major American cities, such claims will only
continue to grow. Moreover, regulators and agency

36
spokespersons in innumerable other contexts may
face previously unimagined lawsuits in reliance on
the Sixth Circuit’s reasoning.
Third, the Sixth Circuit’s holding is undeniably
out of step with decisions of this Court and other
circuits, both in the context of bodily-integrity claims
and qualified immunity.
Fourth, this case is one of 49 similar cases
currently pending before the United States District
Court for the Eastern District of Michigan. Absent
this Court’s intervention, tremendous judicial and
party time and resources will be needlessly expended.
Fifth, lawsuits targeting alleged lead contamination of public drinking water are not limited to Flint.
Additional cases are pending across the nation,
including in Chicago, Fresno, and Newark, among
others. These cases, and the governmental regulators
in those states, will similarly be affected by the
decision here, absent this Court’s action. The
majority’s opinion is already being relied on outside
the context of “Flint Water Crisis” cases by numerous
courts to expand the substantive-due-process guarantees of bodily integrity and contract the protection of
qualified immunity. E.g., Davis v. New York City
Hous. Auth., 379 F. Supp. 3d 237, 255 (S.D.N.Y. 2019)
(relying on Guertin in denying qualified immunity to
government officials from tenant’s claim that her
right to bodily integrity was violated by exposure to
extreme cold in her public housing apartment that
lacked heat); Hootstein v. Amherst-Pelham Reg’l Sch.
Comm., 361 F. Supp. 3d 94, 112–13 (D. Mass. 2019)
(relying on Guertin to deny qualified immunity from a
bodily-integrity claim based on alleged exposure to
lead contaminated water provided to students and
parents despite school allegedly knowing of high lead

37
levels); and Schulkers v. Kammer, 367 F. Supp. 3d 626
(E.D. Ky. 2019) (“the Sixth Circuit has recently
emphasized that we ‘do not require a prior, precise
situation’ or ‘a finding that the very action in question
has previously been held unlawful’ to conclude that
officials had ‘fair warning’ that their conduct was
unconstitutional”).
And finally, there is no need for further percolation. The conflicts are clear and, having denied en
banc rehearing, the Sixth Circuit is unlikely to revisit
its unprecedented decision. This Court should not
delay but should instead grant the petition now.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JOHN J. BURSCH
Counsel of Record
BURSCH LAW PLLC
9339 Cherry Valley
Avenue SE, #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com
Counsel for Petitioners
CHARLES E. BARBIERI
ALLISON M. COLLINS
FOSTER, SWIFT, COLLINS
& SMITH, P.C.
313 S. Washington Square
Lansing, MI 48933
(517) 371-8155
CBarbieri@fosterswift.com
Counsel for Petitioner
Prysby

38
MICHAEL JOHN PATTWELL
JAY M. BERGER
CHRISTOPHER B. CLARE
CLARK HILL PLC
500 Woodward Ave.
Suite 3500
Detroit, MI 48226
(517) 318-3043
mpattwell@clarkhill.com
Counsel for Petitioner
Wurfel
THADDEUS E. MORGAN
MICHAEL H. PERRY
FRASER TREBILCOCK
124 W. Allegan Street
Suite 1000
Lansing, MI 48933
(517) 377-0877
tmorgan@fraserlawfirm.com
Counsel for Petitioner
Shekter Smith
PHILIP A. GRASHOFF, JR.
SMITH HAUGHEY RICE &
ROEGGE
100 Monroe Center NW
Grand Rapids, MI 49503
(616) 458-3633
pgrashoff@shrr.com
Counsel for Petitioner
Busch
SEPTEMBER 2019

ia
PETITION APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the Sixth
Circuit,
Opinion in 17-1698 /1699 /1745 /1752 /1769,
Issued January 4, 2019 ................................... 1a–105a
United States District Court for the Eastern
District of Michigan,
Opinion and Order Granting in Part and
Denying in Part Defendants’ Motions to
Dismiss in 16-cv-12412,
Issued June 5, 2017 ..................................... 106a–183a
United States Court of Appeals for the Sixth
Circuit,
Order Denying Petitions for Rehearing En
Banc in 17-1699/1745,
Issued May 16, 2019 .................................... 184a–200a

1a
RECOMMENDED FOR FULL-TEXT
PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0003p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________________
SHARI GUERTIN, individually and as
next friend of her child, E.B., a
minor; DIOGENES MUSE-CLEVELAND,

Nos. 17-1698
/1699 /1745
/1752 /1769

Plaintiffs-Appellees,
v.
STATE OF MICHIGAN, et al.,
Defendants,
CITY OF FLINT, MICHIGAN, HOWARD
CROFT, DARNELL EARLEY, and
GERALD AMBROSE (17-1699); LIANE
SHEKTER-SMITH, DANIEL WYANT,
STEPHEN BUSCH, MICHAEL PRYSBY,
and BRADLEY WURFEL (17-1745);
NANCY PEELER (17-1752); ROBERT
SCOTT (17-1769); EDEN WELLS and
NICK LYON (17-1698),
Defendants-Appellees. [sic]
Appeal from the United States District Court for the
Eastern District of Michigan at Ann Arbor.
No. 5:16-cv-12412—Judith E. Levy, District Judge.
Argued: June 6, 2018
Decided and Filed: January 4, 2019

2a
Before: McKEAGUE, GRIFFIN, and WHITE,
Circuit Judges.
_________________
COUNSEL
ARGUED: Zachary C. Larsen, OFFICE OF THE
MICHIGAN ATTORNEY GENERAL, Lansing,
Michigan, for Appellants in 17-1698. Frederick A.
Berg, Jr., BUTZEL LONG, P.C., Detroit, Michigan,
for Appellants in 17-1699. John J. Bursch, BURSCH
LAW PLLC, Caledonia, Michigan, for Appellants in
17-1745. Michael S. Cafferty, Detroit, Michigan, for
Appellant in 17-1752. Kurt Krause, CHARTIER &
NYAMFUKUDZA, P.L.C., East Lansing, Michigan,
for Appellant in 17-1769. Paul T. Geske, MCGUIRE
LAW, P.C., Chicago, Illinois, for Appellees. Samuel
R. Bagenstos, Ann Arbor, Michigan, for Amicus
Curiae.
ON BRIEF: Zachary C. Larsen, Richard S. Kuhl,
Margaret A. Bettenhausen, Nathan A. Gambill,
OFFICE OF THE MICHIGAN ATTORNEY GENERAL, Lansing, Michigan, for Appellants in 17-1698.
Frederick A. Berg, Jr., Sheldon H. Klein, BUTZEL
LONG, P.C., Detroit, Michigan, Nikkiya T. Branch,
PERKINS LAW GROUP, Detroit, Michigan,
Alexander S. Rusek, WHITE LAW PLLC, Okemos,
Michigan, William Y. Kim, CITY OF FLINT, Flint,
Michigan, Barry A. Wolf, LAW OFFICE OF BARRY
A. WOLF PLLC, Flint, Michigan, for Appellants in
17-1699. John J. Bursch, BURSCH LAW PLLC,
Caledonia, Michigan, Philip A. Grashoff, Jr., KOTZ
SANGSTER WYSOCKI P.C., Bloomfield Hills,
Thaddeus E. Morgan, Michael H. Perry, FRASER
TREBILCOCK, Lansing, Michigan, Charles E.
Barbieri, Allison M. Collins, FOSTER, SWIFT,
COLLINS & SMITH, P.C., Lansing, Michigan, Jay

3a
M. Berger, Michael J. Pattwell, Jordan S. Bolton,
Christopher B. Clare, CLARK HILL PLC, Detroit,
Michigan, for Appellants in 17-1745. Michael S.
Cafferty, Detroit, Michigan, for Appellant in 17-1752.
Mary Chartier, CHARTIER & NYAMFUKUDZA,
P.L.C., East Lansing, Michigan, for Appellant in 171769. Paul T. Geske, MCGUIRE LAW, P.C., Chicago,
Illinois, Steven Hart, HART, MCLAUGHLIN &
ELDRIDGE, LLC, Chicago, Illinois, John Sawin,
SAWIN LAW FIRM, LTD., Chicago, Illinois, for
Appellees. Samuel R. Bagenstos, Ann Arbor,
Michigan, for Amicus Curiae. Richard S. Kuhl,
Margaret A. Bettenhausen, Nathan A. Gambill,
Zachary C. Larsen, OFFICE OF THE MICHIGAN
ATTORNEY GENERAL, Lansing, Michigan, for
Amicus Curiae in 17-1699.
GRIFFIN, J., delivered the opinion of the court in
which WHITE, J., joined, and McKEAGUE, J., joined
in part. McKEAGUE, J. (pp. 40–70), delivered a
separate opinion concurring in part and dissenting in
part.
_________________
OPINION
_________________
GRIFFIN, Circuit Judge.
This case arises out of the infamous governmentcreated environmental disaster commonly known as
the Flint Water Crisis. As a cost-saving measure
until a new water authority was to become operational, public officials switched the City of Flint
municipal water supply from the Detroit Water and
Sewerage Department (DWSD) to the Flint River to
be processed by an outdated and previously mothballed water treatment plant. With the approval of

4a
State of Michigan regulators and a professional
engineering firm, on April 25, 2014, the City began
dispensing drinking water to its customers without
adding chemicals to counter the river water’s known
corrosivity.
The harmful effects were as swift as they were
severe. Within days, residents complained of foul
smelling and tasting water. Within weeks, some residents’ hair began to fall out and their skin developed
rashes. And within a year, there were positive tests
for E. coli, a spike in deaths from Legionnaires’
disease, and reports of dangerously high blood-lead
levels in Flint children. All of this resulted because
the river water was 19 times more corrosive than the
water pumped from Lake Huron by the DWSD, and
because, without corrosion-control treatment, lead
leached out of the lead-based service lines at alarming rates and found its way to the homes of Flint’s
residents. The crisis was predictable, and preventable. See generally Mason v. Lockwood, Andrews &
Newnam, P.C., 842 F.3d 383, 387 (6th Cir. 2016).
I.
Plaintiffs Shari Guertin, her minor child E.B.,
and Diogenes Muse-Cleveland claim personal
injuries and damages from drinking and bathing in
the lead-contaminated water. Plaintiffs’ complaint
asserted various claims against numerous state, city,
and private-actor defendants. In response to motions
to dismiss, the district court granted in part and
denied in part the motions. In its written order, the
court dismissed many of the original claims and
original defendants. Plaintiffs have not filed a cross
appeal. The defendants who were not dismissed now
appeal and are collectively referred to as “defendants” throughout this opinion. The plaintiffs’ sole

5a
remaining claim is that defendants violated their
right to bodily integrity as guaranteed by the
Substantive Due Process Clause of the Fourteenth
Amendment. They bring this claim pursuant to 42
U.S.C. § 1983, under which “an individual may bring
a private cause of action against anyone who, under
color of state law, deprives a person of rights,
privileges, or immunities secured by the Constitution
or conferred by federal statute.” Wurzelbacher v.
Jones-Kelley, 675 F.3d 580, 583 (6th Cir. 2012).
II.
On this appeal, we decide two substantial issues
of public importance. First, viewing each defendant
individually, did the district court err in denying
defendants’ motions to dismiss based upon qualified
immunity? Specifically, did plaintiffs plead a plausible Fourteenth Amendment Due Process violation of
their right to bodily integrity and was such a
constitutional right clearly established when the
defendants acted? We join the United States District
Court for the Eastern District of Michigan, In re
Flint Water Cases, 329 F. Supp. 3d 369 (E.D. Mich.
2018), vacated on other grounds (Nov. 9, 2018), and
Guertin v. Michigan, 2017 WL 2418007 (E.D. Mich.
June 4, 2017), the Michigan Court of Appeals, Mays
v. Snyder, 916 N.W.2d 227 (Mich. Ct. App. 2018), and
the Michigan Court of Claims, Mays v. Snyder, No.
16-000017-MM (Mich. Ct. Cl. Oct. 26, 2016),1 in
holding that plaintiffs have pled a plausible Due
1 The Michigan Court of Appeals and Michigan Court of Claims
construed the Due Process Clause of the Michigan Constitution
and, following Michigan precedent, deemed it coextensive with
its federal counterpart. See, e.g., Mays, 916 N.W.2d at 261.

6a
Process violation of bodily integrity regarding some
of the defendants. For the reasons that follow, we
affirm the district court’s order denying the motions
to dismiss based upon qualified immunity regarding
defendants Howard Croft, Darnell Earley, Gerald
Ambrose, Liane Shekter-Smith,2 Stephen Busch,
Michael Prysby, and Bradley Wurfel. However, we
reverse the denial of the motions to dismiss
regarding defendants Daniel Wyant, Nick Lyon,
Eden Wells, Nancy Peeler, and Robert Scott because
plaintiffs’ complaint alleges mere negligence, and not
a constitutional violation against them.
The second issue is whether the City of Flint is
entitled to Eleventh Amendment immunity from
plaintiffs’ suit because the takeover by the State of
Michigan of the City of Flint pursuant to Michigan’s
“Emergency Manager” law transformed the City into
an arm of the state. It is not, and we therefore affirm
the district court’s same holding.
III.
We possess jurisdiction under 28 U.S.C. § 1291
and the “collateral-order doctrine,” as defendants are
appealing the denial of qualified and Eleventh
Amendment immunity. Kaminski v. Coulter, 865
F.3d 339, 344 (6th Cir. 2017). The district court
granted in part and denied in part defendants’
motions to dismiss plaintiffs’ complaint under
Federal Rule of Civil Procedure 12(b)(6). Given this
procedural posture, we construe the complaint in the
light most favorable to plaintiffs, accept all wellpleaded factual allegations as true, and draw all
2 We have changed the docket to correct plaintiffs’ misspelling
of Shekter-Smith’s name.

7a
reasonable inferences in plaintiffs’ favor. Crosby v.
Univ. of Ky., 863 F.3d 545, 551–52 (6th Cir. 2017).
But if we are to affirm, the factual allegations in
plaintiffs’ complaint must plausibly allege a legally
recognized constitutional claim. See generally Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 556–58 (2007).
IV.
Qualified immunity shields public officials “from
undue interference with their duties and from potentially disabling threats of liability.” Harlow v.
Fitzgerald, 457 U.S. 800, 806 (1982). It is not a “mere
defense to liability”; the doctrine provides “immunity
from suit.” Mitchell v. Forsyth, 472 U.S. 511, 526
(1985). This immunity “gives government officials
breathing room to make reasonable but mistaken
judgments about open legal questions,” “protect[ing]
all but the plainly incompetent or those who knowingly violate the law.” Ashcroft v. al-Kidd, 563 U.S.
731, 743 (2011) (internal quotation marks omitted).
A plaintiff bears the burden of showing that a defendant is not entitled to qualified immunity. Bletz v.
Gribble, 641 F.3d 743, 750 (6th Cir. 2011). To do so, a
plaintiff must show “(1) that the official violated a
statutory or constitutional right, and (2) that the
right was clearly established at the time of the challenged conduct.” al-Kidd, 563 U.S. at 735 (internal
quotation marks omitted). The district court concluded plaintiffs met this standard, and we review
that decision de novo. Sutton v. Metro. Gov’t of
Nashville & Davidson Cty., 700 F.3d 865, 871 (6th
Cir. 2012).
The assertion of qualified
motion-to-dismiss stage pulls
competing directions. On the one
Court has repeatedly “stressed

immunity at the
a court in two,
hand, the Supreme
the importance of

8a
resolving immunity questions at the earliest possible
stage in litigation.” Pearson v. Callahan, 555 U.S.
223, 232 (2009) (internal quotation marks omitted).
But on the other, “[w]hen qualified immunity is
asserted at the pleading stage,” as defendants did
here, “the precise factual basis for the plaintiff’s
claim or claims may be hard to identify.” Id. at 238–
39 (citation omitted). We have thus cautioned that “it
is generally inappropriate for a district court to grant
a 12(b)(6) motion to dismiss on the basis of qualified
immunity. Although . . . entitlement to qualified
immunity is a threshold question to be resolved at
the earliest possible point, that point is usually
summary judgment and not dismissal under Rule
12.” Wesley v. Campbell, 779 F.3d 421, 433–34 (6th
Cir. 2015) (internal citations, quotation marks, and
brackets omitted). The reasoning for our general
preference is straightforward: “Absent any factual
development beyond the allegations in a complaint, a
court cannot fairly tell whether a case is ‘obvious’ or
‘squarely governed’ by precedent, which prevents us
from determining whether the facts of this case
parallel a prior decision or not” for purposes of determining whether a right is clearly established. EvansMarshall v. Bd. of Educ. of Tipp City Exempted Vill.
Sch. Dist., 428 F.3d 223, 235 (6th Cir. 2005) (Sutton,
J., concurring) (brackets omitted).
V.
The Fourteenth Amendment provides that “[n]o
State shall . . . deprive any person of life, liberty, or
property, without due process of law.” U.S. CONST.
amend. XIV, § 1. Flowing directly from the
protections enshrined in the Magna Carta, see, e.g.,
Lewellen v. Metro. Gov’t of Nashville & Davidson
Cty., 34 F.3d 345, 348 (6th Cir. 1994), the Due

9a
Process Clause significantly restricts government
action—its core is “prevent[ing] government from
abusing its power, or employing it as an instrument
of oppression.” Collins v. City of Harker Heights, 503
U.S. 115, 126 (1992) (internal quotation marks and
brackets omitted); see also Cty. of Sacramento v.
Lewis, 523 U.S. 833, 845–46 (1998) (“The touchstone
of due process is protection of the individual against
arbitrary action of government, [including] the exercise of power without any reasonable justification in
the service of a legitimate government objective.”
(internal quotation marks omitted)). Although the
Clause provides no guarantee “of certain minimal
levels of safety and security,” it expressly prohibits
deprivations by “the State itself.” DeShaney v.
Winnebago Cty. Dep’t of Soc. Servs., 489 U.S. 189,
195 (1989). That is, “[i]ts purpose [is] to protect the
people from the State, not to ensure that the State
protect[] them from each other.” Id. at 196.
There are procedural and substantive due
process components. See Range v. Douglas, 763 F.3d
573, 588 (6th Cir. 2014). Only the latter component
is at issue here. Substantive due process “bar[s]
certain government actions regardless of the fairness
of the procedures used to implement them.” Daniels
v. Williams, 474 U.S. 327, 331 (1986). It “specifically
protects those fundamental rights and liberties
which are, objectively, deeply rooted in this Nation’s
history and tradition, and implicit in the concept of
ordered liberty, such that neither liberty nor justice
would exist if they were sacrificed.” Washington v.
Glucksberg, 521 U.S. 702, 720–21 (1997) (internal
quotation marks and citations omitted). The liberty
interests secured by the Due Process Clause
“include[] the right ‘generally to enjoy those privileges long recognized at common law as essential to

10a
the orderly pursuit of happiness by free men.’”
Ingraham v. Wright, 430 U.S. 651, 673 (1977) (quoting Meyer v. Nebraska, 262 U.S. 390, 399 (1923)).
These common-law privileges, the Supreme Court
has held, specifically embrace the right to bodily
integrity, Glucksberg, 521 U.S. at 720, and the right
not to be subjected to arbitrary and capricious
government action that “shocks the conscience and
violates the decencies of civilized conduct.” Lewis,
523 U.S. at 846–47 (internal quotation marks
omitted).
The Supreme Court “has always been reluctant
to expand the concept of substantive due process
because guideposts for responsible decisionmaking in
this uncharted area are scarce and open-ended.”
Collins, 503 U.S. at 125. Substantive Due Process is
not “a rigid conception, nor does it offer recourse for
every wrongful action taken by the government.”
EJS Props., LLC v. City of Toledo, 698 F.3d 845, 862
(6th Cir. 2012). As such, it “does not purport to
supplant traditional tort law in laying down rules of
conduct to regulate liability for injuries that attend
living together in society.” Daniels, 474 U.S. at 332.
That means a “‘careful description’ of the asserted
fundamental
liberty
interest”
is
essential,
Glucksberg, 521 U.S. at 721 (citation omitted),
otherwise the Clause would turn into “a font of tort
law to be superimposed upon whatever systems may
already be administered by the States.” Daniels, 474
U.S. at 332 (citation omitted). Accordingly, we “focus
on the allegations in the complaint to determine how
[plaintiffs] describe[] the constitutional right at stake
and what the [defendants] allegedly did to deprive
[them] of that right.” Collins, 503 U.S. at 125.

11a
A.
Plaintiffs’ complaint deals with the scope of the
right to bodily integrity, an indispensable right
recognized at common law as the “right to be free
from . . . unjustified intrusions on personal security”
and “encompass[ing] freedom from bodily restraint
and punishment.” Ingraham, 430 U.S. at 673–74; see
also Davis v. Hubbard, 506 F. Supp. 915, 930 (N.D.
Ohio 1980) (“In the history of the common law, there
is perhaps no right which is older than a person’s
right to be free from unwarranted personal contact.”
(collecting authorities)).
This common law right is first among equals. As
the Supreme Court has said: “No right is held more
sacred, or is more carefully guarded by the common
law, than the right of every individual to the
possession and control of his own person, free from
all restraint or interference of others, unless by clear
and unquestionable authority of law.” Union Pac. Ry.
Co. v. Botsford, 141 U.S. 250, 251 (1891); cf.
Schmerber v. California, 384 U.S. 757, 772 (1966)
(“The integrity of an individual’s person is a
cherished value of our society.”). Absent lawful
authority, invasion of one’s body “is an indignity, an
assault, and a trespass” prohibited at common law.
Union Pac. Ry., 384 U.S. at 252. On this basis, we
have concluded “[t]he right to personal security and
to bodily integrity bears an impressive constitutional
pedigree.” Doe v. Claiborne Cty., 103 F.3d 495, 506
(6th Cir. 1996).
“[T]his right is fundamental where ‘the magnitude of the liberty deprivation that the abuse inflicts
upon the victim strips the very essence of personhood.’” Kallstrom v. City of Columbus, 136 F.3d 1055,
1063 (6th Cir. 1998) (quoting Doe, 103 F.3d at 506–

12a
07) (brackets and ellipsis omitted). “We have never
retreated . . . from our recognition that any compelled intrusion into the human body implicates
significant, constitutionally protected . . . interests.”
Missouri v. McNeely, 569 U.S. 141, 159 (2013)
(emphasis added); see also Rochin v. California, 342
U.S. 165, 172 (1952) (forcibly pumping a detainee’s
stomach to obtain evidence was “too close to the rack
and the screw to permit of constitutional differentiation”). And more broadly, it is beyond debate that
an individual’s “interest in preserving her life is one
of constitutional dimension.” Nishiyama v. Dickson
Cty., 814 F.2d 277, 280 (6th Cir. 1987) (en banc),
abrogated on other grounds as recognized in Jones v.
Reynolds, 438 F.3d 685, 694–95 (6th Cir. 2006).
Bodily integrity cases “usually arise in the
context of government-imposed punishment or
physical restraint,” but that is far from a categorical
rule. Kallstrom, 136 F.3d at 1062 (collecting cases).
Instead, the central tenet of the Supreme Court’s
vast bodily integrity jurisprudence is balancing an
individual’s common law right to informed consent
with tenable state interests, regardless of the
manner in which the government intrudes upon an
individual’s body. See, e.g., Cruzan v. Dir., Missouri
Dep’t of Health, 497 U.S. 261, 269–70 (1990). Thus,
to show that the government has violated one’s right
to bodily integrity, a plaintiff need not “establish any
constitutional significance to the means by which the
harm occurs[.]” Boler v. Earley, 865 F.3d 391, 408 n.4
(6th Cir. 2017). That is because “individuals possess
a constitutional right to be free from forcible
intrusions on their bodies against their will, absent a
compelling state interest.” Planned Parenthood Sw.
Ohio Region v. DeWine, 696 F.3d 490, 506 (6th Cir.
2012).

13a
A few examples illustrate the breadth of this
tenet. Consider Washington v. Harper, which
addressed the State of Washington’s involuntary
administration of antipsychotic medication to an
inmate without a judicial hearing. 494 U.S. 210,
213–17 (1990). There, the Supreme Court had “no
doubt” that the inmate “possess[ed] a significant
liberty interest in avoiding unwanted administration
of antipsychotic drugs under the Due Process Clause
of the Fourteenth Amendment.” Id. at 221–22. This
“interest in avoiding the unwarranted administration of antipsychotic drugs is not insubstantial. The
forcible injection of medication into a nonconsenting
person’s body represents a substantial interference
with that person’s liberty.” Id. at 229 (citing Winston
v. Lee, 470 U.S. 753 (1985), and Schmerber, 384 U.S.
757). And this is especially so when the foreign
substance “can have serious, even fatal, side effects”
despite some therapeutic benefits. Id. But the extent
of this interference, reasoned the Court, is circumscribed by the government’s interest (there, administering medication in the custodial setting). Id. at
222–27. Examining those interests, the Court
permitted the physical intrusion upon a showing of
certain circumstances—danger to self or others, and
in the inmate’s medical interest. Id. at 227; see also
Riggins v. Nevada, 504 U.S. 127, 135–38 (1992)
(applying Harper to the forced administration of
drugs in trial and pretrial settings and focusing upon
the state’s “overriding justification and a determination of medical appropriateness” to justify the
intrusion); Sell v. United States, 539 U.S. 166, 177–
86 (2003) (similar).
The Supreme Court’s seminal “right to die” case,
Cruzan v. Director, Missouri Department of Health,
provides further explication. At issue in Cruzan was

14a
whether the parents of an individual in a persistent
vegetative state could insist that a hospital withdraw
life-sustaining care based on her right to bodily
integrity. 497 U.S. at 265–69. Writing for the Court,
Chief Justice Rehnquist extensively detailed the line
between the common law, informed consent, and the
right to bodily integrity: “This notion of bodily integrity has been embodied in the requirement that
informed consent is generally required for medical
treatment,” id. at 269, “generally encompass[es] the
right of a competent individual to refuse medical
treatment,” id. at 277, and is a right that “may be
inferred from [the Court’s] prior decisions.” Id. at
278–79 (citing Jacobson v. Massachusetts, 197 U.S.
11 (1905); Breithaupt v. Abram, 352 U.S. 432 (1957);
Harper, 494 U.S. 210; Vitek v. Jones, 445 U.S. 480
(1980); and Parham v. J.R., 442 U.S. 584 (1979)).
And, although the Court assumed as much, “the logic
of [these] cases . . . embrace[s] . . . a liberty interest”
in “artificially delivered food and water essential to
life.” Id. at 279. As with Harper, the Court’s main
inquiry was not whether the case dealt with the right
to bodily integrity, but rather how to balance this
right with a competing state interest (the protection
of life) in relation to the procedural protections
provided (the state’s requirement that an incompetent person’s wishes to withdraw treatment be
proven by clear and convincing evidence). Id. at 280–
87; cf. Winston, 470 U.S. at 759 (holding that a nonconsensual “surgical intrusion into an individual’s
body for evidence” without a compelling state need is
unreasonable).
This nonconsensual intrusion vis-à-vis government interest line of cases has played out time and
time again in the lower courts. See, e.g., United
States v. Brandon, 158 F.3d 947, 953 (6th Cir. 1998)

15a
(“[T]he issue of forced medication implicates . . . [the]
liberty interest in being free from bodily intrusion.”).3 The numerous cases involving government
experiments on unknowing and unwilling patients
provide a strong analogy to the Flint Water Crisis.4
Involuntarily subjecting nonconsenting individuals
to foreign substances with no known therapeutic
value—often under false pretenses and with
deceptive practices hiding the nature of the
interference—is a classic example of invading the
core of the bodily integrity protection.
In re Cincinnati Radiation Litigation is a good
example. Funded by the Department of Defense,
government officials at the University of Cincinnati
subjected cancer patients to radiation doses consistent with those expected to be inflicted upon military
personnel during a nuclear war. 874 F. Supp. at 802–
04. The patients were in “reasonably good clinical
3 Some defendants contend actual and targeted physical force
by a government actor is requisite for a bodily integrity
invasion. But as set forth, the right to bodily integrity’s anchor
is control of one’s own person by way of informed consent, and
thus the method upon which the government enters the body is
irrelevant. Boler, 865 F.3d at 408 n.4; see also Planned
Parenthood of Se. Pennsylvania v. Casey, 505 U.S. 833, 857
(1992) (plurality op).
4 See, e.g., Barrett v. United States, 798 F.2d 565 (2d Cir. 1986);
Lojuk v. Quandt, 706 F.2d 1456 (7th Cir. 1983); Rogers v. Okin,
634 F.2d 650 (1st Cir. 1980), overruled on other grounds sub
nom, Mills v. Rogers, 457 U.S. 291 (1982); Bounds v.
Hanneman, 2014 WL 1303715 (D. Minn. Mar. 31, 2014);
Heinrich v. Sweet, 62 F. Supp. 2d 282 (D. Mass. 1999); Stadt v.
Univ. of Rochester, 921 F. Supp. 1023 (W.D.N.Y. 1996); In re
Cincinnati Radiation Litigation, 874 F. Supp. 796 (S.D. Ohio
1995); Davis v. Hubbard, 506 F. Supp. 915 (N.D. Ohio 1980).

16a
condition,” and were “primarily indigent, poorly
educated, and of lower than average intelligence.” Id.
at 803. At no time did the government actors disclose
the risks associated with the massive radiation doses
or obtain consent to irradiate the patients at those
levels for those purposes—they instead told the
patients that the radiation was treatment for their
cancer. Id. at 803–04. Summarizing the caselaw just
mentioned, the Cincinnati Radiation court easily
concluded that “[t]he right to be free of statesponsored invasion of a person’s bodily integrity is
protected by the Fourteenth Amendment guarantee
of due process.” Id. at 810–11. The involuntary and
misleading nature of the intrusions was key. The
patients could not “be said to exercise that degree of
free will that is essential to the notion of voluntariness” because:
[t]he choice Plaintiffs would have been forced
to make was one of life or death. If the
Constitution protects personal autonomy in
making certain types of important decisions,
the decision whether to participate in the
Human Radiation Experiments was one that
each individual Plaintiff was entitled to
make freely and with full knowledge of the
purpose
and
attendant
circumstances
involved. Without actually seizing the
Plaintiffs and forcing them to submit to these
experiments, the . . . agents of the state[]
accomplished the same feat through canard
and deception[.]
Id. at 812 (internal quotation marks and citations
omitted). Also key was the risk of harm—the
plaintiffs received “total and partial body radiation,
which caused burns, vomiting, diarrhea and bone

17a
marrow failure, and resulted in death or severe
shortening of life.” Id. at 814.
We find the Cincinnati Radiation matter
especially analogous. In both instances, individuals
engaged in voluntary actions that they believed
would sustain life, and instead received substances
detrimental to their health. In both instances,
government officials engaged in conduct designed to
deceive the scope of the bodily invasion. And in both
instances, grievous harm occurred. Based on the
facts and principles set forth in the above cases, we
therefore agree with the district court that “a
government actor violates individuals’ right to bodily
integrity by knowingly and intentionally introducing
life-threatening substances into individuals without
their consent, especially when such substances have
zero therapeutic benefit.”
Finally, we note what plaintiffs’ claim does not
entail. There is, of course, “‘no fundamental right to
water service.’” In re City of Detroit, 841 F.3d 684,
700 (6th Cir. 2016) (quoting Golden v. City of
Columbus, 404 F.3d 950, 960 (6th Cir. 2005)).
Moreover, the Constitution does not guarantee a
right to live in a contaminant-free, healthy environment. See, e.g., Lake v. City of Southgate, 2017 WL
767879, at *4 (E.D. Mich. Feb. 28, 2017) (collecting
cases). To this end, several defendants and the dissent cite a California state case involving residents
complaining about a city fluoridating its drinking
water supply. See Coshow v. City of Escondido, 132
Cal. App. 4th 687, 709 (2005). However, Coshow is
particularly inapposite because it shows the pushand-pulls of competing policy decisions that
generally fall outside the scope of a violation of the
right to bodily integrity—there, the government

18a
publicly introduced fluoride into the water system, a
chemical frequently added to public water systems to
prevent tooth decay. Here, defendants make no
contention that causing lead to enter Flint’s drinking
water was for the public good or that they provided
notice to Flint residents about the lead-laced water.
Therefore, “Coshow did not address whether substantive due-process protections might be implicated
in the case of intentional introduction of known
contaminants by governmental officials, and its
reasoning is inapplicable here.” Mays, 916 N.W.2d at
262 n.16.
B.
Upon a showing of a deprivation of a constitutionally protected liberty interest, a plaintiff must
show how the government’s discretionary conduct
that deprived that interest was constitutionally
repugnant. See Am. Express Travel Related Servs.
Co. v. Kentucky, 641 F.3d 685, 688 (6th Cir. 2011)
(“[A] plaintiff must demonstrate a deprivation of a
constitutionally protected liberty or property interest
in order to establish a due process violation based on
discretionary conduct of government officials[.]”). We
use the “shocks the conscience” rubric to evaluate
intrusions into a person’s right to bodily integrity.
Lillard v. Shelby Cty. Bd. of Educ., 76 F.3d 716, 725
(6th Cir. 1996). Thus, a “plaintiff must show as a
predicate the deprivation of a liberty or property
interest” and conscience-shocking conduct. See EJS
Props., 698 F.3d at 861; Claybrook v. Birchwell, 199
F.3d 350, 359 (6th Cir. 2000) (holding that
conscience-shocking behavior must be taken
“towards the plaintiff’s federally protected rights”);
see also Vargas v. City of Phila., 783 F.3d 962, 973
(3d Cir. 2015) (“To sustain a substantive due process

19a
claim, a plaintiff must show that the particular
interest in question is protected by the Fourteenth
Amendment and that the government’s deprivation
of that interest ‘shocks the conscience.’”); United
States v. Sanders, 452 F.3d 572, 577 n.4 (6th Cir.
2006) (similar); Martinez v. Cui, 608 F.3d 54, 64 (1st
Cir. 2010) (similar).5
“[T]he measure of what is conscience shocking is
no calibrated yard stick,” nor is it “subject to
mechanical application.” Lewis, 523 U.S. at 847, 850.
Several “tropes” help explain its meaning, Range,
763 F.3d at 589, with the focus again being on
“executive abuse of power.” Lewis, 523 U.S. at 846.
Rochin is the “benchmark.” Id. at 846–47. Dueprocess-violative conduct (there, forced stomach
pumping to obtain evidence) “shocks the conscience,”
5 In dicta, we stated in Range that “[o]ur case law on
substantive due process is somewhat conflicted as to whether
an underlying constitutionally-protected right must be established in order for a government action to violate one’s rights by
shocking the conscience,” and then cited EJS Properties for the
proposition that in non-zoning decision contexts “we have held
that ‘government action may certainly shock the conscience or
violate substantive due process without a liberty or property
interest at stake.’” 763 F.3d at 589 (quoting EJS Props., 698
F.3d at 861–62). For that statement, EJS Properties, in dicta as
well, cited two pre-Lewis cases, and more importantly,
American Express—a case involving a constitutional challenge
to a state law. 698 F.3d at 861–62. Range’s and EJS Properties’
dicta misconstrue American Express, which expressly held “a
plaintiff must demonstrate a deprivation of a constitutionally
protected liberty or property interest in order to establish a due
process violation based on discretionary conduct of government
officials,” unless the matter involves a constitutional challenge
to a state law. Am. Express, 641 F.3d 688–89 (citation omitted).
This is consistent with Lewis. 523 U.S. at 847 n.8.

20a
infringes upon the “decencies of civilized conduct,” is
“so brutal and so offensive to human dignity,” and
interferes with rights “implicit in the concept of
ordered liberty.” Rochin, 342 U.S. at 169, 172–74
(citation omitted); see also Lewis, 523 U.S. at 846–47
(collecting authorities). “These are subjective
standards, to be sure, but they make clear that the
‘shocks the conscience’ standard is not a font of tort
law, but is instead a way to conceptualize the sort of
egregious behavior that rises to the level of a
substantive due process violation.” Range, 763 F.3d
at 590. Stated differently, the shocks-the-conscience
test is the way in which courts prevent transforming
run-of-the-mill tort claims into violations of
constitutional guarantees.
To aid this inquiry, we are to place the alleged
heinous conduct on a spectrum, “[t]he bookends [of
which] present the easier cases.” Id. On the one end
is conduct that “is categorically beneath the
threshold of constitutional due process,” mere negligence. Lewis, 523 U.S. at 849. Conduct that is
“intended to injure in some way unjustifiable by any
government interest” represents the other end, for
this behavior “would most probably support a
substantive due process claim.” Id. We deal here not
with these extremes, but rather in the middle, what
the Court has deemed “something more than
negligence but less than intentional conduct, such as
recklessness or gross negligence.” Id. (internal
quotation marks omitted).
This “middle state[] of culpability ‘may or may
not be shocking depending on the context,’” Range,
763 F.3d at 590 (quoting Hunt v. Sycamore Cmty.
Sch. Dist. Bd. of Educ., 542 F.3d 529, 535 (6th Cir.
2008)), for what may “constitute a denial of

21a
fundamental fairness, shocking to the universal
sense of justice, may, in other circumstances, and in
the light of other considerations, fall short of such
denial,” Lewis, 523 U.S. at 850 (quoting Betts v.
Brady, 316 U.S. 455, 462 (1942)). “Deliberate indifference that shocks in one environment may not be
so patently egregious in another, and our concern
with preserving the constitutional proportions of
substantive due process demands an exact analysis
of circumstances before any abuse of power is
condemned as conscience shocking.” Id.
Lewis delineates this dichotomy. The issue there
was “whether a police officer violates the Fourteenth
Amendment’s guarantee of substantive due process
by causing death through deliberate or reckless
indifference to life in a high-speed automobile chase
aimed at apprehending a suspected offender.” Id. at
836. The Court held that “high-speed chases with no
intent to harm suspects physically or to worsen their
legal plight do not give rise to liability under the
Fourteenth Amendment . . . .” Id. at 854. In so
holding, the Court highlighted how the time to
deliberate in one circumstance may dictate liability
in one situation but not another because “[a]s the
very term ‘deliberate indifference’ implies, the
standard is sensibly employed only when actual
deliberation is practical[.]” Id. at 851. Take a classic
deliberate indifference situation—when, for example,
a prison official has “time to make unhurried
judgments, [with] the chance for repeated reflection,
largely uncomplicated by the pulls of competing
obligations.” Id. at 853. It is in these kinds of
situations where we would expect plaintiffs asserting
substantive due process claims based on deliberate
indifference to be most successful. In rapidly evolving situations like prison riots, high-speed chases,

22a
and other tense, split-second-reaction-demanding
matters, we apply “a much higher standard.” Id. at
852–54. We look instead to whether the state actor
applies force “maliciously and sadistically for the
very purpose of causing harm”—in other words,
whether he acted with an intent to harm. Id. at 853.
“The critical question in determining the appropriate standard of culpability is whether the
circumstances allowed the state actors time to fully
consider the potential consequences of their conduct.”
Ewolski v. City of Brunswick, 287 F.3d 492, 510 (6th
Cir. 2002) (internal quotation marks and brackets
omitted). This “time to deliberate consideration,”
however, does not “transform any reckless action
from a tort to conscience-shocking behavior simply
because the government actor had time to appreciate
any risk of harm. Time is instead one element in
determining whether the actor’s culpability ‘inches
close enough to harmful purpose to spark the shock
that implicates’ substantive due process.” Range, 763
F.3d at 590 (quoting Lewis, 523 U.S. at 853)
(brackets omitted). Our focus instead is upon the
entirety of the situation—“the type of harm, the level
of risk of the harm occurring, and the time available
to consider the risk of harm are all necessary factors
in determining whether an official was deliberately
indifferent.” Id. at 591.
After Lewis, “the key variable is whether actual
deliberation is practical, not whether the claimant
was in state custody.” Ewolski, 287 F.3d at 510 n.5.
This is because “[c]ustodial settings . . . are not the
only situations in which officials may have a
reasonable opportunity to deliberate.” Id. But more
importantly, even in non-custodial situations, we

23a
have stressed that deliberate indifference claims
require “something more”:
[A] something that we have variously
described as callous disregard for the risk of
injury, or action in an arbitrary manner that
shocks the conscience or that indicates an
intent to injure. That additional element—be
it termed callous disregard or intent to
injure—ensures that only the most egregious
official conduct can be said to be arbitrary in
the constitutional sense.
Schroder v. City of Fort Thomas, 412 F.3d 724, 730
(6th Cir. 2005) (internal citations, quotation marks,
and brackets omitted).
We have identified a multitude of considerations
when evaluating an official’s alleged arbitrariness in
the constitutional sense, including the time for
deliberation, the nature of the relationship between
the government and the plaintiff, and whether a
legitimate government purpose motivated the
official’s act. Hunt, 542 F.3d at 536. These factors
help elucidate Lewis’s broader point that simply
making bad choices does not rise to the level of
deliberate indifference. Rather, “[f]or us to find
deliberate indifference, . . . we must find not only
that the governmental actor chose to act (or failed to
act) despite a subjective awareness of substantial
risk of serious injury, but we also must make some
assessment that he did not act in furtherance of a
countervailing governmental purpose that justified
taking that risk.” Id. at 541; see also Schroder, 412
F.3d at 729 (“Many, if not most, governmental policy
choices come with risks attached to both of the
competing options, and yet ‘it is not a tort for government to govern’ by picking one option over another.”

24a
(citation omitted)). “Essentially, the more voluntary
the plaintiff-government relationship, or the less
time the state actor has to deliberate, or the greater
the extent to which the state actor is pursuing a
legitimate end, the less arbitrary we should deem a
bodily injury or death caused by the state actor.”
Durham v. Estate of Losleben, 744 F. App’x 268, 271
(6th Cir. 2018). We agree with the district court that
these considerations weigh in favor of finding that
the generally alleged conduct was so egregious that
it can be said to be “arbitrary in the constitutional
sense.”6
6 Several defendants suggest we should depart from this line of
authorities and instead reject plaintiffs’ claim on the basis of
the Supreme Court’s pre-Lewis decision in Collins, where the
Supreme Court rejected a substantive due process claim that
“the Federal Constitution imposes a duty on the city to provide
its employees with minimal levels of safety and security in the
workplace” and the city’s deliberate indifference to employee
safety shocked the conscience. 503 U.S. at 125–26. True, the
substantive due process clause “confer[s] no affirmative right to
government aid, even where such aid may be necessary to
secure life, liberty, or property interests of which the government itself may not deprive the individual,” DeShaney, 489 U.S.
at 195, nor does it set a floor for the public’s right to be safe and
secure, see Collins, 503 U.S. at 127. But these general principles have no applicability here—this is not a workplace injury
case, plaintiffs do not allege Flint was required to provide them
with “certain minimal levels of safety and security,” id., and
DeShaney itself makes clear in the same token that injuries
caused by the state are of a different ilk. 489 U.S. at 195–96.
Nor is there a contention that—unlike many public employees
hired to perform inherently dangerous jobs who thus “assumed
the risk,” Hunt, 542 F.3d at 538—Flint residents voluntarily
consumed the water in the face of likely lead-exposure. For
these reasons, our post-Collins, pre-Lewis caselaw relied upon
by defendants is similarly distinguishable. See, e.g., Lewellen,
[Footnote continued on next page]

25a
Extensive time to deliberate. There is no doubt
that the lead-contamination inflicted upon the people
of Flint was a predictable harm striking at the core
of plaintiffs’ bodily integrity, and this known risk
cannot be excused on the basis of split-second decision making. All of the alleged decisions by defendants leading up to and during the crisis took place
over a series of days, weeks, months, and years, and
did not arise out of time-is-of-the-essence necessity.
Their “unhurried judgments” were replete with
opportunities for “repeated reflection, largely uncomplicated by the pulls of competing obligations,” and
thus militate in plaintiffs’ favor. Lewis, 523 at 853;
see also Ewolski, 287 F.3d at 511–12. In the Court’s
words, because “[w]hen such extended opportunities
to do better are teamed with protracted failure even
to care, indifference is truly shocking.” Lewis, 523
U.S. at 853.
Involuntary relationship. In addition to the time
to deliberate, the relationship between the City of
Flint and its residents matters. At the outset, we
acknowledge we deal here not with the typical line of
voluntary/involuntary relationships that normally
occur in our caselaw. Instead, two factors weigh
toward an involuntary relationship. First, Flint’s
transmission of drinking water to its residents is
mandatory on both ends—Flint’s Charter and Code
of Ordinances mandate that the city supply water to
its residents, see, e.g., Flint City Charter § 4-203(A),
Flint Code of Ord. § 46-7, and as the City expressly
[Footnote continued from previous page]
34 F.3d 345; Upsher v. Grosse Pointe Pub. Sch. Sys., 285 F.3d
448 (6th Cir. 2002).

26a
argued below, “residents are legally required to take
and pay for the water, unless they use an approved
spring or well.” See Flint Code of Ord. §§ 46-50(b),
46-51, 46-52. Second, various defendants’ assurances
of the water’s potability hid the risks, turning residents’ voluntary consumption of a substance vital to
subsistence into an involuntary and unknowing act
of self-contamination. As the district court aptly
reasoned, “[m]isleading Flint’s residents as to the
water’s safety—so that they would continue to drink
the water and Flint could continue to draw water
from the Flint River—is no different than the forced,
involuntary invasions of bodily integrity that the
Supreme Court has deemed unconstitutional.”
(Citations omitted).7
No legitimate government purpose. The decision
to temporarily switch Flint’s water source was an
economic one and there is no doubt that reducing
cost is a legitimate government purpose. See, e.g.,
Garrett v. Lyng, 877 F.2d 472, 476 (6th Cir. 1989).
When a government acts “for the benefit of the
public,” normally its deliberate choice does not shock
the conscience. See Hunt, 542 F.3d at 542. There is a
caveat to this general rule—acting merely upon a
government interest does not remove an actor’s
decision from the realm of unconstitutional arbitrariness. Id. at 543 (“[W]e have held open the possibility
that in extreme cases the governmental actor’s choice
7 See also Briscoe v. Potter, 355 F. Supp. 2d 30, 45–47 (D.D.C.
2004) (holding that plaintiffs sufficiently alleged conscienceshocking conduct where defendants knew a post office distribution center was contaminated with anthrax, made affirmative
misrepresentations about the facility’s safety, and coerced
plaintiffs into continuing to work at the facility).

27a
to endanger a plaintiff in the service of a countervailing duty would be deemed arbitrary[.]”). Here,
jealously guarding the public’s purse cannot, under
any circumstances, justify the yearlong contamination of an entire community. In the words of the
Michigan Court of Appeals, “we can conceive of no
legitimate governmental objective for this violation
of plaintiffs’ bodily integrity.” Mays, 916 N.W.2d at
262. (Some defendants contend their actions were
motivated by other legitimate government purposes,
and we address their positions below.)
There is no allegation defendants intended to
harm Flint residents. Accordingly, the question is
whether defendants acted with “[d]eliberate indifference in the constitutional sense,” Range, 763 F.3d
at 591, which we have “equated with subjective
recklessness,” Ewolski, 287 F.3d at 513 (citing
Farmer v. Brennan, 511 U.S. 825, 837 (1994)). This is
a particularly high hurdle, for plaintiffs must show
the government officials “knew of facts from which
they could infer a ‘substantial risk of serious harm,’
that they did infer it, and that they acted with indifference ‘toward the individual’s rights.’” Range, 763
F.3d at 591 (citation omitted). The deliberateindifference standard requires an assessment of each
defendant’s alleged actions individually. See Bishop
v. Hackel, 636 F.3d 757, 767 (6th Cir. 2011). Our
focus is on each individual defendant’s conduct, their
“subjective awareness of substantial risk of serious
injury,” and whether their actions were made “in furtherance of a countervailing governmental purpose
that justified taking that risk.” Hunt, 542 F.3d at
541.

28a
C.
Flint defendants (Earley, Ambrose, and Croft).
We begin with one of the two sets of defendants who
were instrumental in creating the crisis—defendants
Croft, Emergency Manager Earley, and Emergency
Manager Ambrose. These individuals were among
the chief architects of Flint’s decision to switch water
sources and then use a plant they knew was not
ready to safely process the water, especially in light
of the Flint River’s known environmental issues and
the problems associated with lead exposure. Earley,
for example, “forced the transition through” despite
knowing how important it was that “the treatment
plant be ready to treat Flint River water” and that
“[t]he treatment plant was not ready.” Similarly,
Croft permitted the water’s flow despite knowing
“that the City’s water treatment plant was unprepared to adequately provide safe drinking water to
Flint’s residents.” The Flint defendants also made
numerous statements to the public proclaiming that
the water was safe to drink. Defendant Ambrose’s
decisions to twice turn down opportunities to reconnect to the DWSD after he knew of the significant
problems with the water were especially egregious.
These and other asserted actions plausibly allege
deliberate indifference and “plain[] incompeten[ce]”
not warranting qualified immunity. al-Kidd, 563
U.S. at 743 (citation omitted). To the extent these
defendants claim “mistakes in judgment” because
they reasonably relied upon the opinions of Michigan
Department of Environmental Quality (MDEQ)
employees and professional engineering firms, see
Pearson, 555 U.S. at 231, those are facts to be fleshed
out during discovery and are not appropriate to
resolve at the motion-to-dismiss posture. See, e.g.,
Wesley, 779 F.3d at 433–34.

29a
The dissent concludes that Ambrose and Earley
were merely “rel[ying] on expert advice” and therefore their actions could not demonstrate a callous
disregard for plaintiffs. However, this conclusion
ignores Wesley’s guidance not to resolve such issues
at the motion-to-dismiss stage. It also ignores our
obligation to accept plaintiffs’ allegations as true and
draw reasonable inferences from those allegations.
One can place a benign construction on the factual
allegations and draw inferences so that the facts
amount to a negligent mismanagement of priorities
and risks; but the allegations also support a reasonable inference that Earley prioritized a drive to
cut costs with deliberate and reckless indifference to
the likely results, and Ambrose refused to reconnect
to Detroit water despite knowing the substantial risk
to Flint residents’ health.
For now, we conclude that plaintiffs’ complaint
plausibly alleges a constitutional violation as to
these defendants.
D.
MDEQ Defendants (Busch, Shekter-Smith,
Prysby, Wurfel, and Wyant). The MDEQ defendants
were the other set of individuals front and center
during the crisis. The allegations against defendants
Busch, Shekter-Smith, Prysby, and Wurfel are
numerous and substantial. These MDEQ defendants
played a pivotal role in authorizing Flint to use its
ill-prepared water treatment plant to distribute
drinking water from a river they knew was rife with
public-health-compromising complications. Furthermore, when faced with the consequences of their
actions, they falsely assured the public that the
water was safe and attempted to refute assertions to

30a
the contrary. A few poignant examples further
illustrate their culpability:


Less than two weeks before the switch to
Flint water, the Flint water treatment
plant’s water quality supervisor wrote to
Prysby and Busch that he had
inadequate staff and resources to
properly monitor the water. As a result,
he informed Prysby and Busch, “I do not
anticipate giving the OK to begin sending
water out anytime soon. If water is
distributed from this plant in the next
couple of weeks, it will be against my
direction.” Busch and Prysby did not act
on this warning. Instead, a few days
later, Busch drafted a talking point for a
Flint community meeting that highlighted that MDEQ was “satisfied with
the City’s ability to treat water from the
Flint River.”



After General Motors very publicly
stopped using Flint River water at its
engine plant for fear of corrosion, Prysby
made sure the department’s approach
was to spin this symptom as not related
to public health instead of investigating
the underlying problem. He “stressed the
importance of not branding Flint’s water
as ‘corrosive’ from a public health
standpoint simply because it does not
meet a manufacturing facility’s limit for
production.”



On February 27, 2015, Busch lied when
he told “the EPA on behalf of MDEQ that
the Flint Water Treatment Plant had an

31a
optimized corrosion control program.”
However, Busch knew “[b]y no later than
April 2015, but likely much earlier . . .
that no corrosion control was being used
in Flint following the switch to the Flint
River as the water source.” (Emphasis
added).


In the midst of the crisis and with full
knowledge that Flint’s water distribution
system was corroded and presented
significant health issues, Shekter-Smith
callously excused Flint’s lack of drinking
water compliance as “circumstances happen.” And after the EPA pressed MDEQ
officials for MDEQ’s failure to optimize
corrosion controls in July 2015, she
requested the EPA nonetheless cover her
department’s decision by “indicat[ing] in
writing . . . [its] concurrence that the city
is in compliance with the lead and copper
rule . . . .” Doing so, she wrote, “would
help distinguish between [MDEQ’s] goals
to address important public health issues
separately from the compliance requirements of the actual rule which we believe
have been and continue to be met in the
city of Flint.” In other words, “technical
compliance” trumped addressing an
urgent and catastrophic public health
disaster.



On numerous occasions, defendant
Wurfel, the public face of the crisis, announced the water was safe to drink, and
demeaned, belittled, and aggressively
dampened attempts by the scientific

32a
community to challenge the government’s
assertions that Flint did not have a
problem with its drinking water. And he
suggested that concern regarding the
water was at best a short-term problem—
that by the time the City had completed
its lead-testing, the City would already
be drawing from a different water source
altogether.
As with the Flint defendants, these MDEQ
defendants created the Flint Water environmental
disaster and then intentionally attempted to coverup their grievous decision. Their actions shock our
conscience. It is alleged that these defendants acted
with deliberate indifference to the plaintiffs’
constitutional right to bodily integrity and at a
minimum were plainly incompetent.
To the extent these defendants made “honest
mistakes in judgment”—in law or fact—in interpreting and applying the Lead and Copper Rule, see,
e.g., Pearson, 555 U.S. at 231, that defense is again
best reserved for after discovery. See, e.g., Wesley,
779 F.3d at 433–34. This Rule generally requires
public water systems to monitor lead and copper
levels and to treat certain elevated levels in accordance with the regulation. 40 C.F.R. § 141.80 et. seq.
More specifically, it requires a “large system,” like
Flint, to optimize corrosion control treatment before
distribution of water to the public. § 141.81(a)(1).
However, MDEQ employees did not follow this
dictate; instead, under a “flawed interpretation” of
the Rule, they drew up a yearlong sampling program
post-switch (broken up into two, six-month
monitoring periods) to determine whether corrosion
controls were required. In their view, this after-the-

33a
fact-wait-and-see approach to corrosion controls
allegedly fell within minimum compliance levels of
the Rule. Plaintiffs’ view is bleaker. They assert
MDEQ viewed Flint residents as “guinea pigs” for a
year to test lead-compliance theories that were
unsupported and unauthorized by the EPA just to
pass time until water began flowing from a new
water authority. To be sure, plaintiffs’ view must be
based on reasonable inferences from factual allegations. The district court correctly found that it is.
By the same token, we reject Wurfel’s reliance
upon two Second Circuit cases involving statements
by public officials about the air-quality in lower
Manhattan in the days following the September 11
terrorist attacks, see Lombardi v. Whitman, 485 F.3d
73 (2d Cir. 2007) and Benzman v. Whitman, 523 F.3d
119 (2d Cir. 2008), chiefly for the reason that those
matters involved the balancing of competing governmental interests—restoring public services and
protecting public health—during a time-sensitive
environmental emergency. We have no such similar
facts here on the face of plaintiffs’ complaint.
The dissent again asks us to view plaintiffs’
allegations in a light favorable to defendants,
arguing that Shekter-Smith, Busch, and Prysby
simply “misinterpreted the [EPA’s] Lead and Copper
Rule” and provided “misguided advice rooted in
mistaken interpretations of the law.” But plaintiffs’
allegations, which we must accept, are that Busch,
Shekter-Smith, and Prysby authorized use of Flint
River water with knowledge of its contaminants and
then deceived others to hide the fact of contamination. Moreover, it is improper to conclude at this
stage that Shekter-Smith, Busch, and Prysby merely
misinterpreted the Lead and Copper Rule because

34a
plaintiffs allege that the EPA informed them that
they were not complying with EPA requirements,
providing them with a memorandum that “identified
the problem, the cause of that problem, and the
specific reason the state missed it.” In response,
“Defendants ignored and dismissed” the memorandum. Although the dissent claims that plaintiffs’
factual allegations do not support that Wurfel’s
statements were knowing lies, that is a reasonable
inference from plaintiffs’ factual allegations.
We cannot say the same with respect to defendant Director Wyant based on the allegations in the
complaint. At most, plaintiffs claim Wyant was
aware of some of the issues arising with the water
supply post-switch and admitted his department’s
“colossal failure” after the City reconnected to
DWSD. Plaintiffs do not plausibly allege Wyant personally made decisions regarding the water-source
switch, nor do they allege he personally engaged in
any other conduct that we find conscience-shocking.
In short, while the conduct of individuals within his
department was constitutionally abhorrent, we may
only hold Wyant accountable for his own conduct, not
the misconduct of his subordinates. See Ashcroft v.
Iqbal, 556 U.S. 662, 676–77 (2009). For this reason,
the district court erred in denying defendant Wyant’s
motion to dismiss.
E.
MDHHS Executives (Lyon and Wells). In the
complaint before us, plaintiffs’ allegations against
Michigan Department of Health and Human
Services (MDHHS) Director Lyon and Chief Medical
Executive Wells are minimal. The complaint sets
forth no facts connecting Lyon and Wells to the
switch to the Flint River or the decision not to treat

35a
the water, and there is no allegation that they took
any action causing plaintiffs to consume the leadcontaminated water. Instead, plaintiffs claim generally that Lyon and Wells failed to “protect and notify
the public” of the problems with Flint’s water shortly
before Flint switched back to DWSD. However, the
Due Process Clause is a limitation only on
government action. See DeShaney, 489 U.S. at 195.
We are thus left with allegations of at most questionable actions by Lyon and Wells. The sole allegation against Lyon is that he attempted to “discredit”
a study by Dr. Mona Hanna-Attisha, a pediatrician
at Hurley Medical Center in Flint, showing significant increases of blood lead levels in children postwater-source switch.8 Paragraph 289 of plaintiffs’
complaint sets forth plaintiffs’ entire case against
Lyon:
MDHHS Director Nick Lyon continues trying
to discredit Dr. Hanna-Attisha’s study
despite his own department’s knowledge that
it shows a real problem. In an e-mail, he
stated: “I need an analysis of the Virginia
Tech/Hurley data and their conclusions. I
would like to make a strong statement with a
8 They also allege Lyon “participated in, directed, and/or
oversaw the department’s efforts to hide information to save
face, and to obstruct and discredit the efforts of outside
researchers. He knew as early as 2014 of problems with lead
and legionella contamination in Flint’s water and instead of
fulfilling his duty to protect and notify the public, he participated in hiding this information.” (Plaintiffs make the same
general allegation against Wells.) But this is precisely the type
of “chimerical,” “bare assertion[]” Iqbal requires we set aside.
556 U.S. at 681.

36a
demonstration of proof that the lead blood
levels seen are not out of the ordinary and
are attributable to seasonal fluctuations.
Geralyn is working on this for me but she
needs someone in public health who can work
directly with her on immediate concerns/
questions.”
And the two main factual allegations against Wells
are equally sparse:


On September 29, 2015, Wells received
an email from an MDHHS employee asking, “Is it possible to get the same type of
data for just children under the age of
six? So basically, the city of Flint kids
ages six and under with the same type of
approach as the attached chart you gave
us last week?” Another employee
responded that “[i]t’s bad enough to have
a data war with outside entities, we
absolutely cannot engage in competing
data analyses within the Department, or,
heaven forbid, in public releases.” Dr.
Wells replied “Agree.” Plaintiffs claim
this “show[ed] MDHHS continuing efforts
to mislead the public, protect itself, and
discredit Dr. Hanna-Attisha.”



In response to an email from Dr. HannaAttisha showing the tripling of blood lead
levels, Wells “responded that the state
was working to replicate HannaAttisha’s analysis, and inquired about
Dr. Hanna-Attisha’s plans to take the information public.” According to plaintiffs,
this shows that “[w]hile discouraging her
department to look further into Dr.

37a
Hanna-Attisha’s findings and misleading
Dr. Hanna-Attisha, Defendant Wells
remained focused on a single task; saving
face at the expense of Flint’s residents.”
At most, plaintiffs have alleged Lyon and Wells were
unjustifiably skeptical of Dr. Hanna-Attisha’s study
and were hoping to assemble evidence to disprove it.
This falls well-short of conscience-shocking conduct
and therefore the district court erred in denying
their motions to dismiss.
F.
MDHHS Employees (Peeler and Scott). That
leaves us with two MDHHS employees, Nancy Peeler
and Robert Scott, who jointly worked on projects
within MDHHS designed to eliminate lead exposure.
As with Lyon and Wells, the allegations against
Peeler and Scott relate not to the switch of water
sources, but to how they processed—or rather did not
process—data relating to lead exposure more than a
year later.
In general, plaintiffs allege Peeler and Scott
“participated in, directed, and/or oversaw the
department’s efforts to hide information to save face,
and actively sought to obstruct and discredit the
efforts of outside researchers. Even when [their] own
department had data that verified outside evidence
of a lead contamination problem, [they] continued
trying to generate evidence to the contrary.” Scott
“also served a key role in withholding and/or
delaying disclosure of data that outside researchers
needed to protect the people of Flint.” In support of
these general allegations, plaintiffs point to the
following:

38a


Beginning in July 2015, Peeler learned
there was “an uptick in children with
elevated blood lead levels in Flint in July,
August, and September 2014,” but attributed it to “seasonal variation” instead of
the water-source switch.



On September 11, 2015, Robert Scott emailed a copy of a grant proposal by a
Virginia Tech professor, Marc Edwards,
that “described a ‘perfect storm’ of ‘out of
control’ corrosion of city water pipes leading to ‘severe chemical/biological health
risks for Flint residents’” to Peeler and
others. Scott stated, “When you have a
few minutes, you might want to take a
look at it. Sounds like there might be
more to this than what we learned previously. Yikes!”



Following Dr. Hanna-Attisha’s study,
Scott “tried to recreate [her] numbers,”
saw “a difference”—“but not as much
difference” as found by Dr. HannaAttisha—in children’s lead-levels pre-and
post-switch, but told Peeler that he was
“sure this one is not for the public.”



Scott, Peeler, and another MDHHS
colleague corresponded about a Detroit
Free Press story on Dr. Hanna-Attisha’s
study. Scott wrote, “The best I could say
is something like this: ‘While the trend
for Michigan as a whole has shown a
steady decrease in lead poisoning year by
year, smaller areas such as the city of
Flint have their bumps from year to year
while still trending downward overall.’”

39a
Peeler chimed in that her “secret hope is
that we can work in the fact that this
pattern is similar to the recent past.” In
plaintiffs’ view, this correspondence
shows Peeler and Scott “intentionally
withheld information that they had a
duty to disclose to the public, and
actively sought to hide the lead poisoning
epidemic that they had previously failed
to discover.”


Scott drafted an apology email to Prof.
Edwards explaining why he failed to respond to multiple requests for state data.
His unsent email to Edwards explained
that he “worked with you earlier this
month to get data to you relatively
quickly but did not manage to complete
the process before I went on annual leave
for several days. I neglected to inform
you that I’d be away, and I apologize for
not informing you.’” Scott did not send
the email to Edwards after Peeler told
him to “apologize less,” “despite,” in
plaintiffs’ words, “the fact that Scott admitted to going on vacation and leaving
an unimportant task unfinished as a
public health crisis unfolded.”

In total, plaintiffs’ allegations against Scott and
Peeler are: (1) after Dr. Hanna-Attisha released her
study on September 24, 2015, Scott tried to “recreate” the study, found a smaller difference in children’s lead levels than Dr. Hanna-Attisha’s study,
and concluded his results were “not for the public”;
(2) Scott did not timely provide researchers with
requested data; (3) Peeler and Scott knew that

40a
elevated lead levels could have been due to corrosion
in the city water pipes; and (4) both sought to
attribute it to regular fluctuations. In our view, these
allegations do not rise to the level of “callous
disregard”; plaintiffs do not factually link Scott’s and
Peeler’s inaction to causing Flint residents to consume (or continue to consume) lead-tainted water.
Nor do plaintiffs identify a source of law for the
proposition that an individual violates the right to
bodily integrity just because he failed to “blow the
whistle.” Plaintiffs have therefore not plausibly
alleged Scott and Peeler engaged in conscienceshocking conduct.
In sum, the district court erred in finding that
plaintiffs adequately alleged that defendants Wyant,
Lyon, Wells, Peeler, and Scott violated plaintiffs’
substantive due process right to bodily integrity, but
correctly held plaintiffs plausibly alleged such a
violation against defendants Earley, Ambrose, Croft,
Busch, Shekter-Smith, Prysby, and Wurfel.
VI.
A right is “clearly established” when its “contours
. . . [are] sufficiently clear that a reasonable official
would understand that what he is doing violates that
right.” Anderson v. Creighton, 483 U.S. 635, 640
(1987). Notice to officials is paramount; “the salient
question” in evaluating the clearly established prong
is whether officials had “fair warning” that their
conduct was unconstitutional. Hope v. Pelzer, 536
U.S. 730, 741 (2002). In making this determination,
“we must look first to decisions of the Supreme
Court, then to decisions of this court and other courts
within our circuit, and finally to decisions of other
circuits.” Baker v. City of Hamilton, 471 F.3d 601,
606 (6th Cir. 2006) (quotation omitted).

41a
Plaintiffs must generally identify a case with a
fact pattern similar enough to have given “fair and
clear warning to officers” about what the law requires. White v. Pauly, 137 S. Ct. 548, 552 (2017) (per
curiam) (quotation omitted); see also Arrington-Bey v.
City of Bedford Heights, 858 F.3d 988, 993 (6th Cir.
2017). But such a case need not “be on all fours in
order to form the basis for the clearly established
right.” See Burgess v. Fischer, 735 F.3d 462, 474 (6th
Cir. 2013). We do not require a prior, “precise
situation,” Sutton, 700 F.3d at 876, a finding that
“the very action in question has previously been held
unlawful,” Comstock v. McCrary, 273 F.3d 693, 702
(6th Cir. 2001) (internal quotation marks omitted), or
a “case directly on point.” al-Kidd, 563 U.S. at 741.
Instead, the test is whether “existing precedent must
have placed the . . . constitutional question beyond
debate.” Id. This means there must either be
“controlling authority or a robust consensus of cases
of persuasive authority.” Plumhoff v. Rickard, 134 S.
Ct. 2012, 2023 (2014) (internal quotation marks
omitted). Finally, “an action’s unlawfulness can be
‘clearly established’ from direct holdings, from specific examples describing certain conduct as prohibited, or from the general reasoning that a court
employs.” Baynes v. Cleland, 799 F.3d 600, 612 (6th
Cir. 2015) (citing Hope, 536 U.S. at 742–44).
Given the unique circumstances of this case,
defendants argue we should defer to the “breathing
room” qualified immunity provides and hold that the
invasion of plaintiffs’ right to bodily integrity via lifethreatening substances with no therapeutic benefit
introduced into individuals without their consent
was not clearly established before the officials
engaged in their respective conduct. The dissent
likewise suggests that “plaintiffs must be able to

42a
‘identify a case with a similar fact pattern’ to this one
‘that would have given ‘fair and clear warning to
officers’ about what the law requires.’” (Quoting
Arrington-Bey, 858 F.3d at 993 (quoting White, 137
S. Ct. at 552)). But the Court has “mad[e] clear that
officials can still be on notice that their conduct violates established law even in novel factual circumstances.” Hope, 536 U.S. at 741; see also White, 137
S. Ct. at 552 (noting that “general statements of the
law are not inherently incapable of giving fair and
clear warning” where the unlawfulness is apparent
(citation omitted)). For the reasons that follow, we
decline to erect the suggested “absolute barrier to
recovering damages against an individual government actor.” Bletz, 641 F.3d at 756 (citation omitted).
The lack of a comparable government-created
public health disaster precedent does not grant
defendants a qualified immunity shield. Rather, it
showcases the grievousness of their alleged conduct:
“The easiest cases don’t even arise,” United States v.
Lanier, 520 U.S. 259, 271 (1997) (citation and internal quotation marks omitted); “there is no need that
the very action in question [have] previously been
held unlawful” because “[t]he unconstitutionality of
outrageous conduct obviously will be unconstitutional,” Safford Unified Sch. Dist. No. 1 v. Redding,
557 U.S. 364, 377 (2009) (internal quotation marks
omitted); and “[s]ome personal liberties are so fundamental to human dignity as to need no specific explication in our Constitution in order to ensure their
protection against government invasion.” Brannum
v. Overton Cty. Sch. Bd., 516 F.3d 489, 499 (6th Cir.
2008).
Knowing the Flint River water was unsafe for
public use, distributing it without taking steps to

43a
counter its problems, and assuring the public in the
meantime that it was safe “is conduct that would
alert a reasonable person to the likelihood of personal liability.” Scicluna v. Wells, 345 F.3d 441, 446
(6th Cir. 2003). As set forth above, taking affirmative
steps to systematically contaminate a community
through its public water supply with deliberate
indifference is a government invasion of the highest
magnitude. Any reasonable official should have
known that doing so constitutes conscience-shocking
conduct prohibited by the substantive due process
clause.9 These “actions violate the heartland of the
constitutional guarantee” to the right of bodily integrity, Stemler v. City of Florence, 126 F.3d 856, 867
(6th Cir. 1997), and “t[he] obvious cruelty inherent”
in defendants’ conduct should have been enough to
forewarn defendants. Hope, 536 U.S. at 745.
Furthermore, the long line of Supreme Court
cases discussed above—Harper, Cruzan, Rochin,
Winston, to name a few—all build on each other from
one foundation: an individual’s right to bodily
integrity is sacred, founded upon informed consent,
and may be invaded only upon a showing of a
government interest. The Court could not have been
clearer in Harper when it stated that “[t]he forcible
injection of medication into a nonconsenting person’s
body represents a substantial interference with that
person’s liberty.” 494 U.S. at 229. Here we have an
9 See also Wright v. City of Phila., 2015 WL 894237, at *13
(E.D. Penn. March 2, 2015) (“[I]t would have been clear to a
reasonable [government] employee that causing the release of
airborne asbestos in Plaintiffs’ home and then failing to notify
Plaintiffs or acting in any way to mitigate the harm caused by
the release, was unlawful under the circumstances.”).

44a
even more dramatic invasion, for at least in Harper
the state forced medication—something needed to
improve or sustain life—into its citizens; here, government officials caused Flint residents to consume a
toxin with no known benefit, did so without telling
them, and made affirmative representations that the
water was safe to drink.
The same can be gleaned from Cruzan. If the
common law right to informed consent is to mean
anything, reasoned the Court, it must include “the
right of a competent individual to refuse medical
treatment.” 497 U.S. at 277. If an individual has a
right to refuse to ingest medication, then surely she
has a right to refuse to ingest a life necessity. Cruzan
instructs as much, recognizing that the “logic” of its
bodily integrity cases—i.e., the reasoning—encompasses an individual’s liberty interest to refuse “food
and water essential to life.” Id. at 279. And if an
individual has a right to refuse the consumption of
beneficial water, then certainly any reasonable
official would understand that an individual has a
right to refuse the consumption of water known to be
lead-contaminated, especially when those individuals
involved in tainting the water simultaneously
vouched for its safety. Put differently, plaintiffs’
bodily integrity claim implicates a clearly established
right that “may be inferred from [the Supreme
Court’s] prior decisions.” Id. at 278. Before Cruzan, a
factually identical case had not been decided by the
Court. Nonetheless, the Supreme Court held that the
right to bodily integrity claim there was compelled by
the logic and reasonable inferences of its prior
decisions. Id. at 270, 278–79. The same is true here.
Several defendants take issue with the district
court’s definition of the right, contending it deals in

45a
generality instead of specificity. See, e.g., al-Kidd,
563 U.S. at 742 (admonishing courts “not to define
clearly established law at a high level of generality”).
Our focus, of course, is “whether the violative nature
of particular conduct is clearly established . . . in
light of the specific context of the case.” Mullenix v.
Luna, 136 S. Ct. 305, 308 (2015) (per curiam) (internal quotation marks omitted). To be sure, sweeping
statements about constitutional rights do not provide
officials with the requisite notice. “For example,” the
Supreme Court has told us, “the right to due process
of law is quite clearly established by the Due Process
Clause, and thus there is a sense in which any action
that violates that Clause (no matter how unclear it
may be that the particular action is a violation) violates a clearly established right.” Anderson, 483 U.S.
at 639. But, the deficiencies of a too-general clearly
established test have no bearing on the specifics of
this case. Here, the right recognized by the district
court—and one we adopt as directly flowing from the
reasoning of the long line of bodily integrity and
shocks-the-conscience cases—is neither a “general
proposition” nor one “lurking in the broad ‘history
and purposes’” of the substantive due process clause.
al-Kidd, 563 U.S. at 742. “Any other result would
allow Hope’s fear of ‘rigid, overreliance on factual
similarity’ in analyzing the ‘clearly established’
prong of the qualified immunity standard to be
realized.” Baynes, 799 F.3d at 614 (quoting Hope, 536
U.S. at 742).10
10 Some defendants and the dissent direct us to dicta in a
recent District of New Jersey case involving a bodily integrity
claim arising out of the discovery of leaded water in the
Newark, New Jersey’s public-school buildings. See Branch v.
[Footnote continued on next page]

46a
In providing a tainted life-necessity and falsely
assuring the public about its potability, government
officials “strip[ped] the very essence of personhood”
from those who consumed the water. Doe, 103 F.3d
at 507. They also caused parents to strip their
children of their own personhood. If ever there was
an egregious violation of the right to bodily integrity,
this is the case; the “affront to human dignity in this
case is compelling,” United States v. Booker, 728 F.3d
535, 546 (6th Cir. 2013), and defendants’ “conduct is
so contrary to fundamental notions of liberty and so
lacking of any redeeming social value, that no
rational individual could believe . . . [their conduct] is
constitutionally permissible under the Due Process
Clause.” Doe, 103 F.3d at 507. We therefore agree
with the district court that plaintiffs have properly
pled a violation of the right to bodily integrity
against Howard Croft, Darnell Earley, Gerald
Ambrose, Liane Shekter-Smith, Stephen Busch,
Michael Prysby, and Bradley Wurfel, and that the
right was clearly established at the time of their
conduct. Should discovery shed further light on the
reasons behind their actions (as but one example, a
governmental interest that trumps plaintiffs’ right to
[Footnote continued from previous page]
Christie, 2018 WL 337751 (D.N.J. Jan. 8, 2018). We are not
obligated to give this decision, let alone its dicta, any persuasive
value. See Baker, 471 F.3d at 606. The opinion is bereft of any
substantive analysis regarding the right to bodily integrity, and
wholly omits discussion of the Supreme Court cases mentioned
in detail here. It is also factually distinct in at least one major
aspect—here, the government officials participated in the
decision to taint Flint’s water-supply in the first instance;
there, the government officials failed to take action upon
discovery of the leaded water.

47a
bodily integrity), they are free to raise the qualified
immunity defense again at the summary judgment
stage. See, e.g., Miller v. Maddox, 866 F.3d 386, 390
(6th Cir. 2017); see also Wesley, 779 F.3d at 433–
34.11
VII.
The final issue is Flint’s claim that the district
court erred in denying it sovereign immunity. The
Eleventh Amendment provides that “[t]he Judicial
power of the United States shall not be construed to
11 We deny plaintiffs’ pending motion to take judicial notice of
pending but unproven criminal charges against some of the
defendants and note that that the district court erred in doing
so and using them to justify denying qualified immunity. First,
although courts may consider judicially noticed facts when
evaluating motions to dismiss under Federal Rule of Civil
Procedure 12(b)(6), see, e.g., Buck v. Thomas M. Cooley Law
Sch., 597 F.3d 812, 816 (6th Cir. 2010), we have held that a
“criminal indictment qualifies as a matter outside the pleading”
therefore necessitating conversion to a Rule 56 motion. Rose v.
Hartford Underwriters Ins. Co., 203 F.3d 417, 420 (6th Cir.
2000) (brackets and internal quotation marks omitted). Second,
it was error for the district court to consider the charges for
qualified-immunity purposes without engaging in the proper
analysis. The Supreme Court has made clear that “[o]fficials
sued for constitutional violations do not lose their qualified
immunity merely because their conduct violates some statutory
. . . provision.” Davis v. Scherer, 468 U.S. 183, 194 (1984).
Instead, government officials are “liable for damages only to the
extent that there is a clear violation of the statutory rights that
give rise to the cause of action for damages.” Id. at 194 n.12.
They do not “lose their immunity by violating the clear command of a statute . . . unless that statute . . . provides the basis
for the cause of action sued upon.” Id. Here, the district court
failed to consider whether the charges could be considered
under this standard.

48a
extend to any suit in law or equity, commenced or
prosecuted against one of the United States by
Citizens of another State, or by Citizens or Subjects
of any Foreign State.” U.S. Const. amend. XI. It bars
suits against a state by its own citizens, and by
citizens of another state. See, e.g., Bd. of Trs. of Univ.
of Ala. v. Garrett, 531 U.S. 356, 363 (2001). “The
ultimate guarantee of the Eleventh Amendment is
that nonconsenting States may not be sued by
private individuals in federal court.” Id.
Flint, obviously, is not a state; it is a municipality incorporated under the laws of the State of
Michigan. See People v. Pickett, 63 N.W.2d 681, 684
(Mich. 1954). The Supreme Court could not be
clearer in demarcating between states and their
political subdivisions for sovereign immunity purposes: “The bar of the Eleventh Amendment to suit
in federal court extends to States and state officials
in appropriate circumstances, but does not extend to
counties and similar municipal corporations.” Mt.
Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429
U.S. 274, 280 (1977) (internal citations omitted); see
also Jinks v. Richland Cty., 538 U.S. 456, 466 (2003)
(“[M]unicipalities, unlike States, do not enjoy a
constitutionally protected immunity from suit.”). We
have even noted this contrast in one of our previous
Flint Water Crisis cases, stating in dicta that the
Eleventh Amendment does not apply to “the defendants associated with the City of Flint.” Boler, 865
F.3d at 410.
Flint readily concedes municipalities do not enjoy
sovereign immunity. That would normally end our
analysis, but this is not a typical case. At the time of
the crisis, Flint was so financially distressed that the
State of Michigan had taken over its day-to-day local

49a
government operations by way of a statutory mechanism enacted to deal with municipal insolvency—
gubernatorial-appointed individuals who “act for and
in the place and stead of the governing body and the
office of chief administrative officer of the local
government.” Mich. Comp. Laws § 141.1549(2); see
generally Phillips v. Snyder, 836 F.3d 707, 711–12
(6th Cir. 2016) (summarizing Michigan’s Local
Financial Stability and Choice Act (or Public Act
436)). Flint contends it became an arm of the state
because of the State of Michigan’s takeover. We thus
find it more appropriate to resolve whether this
extraordinary factor dictates a different outcome. See
Monell v. Dep’t of Soc. Servs. of City of New York, 436
U.S. 658, 690 n.54 (1978) (suggesting that under
some circumstances, local governmental units could
be “considered part of the State for Eleventh Amendment purposes”). On de novo review, see Babcock v.
Michigan, 812 F.3d 531, 533 (6th Cir. 2016), we
agree with the district court that the City of Flint is
not entitled to Eleventh Amendment immunity.12
A.
“The entity asserting Eleventh Amendment
immunity has the burden to show that it is entitled
to immunity, i.e., that it is an arm of the state.” Lowe
12 Flint requests that we either certify the question of whether
Public Act 436 transforms municipalities into arms of the state
to the Michigan Supreme Court, or delay our opinion “until
after Michigan courts have had an opportunity to answer it.”
Certification is not appropriate here—Flint did not make the
same request to the district court and we have the appropriate
data points to address the issue. See, e.g., In re Amazon.com,
Inc., Fulfillment Ctr. Fair Labor Standards Act (FLSA) & Wage
& Hour Litig., 852 F.3d 601, 607–08 (6th Cir. 2017).

50a
v. Hamilton Cty. Dep’t of Job & Family Servs., 610
F.3d 321, 324 (6th Cir. 2010) (brackets and citation
omitted). We have identified four factors relevant to
“whether an entity is an ‘arm of the State’ on the one
hand or a ‘political subdivision’ on the other”: “(1) the
State’s potential liability for a judgment against the
entity; (2) the language by which state statutes, and
state courts refer to the entity and the degree of state
control and veto power over the entity’s actions;
(3) whether state or local officials appoint the board
members of the entity; and (4) whether the entity’s
functions fall within the traditional purview of state
or local government.” Ernst v. Rising, 427 F.3d 351,
359 (6th Cir. 2005) (en banc) (internal citations
omitted).
We have characterized the first factor—the
state’s potential liability for a judgment against the
entity—as “the foremost,” id., the “most salient,”
Town of Smyrna v. Mun. Gas Auth. of Ga., 723 F.3d
640, 651 (6th Cir. 2013), and one creating “a strong
presumption” on the issue. Kreipke v. Wayne State
Univ., 807 F.3d 768, 777 (6th Cir. 2015). Although
this “state-treasury inquiry will generally be the
most important factor, . . . it is not the sole criterion.”
Ernst, 427 F.3d at 364 (internal quotation marks
omitted). This is so because sovereign immunity
protects not only a state’s purse but also its dignity—
“it . . . serves to avoid the indignity of subjecting a
State to the coercive process of judicial tribunals at
the instance of private parties.” Seminole Tribe v.
Florida, 517 U.S. 44, 58 (1996) (citation omitted).
Accordingly, “the last three factors may demonstrate
that an entity is an arm of the state entitled to
sovereign immunity despite the fact that political
subdivisions and not the State are potentially liable
for judgments against the entity.” Pucci v.

51a
Nineteenth Dist. Court, 628 F.3d 752, 762 (6th Cir.
2010). To do so, however, they must “far outweigh”
the first factor. Id. at 761. Applying this test, we
conclude the City of Flint has not met its burden to
show that it was an “arm of the state” protected by
the Eleventh Amendment.13
1.
Michigan’s potential liability (or rather, lack
thereof) weighs heavily against Flint. Michigan law
provides that local property tax rolls account for
judgments against cities or its officers, see Mich.
Comp. Laws § 600.6093(1), while the state treasury
pays judgments against “arms of the state.” See
Mich. Comp. Laws §§ 600.6458(2), 600.6096(1).
Public Act 436 does not change this; in fact, it
reinforces this dynamic, providing that any claims,
demands, or lawsuits “arising from an action taken
during the services of [an] emergency manager” are
13 Citing Cash v. Granville County Board of Education, 242
F.3d 219 (4th Cir. 2006), Flint quizzically argues it can
separately show it is entitled to Eleventh Amendment immunity under a “sovereign dignity” inquiry independent from the
traditional Ernst factor test set forth in text. This argument is
not well-taken. For one, we are bound by our en banc decision
in Ernst, not the Fourth Circuit’s decision in Cash. For another,
Cash does not hold, as Flint suggests, that “[e]ven if a defendant fails the Ernst test, it may still enjoy sovereign immunity
if the judgment would adversely affect the dignity of the State
as a sovereign.” Rather, it holds consistent with our caselaw,
that the “state purse” factor is foremost, but in certain situations “sovereign dignity factors”—i.e., Ernst factors two, three,
and four—can lead to a finding of sovereign immunity. Id. at
224; see also Pucci, 628 F.3d at 761. Put differently, our Ernst
factors already take state dignity into account when evaluating
application of the Eleventh Amendment.

52a
to “be paid out of the funds of the local government
that is or was subject to the receivership administered by that emergency manager.” Mich. Comp.
Laws § 141.1560(5). Most critically, Public Act 436
“does not impose any liability or responsibility in law
or equity upon th[e] state, any department, agency,
or other entity of th[e] state, or any officer or
employee of th[e] state, or any member of a
receivership transition advisory board, for any action
taken by any local government under this act, for
any violation of the provisions of this act by any local
government, or for any failure to comply with the
provisions of this act by any local government.” Mich.
Comp. Laws § 141.1572. Michigan’s lack of potential
liability here creates a “strong presumption” against
an Eleventh Amendment finding. See Kreipke, 807
F.3d at 777.
2.
As to the second factor—state law treatment of,
and state control over, the entity—we start with a
foundational aspect of Michigan law undisputed by
the parties: Municipalities enjoy significant autonomy over local governmental functions. “Michigan is
strongly committed to the concept of home rule, and
constitutional and statutory provisions which grant
power to municipalities are to be liberally construed.” Bivens v. Grand Rapids, 505 N.W.2d 239,
243 (Mich. 1993). Michigan’s Constitution grants
cities the “power to adopt resolutions and ordinances
relating to its municipal concerns, property and
government.” Mich. Const. Art. 7, § 22 (1963). The
Michigan Supreme Court has also held that home
rule cities like Flint “enjoy not only those powers
specifically granted, but they may also exercise all
powers not expressly denied.” AFSCME v. City of

53a
Detroit, 662 N.W.2d 695, 707 (Mich. 2003) (citation
and internal quotation marks omitted). Although
state statutes and Michigan’s Constitution may limit
these broad powers, Michigan’s clear preference is
that municipalities have “great[] latitude to conduct
their business.” Associated Builders & Contractors v.
City of Lansing, 880 N.W.2d 765, 769 (Mich. 2016).
Flint asks us to find an exception to these general
principles because it was engaged in providing water
services to its citizens and did so while under the
control of emergency managers. We decline to do so.
First, citing Curry v. City of Highland Park, 219
N.W. 745 (Mich. 1928), Flint claims that when a
municipality acts in the interest of public health, like
providing water services, it “acts as the arm of the
state” under Michigan law. Id. at 748. We disagree.
For one, Curry noted that “the management of water
works” is a “matter[] of purely local concern . . . as
distinguished from the state at large.” Id. (citation
omitted). But more importantly and as recently
illustrated by another Flint Water Crisis case, that is
not what Michigan law provides. See Boler v.
Governor, --- N.W.2d ---, 2018 WL 2991257 (Mich. Ct.
App. 2018) (per curiam).14 The import of Michigan’s
14 Michigan’s Court of Claims Act grants the Michigan Court of
Claims exclusive jurisdiction “[t]o hear and determine any
claim or demand, statutory or constitutional . . . against the
state or any of its departments or officers.” Mich. Comp. Laws
§ 600.6419(1)(a). The issue presented in Boler v. Governor was
whether claims arising out of the Flint Water Crisis against
Flint were within the exclusive jurisdiction of the Court of
Claims. Although it is strictly a statutory interpretation case,
we find its analysis persuasive for it provides extensive discussion about the relationship between Michigan and its political
subdivisions.

54a
Constitution and its Home Rule City Act, Mich.
Comp. Laws § 117.1, et seq., is that “if a municipality
is supplying a utility, or specifically waterworks, to
its citizens and the citizens are paying for the same,
the municipality is operating the waterworks as a
business and it is doing so as a businessman or
corporation, not as a concern of the state government
or arm of the state. It is, after all, serving only a
limited number of people within its boundaries, not
the state as a whole.” Id. at *4. Michigan’s Home
Rule City Act expressly empowers a municipality to
“provide for the installation and connection of sewers
and waterworks in its charter.” Id. (citing Mich.
Comp. Laws § 117.4b); see also Mich. Comp. Laws
§§ 117.4c(1), 117.4f. But if, for example, a
municipality supplies water for another purpose—
“protecting its citizens from fire or natural disaster
or anything else that has the potential to have statewide impact, and it is not profiting from the
provision of that water”—then and only then could a
municipality’s waterworks “perhaps” serve the
state’s citizenry at large and thus be deemed an arm
of the state. Boler, --- N.W.2d ---, 2018 WL 2991257,
at *4. And as the Michigan Court of Appeals determined, Flint’s provision of water services clearly falls
within its “proprietor” function and does not transform the city into an arm of the state. Id.; see also
Collins v. City of Flint, 2016 WL 8739164, at *4
(Mich. Ct. Cl. Aug. 25, 2016).
Second, we are equally unconvinced that Flint’s
emergency-management status should weigh in
Flint’s favor. At first blush, Flint’s argument here
has some facial appeal—generally speaking, Public
Act 436 can be a one-way ticket to state receivership.
The governor, in consultation with several bodies,
determines whether a financial emergency exists,

55a
and then provides the entity at issue with four
options (one of which is emergency management).
See Phillips, 836 F.3d at 712. Flint claims these
options are illusory because state officials still have
significant oversight within each option, and were
nonetheless unavailable to Flint because Public Act
436 kept in place Flint’s prior-appointed emergency
manager under a prior version of the emergency
manager law. See id. at 711–12; see also Mich. Comp.
Laws § 141.1549(10).
Once in receivership, the argument goes, Flint
was essentially at the whim of its emergency
managers. One need not look beyond Public Act 436’s
power-authorizing provision to appreciate its
breadth:
Upon appointment, an emergency manager
shall act for and in the place and stead of the
governing body and the office of chief
administrative officer of the local government.
The emergency manager shall have broad
powers in receivership to rectify the financial
emergency and to assure the fiscal accountability of the local government and the local
government’s capacity to provide or cause to
be provided necessary governmental services
essential to the public health, safety, and
welfare. Following appointment of an emergency manager and during the pendency of
receivership, the governing body and the chief
administrative officer of the local government
shall not exercise any of the powers of those
offices except as may be specifically authorized in writing by the emergency manager or
as otherwise provided by this act and are

56a
subject to any conditions required by the
emergency manager.
Mich. Comp. Laws § 141.1549(2) (emphasis added).
In essence, an emergency manager acts “for and on
behalf of the local government,” and may take any
“action or exercise any power or authority of any
officer, employee, department, board, commission, or
other similar entity of the local government, whether
elected or appointed, relating to the operation of the
local government.” § 141.1552(dd)–(ee).
There is also a certain amount of control the
state has over the emergency manager. Among other
things, an emergency manager “is a creature of the
Legislature with only the power and authority
granted by statute”; is appointed by the governor;
serves at the governor’s pleasure, and may be
removed by the governor or by impeachment by the
Legislature; receives financial compensation from
the state treasury; is subjected “to various codes of
conduct otherwise applicable only to public servants,
public officers and state officers”; and is statutorily
obligated to submit certain plans and reports to state
officials. See Mays, 916 N.W.2d at 256 (citations
omitted). On this basis, the Michigan Court of
Appeals has held (again, in a Flint Water Crisis
matter) that an emergency manager is a “state officer” for purposes of the Court of Claims Act and thus
“[c]laims against an emergency manager acting in
his or her official capacity therefore fall within the
well-delineated subject-matter jurisdiction of the
Court of Claims.” Id. at 257.
The problem with Flint’s argument is that
Michigan courts have rejected the notion that a city’s
emergency management status transforms a city into

57a
a state entity. In the words of the Michigan Court of
Appeals:
As indicated in the Local Financial Stability
and Choice Act, “it is a valid public purpose
for this state to take action and to assist a
local government in a financial emergency so
as to remedy the financial emergency.” The
primary purpose of the Act, then, was for the
State of Michigan to assist local governments
temporarily during a financial crisis. The
emergency manager acts in the place of the
chief administrative officer and governing
body for and on behalf of the local
government only. At all times, then, the City
remained a municipality, albeit with a state
employee temporarily overseeing the financial management of the municipality affairs.
The City was at no time operating as “a
means or agency through which a function of
another entity i.e., the state is accomplished.”
No function or purpose of the state was
accomplished in the emergency manager
overseeing the City. The City was instead
always operating as a means through which
functions of its own entity were accomplished. The state simply engaged a state
employee to temporarily assist the City in
performing its functions and serving its local
purposes for its citizens.
Boler v. Governor, --- N.W.2d ---, 2018 WL 2991257,
at *6 (alterations and citations omitted); see also
Collins, 2016 WL 8739164, at *4–5. We agree with
this well-reasoned analysis. Moreover, it is consistent with our recent decision in Phillips, where we
noted Public Act 436 merely reflects states’ abilities

58a
“to structure their political subdivisions in innovative ways,” including by “allocat[ing] the powers of
subsidiary bodies among elected and non-elected
leaders and policymakers.” 836 F.3d at 715. That is,
Public Act “436 does not remove local elected
officials; it simply vests the powers of the local
government in an emergency manager.” Id. at 718.
Given this, we conclude the second factor tilts
against Flint.
3.
The appointment factor weighs in Flint’s favor.
Public Act 436 expressly provides that the governor
appoints an emergency manager. Mich. Comp. Laws
§ 141.1549(1). The state attempts to temper this
specific appointment language by pointing out that
emergency management under Public Act 436 is one
of last resort—that upon declaration of financial
emergency, a municipality has several options in
addition to emergency management, see § 141.1547,
and may remove an emergency manager after 18
months (or petition the governor to remove the
emergency manager earlier). § 1549(6)(c), (11). That
may be so, but Ernst is specific here—we are to
consider who appoints the entity at issue, and there
is no debating that although a municipality might
have some ability to avoid emergency management
or to remove an emergency manager, Michigan’s
governor appoints emergency managers.
4.
Whether the entity’s functions fall within the
traditional purview of state or local government
weighs heavily against Flint. Under Public Act 436,
an emergency manager takes the place of a local
body; he, in other words, takes over the local

59a
government’s functions. And as the State of
Michigan rightly phrases it, “[t]he City of Flint’s
functions are ‘within the traditional purview of local
government’ because the City of Flint is a local
government.”
Flint has no answer for this obvious point, and
instead asks us to narrowly focus on the City’s provision of waterworks. It underwhelmingly strings this
argument together: Because Michigan’s Safe Drinking Water Act provides the MDEQ with “power and
control over public water supplies and suppliers of
water” and criminalizes the failure to comply with
MDEQ rules, see Mich. Comp. Laws §§ 325.1003,
325.1021, “the functioning of a waterworks falls
within the purview of the State.” But even were we
to ignore the fact that Public Act 436’s command to
an emergency manager is to take over all of a
municipality’s functions and not just its utilities, the
answer is still the same given our discussion above.
Flint even admits as much, telling us “the day-to-day
operations of a waterworks generally fall within the
purview of local authorities.” That MDEQ “exercises
the state’s police powers, in an oversight capacity, by
regulating the water quality” does not dictate a
contrary conclusion, for “MDEQ does not own,
operate or maintain the water delivery systems, . . .
[n]or is it charged with providing water to the
inhabitants of Michigan’s cities.” Collins, 2016 WL
8739164, at *4. Thus, we decline to effectively turn
every local governmental body’s provision of service
into an arm of the state when that service is regulated by the state in some fashion. Cf. N. Ins. Co. of
New York v. Chatham Cty., 547 U.S. 189, 194 (2006)
(merely “exercis[ing] a slice of state power” does not
transform a state’s subdivision into an arm of the
state (internal quotation marks omitted)).

60a
B.
In sum, Flint has not met its burden to show that
when under emergency management, it was an “arm
of the state” protected by the Eleventh Amendment.
The foremost consideration—the state’s potential
liability for judgment—counsels against a finding of
Eleventh Amendment immunity, and the remaining
factors do not “far outweigh” this factor. Pucci, 628
F.3d at 761.
VIII.
For these reasons, we affirm the district court in
part, and reverse in part.
_____________________________________________
CONCURRING IN PART AND
DISSENTING IN PART
_____________________________________________
McKEAGUE, Circuit Judge, concurring in part
and dissenting in part. The majority tells a story of
intentional poisoning based on a grossly exaggerated
version of plaintiffs’ allegations. The complaint tells
an entirely different story. It is a story of a series of
discrete and discretionary decisions made by a
variety of policy and regulatory officials who were
acting on the best information available to them at
the time. In retrospect, that information turned out
to be grievously wrong. The result is what has
become known as the Flint Water Crisis. The
question this case presents is not whether the
collective result of the officials’ actions—the Water
Crisis—caused any harm. It did. The question is,
rather, whether any official’s discrete decisions or
statements, which in any way caused or contributed
to the Crisis, violated a substantive due process right

61a
to bodily integrity. By answering that question with,
“obviously, yes,” the majority extends the protections
of substantive due process into new and uncharted
territory and holds government officials liable for
conduct they could not possibly have known was
prohibited by the Constitution. In doing so, the
majority unfairly denies defendants protection from
suit under the doctrine of qualified immunity.
As in all cases dealing with the defense of qualified immunity, it is plaintiffs’ burden to establish,
first, that the defendants violated a constitutional
right and, second, that the right was clearly established at the time the challenged conduct took place.
Ashcroft v. al-Kidd, 563 U.S. 731, 735 (2011). I have
serious doubts about whether plaintiffs carried their
burden at the first prong of the analysis. I am certain
they failed to carry their burden at the second. The
majority reaches the opposite conclusion by building
on a factual narrative of its own invention.
To place the qualified-immunity analysis on
firmer footing, I begin with a recitation of the allegations as told by plaintiffs in their complaint. I then
turn to qualified immunity’s two prongs. As to the
first, I doubt that plaintiffs allege that any defendant
deprived them of a Fourteenth Amendment substantive-due-process right—both because the conduct
actually alleged in the complaint does not appear to
be conscience-shocking and because the Due Process
Clause has never before been recognized as
protecting against government conduct that in some
way results in others being exposed to contaminated
water. But even if plaintiffs have alleged the violation of a recognized due process right, their claim
nonetheless fails at prong two of the qualifiedimmunity analysis, which asks whether the right

62a
was clearly established. The mere fact that no court
of controlling authority has ever recognized the type
of due process right that plaintiffs allege in this case
is all we need to conclude the right is not clearly
established. Accordingly, qualified immunity must
shield each defendant from suit.
Before moving to the analysis, I note several
points of agreement with the majority opinion. First,
I join the majority in rejecting the City of Flint’s
argument that it is entitled to Eleventh Amendment
immunity from plaintiffs’ suit because the State of
Michigan’s takeover of the City of Flint, pursuant to
Michigan’s “Emergency Manager” law, transformed
the City into an arm of the state. Additionally, I
agree that plaintiffs fail to state a Fourteenth
Amendment claim against Michigan Department of
Health and Human Services (MDHHS) employees
Nick Lyon, Eden Wells, Nancy Peeler, and Robert
Scott; and Michigan Department of Environmental
Quality (MDEQ) director Daniel Wyant. That is
where my agreement ends, however. I respectfully
dissent from the denial of qualified immunity for
Flint Emergency Managers Darnell Earley and
Gerald Ambrose; Flint’s Director of Public Works
Howard Croft; and MDEQ employees Liane ShekterSmith, Stephen Busch, Michael Prysby, and Bradley
Wurfel.
I
I begin with a review of the facts. Because this
case comes before us on appeal from a motion to dismiss for failure to state a claim, I accept all factual
allegations as true and construe them in the light
most favorable to plaintiffs. Linkletter v. W. & S. Fin.
Grp., Inc., 851 F.3d 632, 637 (6th Cir. 2017).

63a
The Flint Water Crisis began when the City of
Flint, undergoing extreme financial distress, came
under the leadership of a succession of “Emergency
Managers”—temporary city managers appointed by
the governor to “act for and in the place and stead of
the governing body and the office of chief administrative officer of the local government.” M.C.L.
§ 141.1549(2). One of the City’s Emergency
Managers was Edward Kurtz. In 2013, Kurtz made a
critical fiscal decision that set the City on a path
toward the Flint Water Crisis. With the approval of
the State of Michigan’s treasurer, Kurtz terminated
a decades-long contract for water services from the
Detroit Water and Sewerage Department (DWSD)
and ordered Flint to join the newly-formed and more
affordable Karegnondi Water Authority (KWA). The
KWA was not yet functional, however. So Kurtz had
to choose an interim source of Flint’s drinking water.
He determined that the best temporary source, from
a budgetary standpoint, was the Flint River, treated
at the City’s own, and then-idle, water treatment
plant. He notified the DWSD that Flint would soon
cease receiving water from the DWSD.
Before the switch was finalized, Darnell Earley
took over as Emergency Manager, assuming the position in November 2013. The City officially switched
to the Flint River in April 2014. For decades prior,
the Flint water treatment plant was designated for
emergency use only. A 2011 “feasibility report”
concluded that it would take extensive upgrades to
bring it in compliance with “applicable standards” for
use as a permanent water source. Plaintiffs allege
that Earley “rushed” the switch to meet a “selfimposed” and “aggressive” deadline, without ensuring that Flint’s water treatment plant was ready to
properly treat Flint River water, and that he did so

64a
for the purpose of cutting costs. But they also assert
that, at some point before the April 2014 switch,
Flint hired an engineering firm—Lockwood,
Andrews, & Newman (Lockwood)—“to prepare
Flint’s water treatment plant for the treatment of
new water sources, including both the KWA and the
Flint River.” Even though the Flint River water was
highly corrosive, plaintiffs allege that Lockwood did
not advise the City to set water quality standards or
implement corrosion control at the water treatment
plant prior to using the River as a drinking water
source.
Neither did the MDEQ—the state agency
primarily responsible for ensuring compliance with
federal and state safe drinking water laws. Relevant
here, the MDEQ was tasked with ensuring Flint
complied with the federal Lead and Copper Rule.
That Rule generally requires public water systems to
monitor and treat lead and copper levels in drinking
water. 40 C.F.R § 141.80, et seq. The MDEQ believed,
erroneously as it turns out, that the Rule allowed
Flint’s water treatment plant to begin distributing
Flint River water and then conduct two rounds of
six-month testing before determining what method of
corrosion control to use to treat the water. So in April
2014, the City began distributing the Flint River
water to residents without first implementing
corrosion control treatment. Around the time of the
switch, the director of Flint’s Department of Public
Works, Howard Croft, publicly announced that the
City’s testing proved the water was safe and “of the
high quality that Flint customers have come to
expect.”
Soon after the transition, however, problems
emerged. Residents complained of oddly smelling

65a
and discolored water. In October 2014, General
Motors stopped using the City water at its enginemanufacturing plant out of fear that high levels of
chloride would cause corrosion. Then, after the City
attempted to disinfect the water, it discovered
trihalomethanes—a potentially toxic byproduct
caused by attempting to disinfect the water. That
discovery prompted the City to mail a notice to its
customers explaining that the City was in violation
of the Safe Drinking Water Act but that the water
was safe to drink for most people with healthy
immune systems. Additionally, plaintiffs say that
“[a]s early as January of 2015, the State of Michigan
provided purified water coolers at its Flint offices in
response to concerns about the drinking water.”
On January 9, 2015, the first apparent concerns
of lead in Flint’s drinking water began to emerge. On
that day, The University of Michigan-Flint discovered lead in campus drinking fountains. It is unclear
from the complaint whether that discovery was
publicized and thus whether any City or State
official involved in testing or distributing Flint’s
water knew about the discovery.
Also around January 2015, and largely in
response to citizen complaints, Flint hired another
engineering firm—Veolia North America, LLC
(Veolia)—to review the City’s water quality. Veolia
completed a “160-hour assessment of the treatment
plant, distribution system, customer services and
communication programs, and capital plans and
annual budget.” The firm issued a final report in
March, in which it concluded that Flint was in
“compliance with State and Federal water quality
regulations, and based on those standards, the water
[was] considered to
meet
drinking water

66a
requirements.”
Additionally,
it
stated
that
discolorations in the water “raise[d] questions” but
that the water remained safe to drink.
Around that time, another Emergency Manger,
Gerald Ambrose, took over the City’s operations. On
January 12, 2015, the day before Ambrose assumed
his Emergency Manager role, the DWSD offered to
waive a 4-million-dollar reconnection fee if the City
of Flint resumed using its services. Ambrose declined
the offer. Then, in late March, Flint’s City Council
voted 7-1 to resume services with the DWSD.
Ambrose
rejected
the
vote,
calling
it
“incomprehensible.”
In the meantime, several MDEQ employees were
having internal discussions about Flint’s water
problems. Liane Shekter-Smith, MDEQ’s Chief of the
Office of Drinking Water and Municipal Assistance,
emailed other MDEQ employees to suggest that the
Flint River water was “slough[ing] material off of
pipes” in the distribution system rather than
“depositing material or coating pipes[.]” She opined
that “[t]his may continue for a while until things
stabilize.”
Soon, an EPA employee became involved in the
discussion as well. Miguel Del Toral, the EPA’s regional drinking water regulations manager, reached
out to the MDEQ on February 27, 2015, to voice his
concerns about the possibility of elevated lead levels.
Del Toral informed Michael Prysby, an MDEQ
engineer, that the MDEQ’s specific method for testing lead levels in Flint residents’ tap water may be
producing test results that underestimated lead
levels. He also asked whether the water treatment
plant was using optimized corrosion control, which
he noted was “required” to be in place. That same

67a
day, Stephen Busch, an MDEQ District Supervisor in
Lansing, responded to Del Toral stating that the
water treatment plant had an “optimized corrosion
control program.” Two months later, an unidentified
individual from the MDEQ informed the EPA that it
had no optimized corrosion control treatment in
place.
In April 2015, Del Toral again reached out to the
MDEQ, this time issuing a memorandum that
expressed concern with the lack of corrosion control
and Flint’s water testing methods. He also told
MDEQ employees Busch and Prysby that he believed
the MDEQ’s sampling procedures did not properly
account for the presence of lead service lines. Therefore, Del Toral said he “worried that the whole town
may have much higher lead levels than the compliance results indicated[.]” According to plaintiffs, the
MDEQ “ignored and dismissed” Del Toral’s concerns.
A few months later, plaintiffs say that Busch
“claimed that ‘almost all’ homes in the pool sampled
for lead in Flint had lead services lines,” even though
this was untrue. Plaintiffs do not indicate to whom
Busch made that statement. Later in July, a reporter
broke a story announcing that Flint’s water was
contaminated with lead, citing Del Toral’s April 2015
memorandum. In response, Bradley Wurfel, MDEQ’s
Communications Director, publicly stated that
“anyone who is concerned about lead in the drinking
water in Flint can relax.”
That same month, the EPA and the MDEQ had a
conference call to discuss MDEQ’s compliance with
the Lead and Copper Rule. According to plaintiffs,
the EPA pushed for Flint to use optimized corrosion
control, but the MDEQ insisted that doing so was
“unnecessary and premature.” In a follow-up email,

68a
MDEQ employee Shekter-Smith asked the EPA to
provide a written concurrence that the City was in
compliance with the Lead and Copper Rule.
Also in July, MDEQ employees exchanged a
series of internal emails discussing how water tests
performed by outside sources, which showed that
Flint’s drinking water had impermissibly high lead
levels, compared with the MDEQ’s own water testing
results, which showed lower lead levels. When a
report by a Virginia Tech professor revealing high
lead levels surfaced in September 2015, Wurfel made
public statements challenging the report and asserting that Flint’s drinking water remained in compliance with federal and state laws. During this time,
other MDEQ employees maintained that Flint was
not required to use corrosion control until unacceptably high levels of lead had already appeared in the
water, which they believed was not yet the case.
Later in September, Croft emailed “numerous
officials” to report that the City of Flint had
“officially returned to compliance with the Michigan
Safe Drinking Water Act” and that it had “received
confirming documentation from the [M]DEQ” to that
effect. He explained that “[a]t the onset of our plant
design, optimization for lead was addressed and
discussed with the engineering firm and with the
[M]DEQ. It was determined that having more data
was advisable prior to the commitment of a specific
optimization method. . . . We have performed over
one hundred and sixty lead tests throughout the city

69a
since switching over to the Flint River and remain
within EPA standards.”1
The MDHHS also began to take a closer look at
the outside studies showing high lead levels in
Flint’s water. Though at least a few MDHHS employees became aware of an increase in blood lead levels
in Flint’s children in July, the increase was attributed to “seasonal variation”—a summer phenomenon
in which children’s blood lead levels naturally
increase because of more frequent exposure to lead in
soil and other seasonal factors. But in September,
MDHHS employees began to take a closer look. They
circulated a study conducted by a pediatrician at a
Flint hospital, Dr. Mona Hanna-Attisha, which
showed elevated blood lead levels in children. The
next day, one MDHHS employee attempted to
recreate the study but came up with different numbers. The City of Flint also issued a health advisory
telling residents to flush pipes and install filters to
prevent lead poisoning. On October 1, 2015, the
MDHHS officially confirmed Dr. Hanna-Attisha’s
results.
Finally, on October 16, 2015, Flint reconnected to
the DWSD. Two days later, MDEQ Director Daniel
Wyant admitted to Michigan’s governor that MDEQ
“staff made a mistake while working with the City of
Flint. Simply stated, staff employed a federal
(corrosion control) treatment protocol they believed
was appropriate, and it was not.” Several MDEQ
1 It is unclear whether the “one hundred and sixty lead tests”
were part of the “160-hour assessment” that Veolia conducted
in early 2015 as part of its review of the City’s water treatment
plant.

70a
employees subsequently resigned or were suspended
without pay. On January 21, 2016, the EPA issued
an Emergency Order identifying the primary cause
of increased lead levels in Flint’s water as being a
lack of corrosion control treatment after the City’s
switch to the Flint River.
II
To make it past qualified immunity’s first prong,
a plaintiff must plead facts showing that a government official violated a constitutional right. al-Kidd,
563 U.S. at 735. Plaintiffs assert that their claim
falls under the fundamental right to bodily integrity,
a right guaranteed by the substantive component of
the Fourteenth Amendment’s Due Process Clause.
Albright v. Oliver, 510 U.S. 266, 272 (1994). We
measure whether the deprivation of a right to bodily
integrity—or any other substantive-due-process
right—actually occurred by determining whether a
defendant’s alleged conduct was so heinous and
arbitrary that it can fairly be said to “shock the
conscience.” Lillard v. Shelby Cty. Bd. of Educ., 76
F.3d 716, 725 (6th Cir. 1996). At times we have
treated these two elements (deprivation of a constitutional right and conscience-shocking behavior) as
separate methods of stating a substantive-dueprocess claim. Range v. Douglas, 763 F.3d 573, 588
(6th Cir. 2014). At other times we have concluded
they are both required. See Am. Express Travel
Related Servs. Co., Inc. v. Kentucky, 641 F.3d 685,
688 (6th Cir. 2011). But whether these are two
separate methods of establishing a substantive-dueprocess violation or are two required elements of
doing so does not change the outcome in this case.
Plaintiffs’ allegations show neither conscience-

71a
shocking conduct nor the violation of a fundamental
right.
To demonstrate why, I turn back to the allegations in plaintiffs’ complaint. The complaint is
particularly important here, because substantive due
process is an undefined area where “guideposts for
responsible decisionmaking . . . are scarce and openended” and “judicial self-restraint requires us to
exercise the utmost care whenever we are asked to
break new ground in this field.” Collins v. City of
Harker Heights, 503 U.S. 115, 125 (1992). We must,
therefore, “focus on the allegations in the complaint
to determine how [plaintiffs’] describe[] the constitutional right at stake and what [defendants] allegedly
did to deprive [plaintiffs] of that right.” Id. The
majority pays lip service to that command but
abandons it in the analysis. Although the majority
describes the bodily integrity right at stake as the
right to be free from a government official “knowingly and intentionally introducing life-threatening
substances into individuals without their consent,”
the right plaintiffs allege was violated is altogether
different.
Plaintiffs’ complaint specifically states: “In
providing Plaintiffs with contaminated water, and/or
causing Plaintiffs to consume that water, Defendants
violated Plaintiffs’ right to bodily integrity, insofar as
Defendants failed to protect Plaintiffs from a
foreseeable risk of harm from the exposure to lead
contaminated water.” That claim makes clear where
defendants allegedly went wrong. It was not in
knowingly introducing life-threatening substances
into plaintiffs’ bodies against their will; it was in
allegedly “fail[ing] to protect plaintiffs from a

72a
foreseeable risk of harm from the exposure to lead
contaminated water” (emphasis added).
And that claim, as framed by plaintiffs, immediately encounters two roadblocks to establishing a due
process violation: (1) a policymaker’s or regulator’s
unwise decisions and statements or failures to
protect the public are typically not considered
conscience-shocking conduct, and (2) the Due Process
Clause does not generally guarantee a bodily integrity right against exposure to contaminated water or
other types of environmental harms. These two roadblocks raise serious doubts about whether plaintiffs
meet the first prong of the qualified immunity
analysis. I review each of these problems with
plaintiffs’ claim in turn, starting first with whether
defendants’ alleged conduct rises to the conscienceshocking level.
A
The first roadblock to plaintiffs’ due process
claim is that the conduct alleged fails to meet the
“high” conscience-shocking standard. Range, 763
F.3d at 589. Plaintiffs’ “failure to protect from foreseeable harm” theory sounds in classic negligence.
But negligence—even gross negligence—does not
implicate the Due Process Clause’s protections.
Daniels v. Williams, 474 U.S. 327, 331–33 (1986).
“The Due Process Clause ‘does not purport to
supplant traditional tort law in laying down rules of
conduct to regulate liability for injuries that attend
living together in society[.]’” Collins, 503 U.S. at 128
(citation omitted). Rather, it serves to limit the
government from using its power as an “instrument
of oppression.” DeShaney v. Winnebago Cty. Dep’t. of
Soc. Servs., 489 U.S. 189, 195 (1989) (citation
omitted). Accordingly, substantive due process is

73a
implicated only by government actions (and sometimes failures to act) that are “so inspired by malice
or sadism rather than a merely careless or unwise
excess of zeal that [they] amount[] to a brutal and
inhumane abuse of official power literally shocking
to the conscience.” Lillard, 76 F.3d at 725 (citation
omitted). Normally, meeting that standard requires
plaintiffs to show an intent to injure through some
affirmative act, but, depending on the context, even a
deliberately indifferent failure to act may constitute
conscience-shocking behavior. Cty. of Sacramento v.
Lewis, 523 U.S. 833, 846 (1998). In the context of a
non-custodial case such as this one, to show
conscience-shocking behavior based on deliberate
indifference, a plaintiff must show something akin to
“callous disregard or intent to injure. Schroder v.
City of Fort Thomas, 412 F.3d 724, 730 (6th Cir.
2005) (citing Lewis, 523 U.S. at 846); see also Hunt v.
Sycamore Cmty. Sch. Dist. Bd. of Educ., 542 F.3d
529, 538 (6th Cir. 2008) (“[I]n order to succeed on a
§ 1983 claim in a non-custodial setting, a plaintiff
must prove either intentional injury or ‘arbitrary
conduct intentionally designed to punish someone[.]’”
(citation and emphasis omitted)).
In all cases, we are required to perform an “exact
analysis of the circumstances before” condemning
“any abuse of power . . . as conscience shocking.”
Lewis, 523 U.S. 850. The majority eschews that
requirement. Instead of reviewing the defendantspecific allegations in context, it cherry-picks a few
“examples” from plaintiffs’ complaint and strings
them together to form a narrative not told by plaintiffs. In compounding that error, the majority draws
inconsistent, even contradictory, conclusions about
the level of culpability the allegations entail. In one
breath, the majority says plaintiffs plausibly allege

74a
that defendants “knowingly and intentionally introduc[ed] life-threatening substances into individuals
without their consent.” But in another breath, it says
“[t]here is no allegation defendants intended to harm
Flint residents.” In yet another, the majority says
defendants “systematically contaminate[d]” the Flint
community. I will leave it to the reader to reconcile
how conduct may constitute a knowing, intentional,
and systematic attempt to contaminate another
without also being motivated by an intent to harm
that person. I, for one, fail to follow that logic. It is
only by this imprecise analysis that the majority
concludes these defendants acted in a conscienceshocking manner.
A more exact, defendant-specific analysis shows
otherwise. The following analysis reveals that plaintiffs do not allege the additional “callous disregard or
intent to injure” element that applies to noncustodial deliberate-indifference claims. I review the
allegations against Flint’s Emergency Managers
(Darnell Earley and Gerald Ambrose),2 Flint’s
Department of Public Works Director (Howard
Croft), and the MDEQ employees (Liane ShekterSmith, Stephen Busch, Michael Prysby, and Bradley
Wurfel) in turn. Additionally, I explain why I agree
with the majority that the case against the MDHHS
executives and employees (Nick Lyon, Eden Wells,
2 Plaintiffs also bring a claim against the City of Flint, which
necessarily rises and falls with their claim against the Emergency Managers. Because the Emergency Managers were acting
on behalf of the City, their policy decisions concerning the
source of the City’s water were also policy decisions of the City.
Accordingly, plaintiffs’ claim implicates the City only to the extent the Emergency Managers’ decisions were unconstitutional.

75a
Nancy Peeler, and Robert Scott) and the MDEQ
Director (Daniel Wyant) must be dismissed.
1
Flint Emergency Managers Darnell Earley and
Gerald Ambrose. First, consider plaintiffs’ allegations
against Emergency Managers Earley and Ambrose.
According to plaintiffs, Earley “rushed” the switch to
the Flint River to meet a “self-imposed” and “aggressive” deadline as a cost-saving measure without
ensuring the water treatment plant was adequately
equipped to treat the water. Ambrose later rejected
opportunities to return to the DWSD despite
residents’ complaints and other evidence pointing to
the water’s high corrosivity. The majority concludes
that both Emergency Managers approved the initial
and ongoing use of the Flint River as a water source
despite knowing the City’s water treatment plant
was not equipped to treat the water. Not so.
Consider the Emergency Managers’ decisions in
context, starting with the initial switch under
Earley’s leadership. Recall that before the switch,
the City consulted with the Lockwood engineering
firm to ready its treatment plant. The engineering
firm did not advise the City to implement corrosion
control. Neither did the MDEQ. In fact, the MDEQ
informed the City that it was “satisfied with the
water treatment plant’s ability to treat water from
the Flint River.” And although the MDEQ noted that
the KWA was “a higher quality source [of] water”
than the Flint River, it never indicated that use of
the Flint River would place residents at risk of lead
contamination. Fast-forward to early 2015, when
Ambrose rejected two opportunities to reconnect to
the DWSD. At that time, the City had hired the
Veolia engineering firm to review its water quality

76a
and treatment procedures. After a 160-hour assessment, Veolia concluded that Flint’s water complied
with applicable laws and did not advise Flint to use
corrosion control.
The Emergency Managers’ reliance on expert
advice does not demonstrate a callous disregard for
or intent to injure plaintiffs. Earley and Ambrose
were budget specialists, not water treatment experts.
They did not oversee the day-to-day operations of the
water treatment plant, nor did they carry any
responsibility for ensuring its compliance with
federal or state laws. Accordingly, their reliance on
the industry and regulatory experts who were tasked
with preparing the water treatment and ensuring its
compliance with safe drinking water laws does not
demonstrate conscience-shocking behavior.
The majority, with the luxury of hindsight,
believes that whether Earley or Ambrose reasonably
relied on the opinions of the MDEQ or professional
engineering firms is better left for summary
judgment. But that belief suggests that the Due
Process Clause may obligate managers of a municipal budget or other government officials to reject the
advice of industry and regulatory experts based on
the risk that those experts are wrong. Such a
conclusion cuts against the “presumption that the
administration of government programs is based on
a rational decisionmaking process that takes account
of competing social, political, and economic forces.”
Collins, 503 U.S. at 128. Indeed, “[i]t is in the very
nature of deliberative bodies to choose between and
among competing policy options, and yet a substantive due process violation does not arise whenever
the government’s choice prompts a known risk to
come to pass.” Schroder, 412 F.3d at 729. Yet under

77a
the majority’s conscience-shocking analysis, a whole
host of policy decisions would now be subject to
constitutional review, in direct contravention of the
presumption of rational regulatory decisionmaking.
See, e.g., White v. Lemacks, 183 F.3d 1253, 1258
(11th Cir. 1999) (“[W]hen governmental action or
inaction reflects policy decisions about resource
allocation (as is often the case), those decisions are
better made ‘by locally elected representatives,
rather than by federal judges interpreting the basic
charter of Government for the entire country.’”
(quoting Collins, 503 U.S. at 129)).
Finally, the majority asserts that concluding that
Ambrose and Earley were relying on experts places
an inappropriately “benign construction on the
factual allegations.” Yet the majority cites no factual
allegations supporting any other conclusion. Instead,
it
accepts
plaintiffs’
various
“labels
and
conclusions”—for instance, that Ambrose and Earley
“knew” about risks to Flint residents—as sufficient
support for their claim. This cuts against the
Supreme Court’s directive that plaintiffs allege facts,
not conclusions, to state entitlement to relief. Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 555 (2007).
The bottom line is that plaintiffs do not allege that
any industry or regulatory expert informed Earley or
Ambrose that the City’s water treatment plant was
not equipped to treat Flint River water or that the
water was not being treated with corrosion control.
In fact, plaintiffs allege just the opposite.
Professional engineering firms and the MDEQ
repeatedly affirmed that Flint’s drinking water
complied with applicable law. Accordingly, the
Emergency Managers’ approval of the plant’s initial
and ongoing use of the Flint River as a water source
does not plausibly demonstrate callous disregard for

78a
or an intent to injure plaintiffs, let alone any effort to
“systematically contaminate” the Flint community.
2
MDEQ employees Liane Shekter-Smith, Stephen
Busch, Michael Prysby, and Bradley Wurfel. Next
consider the claims against the various MDEQ
employees. Plaintiffs contend that every MDEQ
employee misinterpreted the Lead and Copper Rule.
Under the MDEQ’s erroneous interpretation of the
Rule, the City could begin distributing Flint River
water to residents and then conduct two six-month
rounds of lead testing before treating the water with
corrosion control. Without immediate treatment, the
water accumulated lead as it flowed through the
City’s pipes. And over time, plaintiffs’ drinking water
became contaminated with allegedly unhealthy
levels of lead. Plaintiffs equate the MDEQ’s misinterpretation of the Lead and Copper Rule’s corrosioncontrol requirements with conscience-shocking
behavior that caused plaintiffs’ exposure to lead.
As gravely erroneous as the MDEQ’s interpretation of the Rule appears in hindsight, however, there
is no legal support for the conclusion that it
amounted to conscience-shocking conduct. On the
contrary, a mistake of law is the classic type of
conduct that qualified immunity protects from suit.
Pearson v. Callahan, 555 U.S. 223, 231 (2009) (“The
protection of qualified immunity applies regardless
of whether the government official’s error is ‘a
mistake of law, a mistake of fact, or a mistake based
on mixed questions of law and fact.’” (citation omitted)); Gavitt v. Born, 835 F.3d 623, 640–41 (6th Cir.
2016). That should end the case against these
defendants.

79a
The majority concludes, however, that the
MDEQ’s misinterpretation may have been intentional. According to the majority, plaintiffs’ allegations present the “bleak[]” possibility that the MDEQ
may have used Flint residents as “guinea pigs” to
test lead-compliance theories unsupported by the
law. None of plaintiffs’ factual allegations make that
inference a reasonable one. This is not a conspiracy
case. Plaintiffs do not assert that the MDEQ
employees maliciously agreed to a certain incorrect
interpretation of the Lead and Copper Rule to
exempt Flint from using corrosion control. And it is
implausible that each MDEQ employee individually
set out to advance the same incorrect interpretation
of the Rule just to save the City money. Indeed,
plaintiffs do not allege that any MDEQ employee
intentionally misled Flint about the Rule’s requirements. Instead, plaintiffs’ allege that the MDEQ
provided misguided advice rooted in mistaken
interpretations of law—the type of conduct that,
though it led to extremely unfortunate consequences
here, is classically entitled to protection from suit
under the doctrine of qualified immunity.
Still, the majority takes plaintiffs’ allegations a
step further, making the sweeping assertion that the
MDEQ employees “created” the Flint Water Crisis by
knowingly approving distribution of Flint River
water with the use of an ill-prepared water treatment plant and then deceiving the public about the
consequences of that decision. The allegations do not
support that theory, however.
First, plaintiffs do not allege facts showing that
Shekter-Smith, Busch, Prysby, or Wurfel personally
approved the City’s use of the Flint River and the
Flint water treatment plant. Rather, plaintiffs say

80a
that the decision was made by Kurtz, Flint’s 2013
Emergency Manager, with approval from the State’s
treasurer. Moreover, plaintiffs fail to allege that any
of these MDEQ employees knew that the Flint water
treatment plant was incapable of treating Flint River
water. To be sure, plaintiffs allege that “all Defendants” were aware of a 2011 “feasibility report”
rejecting the use of the Flint River at the time
because of costs associated with bringing the
treatment plant in compliance with “applicable
standards.” But plaintiffs provide no further context
surrounding the report’s creation and who knew
about its contents. On the other hand, plaintiffs
allege that, prior to the switch, Flint’s Utilities
Administrator told Prysby and Busch that the water
treatment plant had “developed a system of redundant electrical systems, treatment processes and
adequate finished water storage” after consulting
with the MDEQ and an engineering firm. And after
that, Busch informed Wurfel that the MDEQ was
“satisfied with the City’s ability to treat water from
the Flint River[.]” These allegations thus do not suggest that any MDEQ employee knew the treatment
plant was actually incapable of properly treating
Flint River water and approved its use anyway.
Nor do the majority’s “poignant examples” of a
handful of plaintiffs’ allegations show an attempt by
any MDEQ employee to knowingly mislead the public about Flint’s alleged noncompliance with drinking
water laws or to falsely assure residents of the
water’s safety.
Prysby. Take Prysby, an MDEQ engineer, first.
The majority latches on to a single email sent from
Prysby to a couple other MDEQ employees in October 2014. In it, Prysby opines that the fact that a

81a
General Motors engine-manufacturing plant stopped
using Flint River water because of its corrosive
nature did not mean that the water should be labeled
“‘corrosive’ from a public health standpoint.”
According to the majority, that statement shows that
Prysby was more interested in spinning the water’s
corrosive nature as unconnected to public health
instead of investigating problems with the water.
But a “[n]egligent failure to investigate . . . does not
violate due process.” Wilson v. Lawrence Cty., 260
F.3d 946, 955 (8th Cir. 2001) (citations omitted). And
no other allegation against Prysby demonstrates
anything more than a failure to act—plaintiffs’
remaining allegations name Prysby as merely a
recipient of various emails but they do not identify
any specific actions taken by him. Plaintiffs thus do
not plausibly allege that Prysby created the Flint
Water Crisis and then deceived the public about it.
Busch. Nor do the allegations support such a
finding when it comes to Busch. The complaint
references a number of Busch-authored emails, but
the majority references only two internal emails
exchanged between MDEQ employees and between
Busch and EPA employee Del Toral. The majority
concludes that Busch lied in the latter email, when
he informed Del Toral in February 2015 that Flint’s
water treatment plant “had an optimized corrosion
control program” in place, which demonstrates
conscience-shocking behavior. But the complaint
contains no factual allegations supporting the conclusion that Busch’s statement was a lie. Flint did have
a corrosion control “program” in place—a program
that permitted a two-round testing period after the
plant became operational and before plant administrators chose a particular method of corrosion control
treatment. The MDEQ believed the Lead and Copper

82a
Rule allowed for that type of program. Even though
the MDEQ was wrong, that error does not support
the allegation that Busch lied to the EPA about the
existence of a corrosion control program. Moreover,
plaintiffs do not allege that Busch personally knew
that Flint was distributing water without corrosion
control treatment until April 2015. So even if Busch
meant “treatment” when he said “program” in the
February email, the factual allegations do not support the conclusion that he knew the statement was
false. In sum, neither that statement nor the various
other internal emails in which Busch expressed
support for the MDEQ’s interpretation of the Lead
and Copper Rule or his belief that the water treatment plant was capable of treating Flint River water
plausibly demonstrate that Busch created the Flint
Water Crisis and then attempted to deceive the
public.
Shekter-Smith. The allegations likewise fail to
demonstrate that Shekter-Smith acted in a
conscience-shocking manner. The majority focuses on
two of Shekter-Smith’s emails.
In the first, Shekter-Smith requested that an
EPA official indicate his agreement “that the city
[was] in compliance with the lead and copper rule.”
That, she explained, would help the MDEQ “distinguish between [its] goals to address important public
health issues separately from the compliance
requirements of the actual rule[.]” The majority’s
take on that email is that Shekter-Smith cared more
about “technical compliance” with the Lead and
Copper [sic] than addressing an urgent health crisis.
Whatever weight Shekter-Smith actually assigned
each of those concerns, all that her email exhibits is

83a
an attempt to address them separately. This is
hardly conscience-shocking conduct.
In the second email, Shekter-Smith responded to
a question from Jon Allan, Director of the Michigan
Office of the Great Lakes, about the MDEQ’s statewide goals related to health-based standards. Under
those goals, “98 percent of population [sic] served by
community water systems” and “90 percent of the
non-community water systems” would be providing
“drinking water that meets all health-based standards” by 2020. Allan asked why MDEQ had any
goal less than “100 percent,” saying, “How many
Flints Do you intend to allow???” Shekter-Smith
replied:
The balance here is between what is realistic
and what is ideal. Of course, everyone wants
100 percent compliance. The reality, however
is that it’s impossible. It’s not that we ‘allow’
a Flint to occur; circumstances happen.
Water mains break, systems lose pressure,
bacteria gets into the system, regulations
change and systems that were in compliance
no longer are, etc. Do we want to put goal
[sic] in black and white that cannot be met
but sounds good? Or do we want to establish
a goal that challenges us but can actually be
accomplished? Perhaps there’s a middle
ground?
This second email likewise shows nothing more
than Shekter-Smith’s concern with meeting agency
goals—in this instance, goals related to the statewide
administration of safe drinking water. The propriety
of certain agency goals, however, falls outside the
purview of the Due Process Clause. Indeed, we
presume that agency goal-setting consistent with its

84a
regulatory duties takes into account “competing
social, political, and economic forces” of which judges
do not have full view. Collins, 503 U.S. at 128. In
this instance, Shekter-Smith was apparently seeking
to establish a goal that could “actually be accomplished.” That concern is not conscience-shocking,
regardless of how it sounds in view of what happened
in Flint. These two emails, in short, do not demonstrate that Shekter-Smith created the Flint Water
Crisis and subsequently attempted to deceive the
public.
Wurfel. Of all the MDEQ employees, the
majority’s intentional-public-deception theory really
implicates only one individual: Wurfel, the Department’s Director of Communications. He is the only
MDEQ employee alleged to have made public statements about Flint’s drinking water. The majority
characterizes Wurfel’s statements as attempts to
demean, belittle, and aggressively dampen challenges to the government’s assertion that Flint’s
drinking water was safe. But however his statements
may be characterized, they were not conscienceshocking.
His first statement came in July 2015, after a
reporter broke a story claiming that there was lead
in Flint’s drinking water. Wurfel publicly responded
by saying that “anyone who is concerned about lead
in the drinking water in Flint can relax.” Then, in
September 2015, after two doctors released separate
reports about studies showing unsafe levels of lead in
Flint residents’ water, Wurfel placed the blame for
the lead on the service lines in residents’ homes even
though there was, according to plaintiffs, evidence
that at least some residents’ service lines were plastic. Wurfel later called the doctors’ testing results

85a
“perplex[ing],” explaining that they did not match
the City’s testing results, which he asserted were
“done according to state and federal sampling guidelines and analyzed by certified labs.” On two other
occasions in September, Wurfel asserted the doctors’
studies were inaccurate.
Though plaintiffs assert Wurfel’s statements
were knowing lies, their factual allegations do not
support that conclusion. See Twombly, 550 U.S. at
555. As plaintiffs’ complaint alleges, Wurfel made his
public statements after other MDEQ employees
represented both that Flint’s water treatment plant
was prepared to treat Flint River water and that
Flint’s water testing results showed Flint was in
compliance with the requirements of the Lead and
Copper Rule. The allegations do not show that
Wurfel was given contrary information by any City
or State official. Accordingly, plaintiffs do not demonstrate that Wurfel intentionally attempted to deceive
the public about the safety of Flint’s drinking water
or the City’s compliance with drinking water laws. At
most, they show a mistake of law or fact, made at
least in partial reliance on the representations of
other State employees. It is certainly unfortunate
that Wurfel announced those mistaken beliefs to the
public. But that he did so does not strip him of the
protection of qualified immunity. Pearson, 555 U.S.
at 231. Wurfel’s handful of statements in July and
September do not evince a knowing and intentional
attempt to deceive the public about known deficiencies in Flint’s water treatment procedures or any
conduct designed to intentionally contaminate the
public.
The allegations against the MDEQ employees, in
sum, do not plausibly demonstrate a callous

86a
disregard for or intent to injure plaintiffs, let alone
any effort to “systematically contaminate” the Flint
community. What they show instead is a series of
internal emails and a handful of public statements
regarding the requirements of the Lead and Copper
Rule and the water’s safety. Even if the MDEQ
employees made mistakes in interpreting the Rule,
those mistakes are not conscience-shocking.3
3
Flint Director of Department of Public Works,
Howard Croft. Next, I turn to the allegations against
Croft, which come nowhere near the high conscienceshocking standard. Plaintiffs assert that Croft
“caused and allowed unsafe water to be delivered to
Flint’s residents,” but they fail to allege that Croft
was actually involved in the City’s decision to use to
the Flint River as a water source or that he played
any part in determining whether and when the
treatment plant would use corrosion control. The
3 Rather than viewing plaintiffs’ allegations in a light most
favorable to defendants, all this conclusion does is hold
plaintiffs to their burden of presenting factual allegations that
provide a plausible basis for their claim. Twombly, 550 U.S. at
555. Plaintiffs do not provide any factual allegations supporting
the conclusion that the MDEQ’s interpretations were more than
mistakes. According to the majority, plaintiffs allege that
Shekter-Smith, Busch, and Prysby knew Flint was not in
compliance with applicable law because EPA employee Del
Toral made that clear in a memorandum that these defendants
“ignored and dismissed.” But while that memorandum allegedly
expressed “concern[]” with Flint’s lack of corrosion control and
water testing methods, it did not conclude that Flint was in
violation of the Lead and Copper Rule. Plaintiffs do not allege
that Del Toral or any other EPA official informed the MDEQ
that Flint was flouting federal drinking water requirements.

87a
majority finds that single, conclusory allegation
sufficient to make the plausible inference that Croft
played an affirmative role in approving the transition to the Flint River. What makes that conclusion
especially confounding is the majority’s simultaneous
rejection of allegations against other defendants that
are just as conclusory as this one. For example, the
majority finds that plaintiffs’ allegation that
MDHHS executive Nick Lyon “participated in,
directed, and/or oversaw the department’s efforts to
hide information to save face, and to obstruct and
discredit the efforts of outside researchers” as the
kind of “bare” and “chimerical” assertions Iqbal
mandates be set aside. But the allegation that Croft
“caused and allowed unsafe water to be delivered to
Flint’s residents” is not any more detailed than the
“chimerical” assertion against Lyon. There are only
two other allegations against Croft. The first is that,
at an unidentified point in time, he said in a press
release that the City’s water was “of the high quality
that Flint customers have come to expect.” The
second is that in September 2015, he emailed
“numerous officials” to inform them that the MDEQ
had confirmed Flint’s compliance with “EPA standards.” These allegations do not demonstrate that
Croft engaged in any behavior that may fairly be
construed as conscience-shocking.
4
MDHHS executives Nick Lyon and Eden Wells;
MDHHS employees Nancy Peeler and Robert Scott;
and MDEQ Director Daniel Wyant. Finally, a brief
word about the MDHHS executives, the MDHHS
employees, and MDEQ Director Wyant, all of whom
the majority correctly dismisses from this case. I
agree with the majority that most of the allegations

88a
against the MDHHS executives and employees have
to do with negligence (i.e., failing to timely notify the
public of the possibility of increased lead in the
water) rather than any affirmative action involving
them in the decision to use the Flint River as a water
source without simultaneously implementing corrosion control treatment. I agree as well that once
those allegations are discarded, plaintiffs’ remaining
allegations—going to these defendants’ attempts to
“discredit” studies from outside sources—are too
sparse to demonstrate conduct rising to the level of
conscience-shocking.
And as to MDEQ Director Wyant, I concur with
the majority’s conclusion that none of plaintiffs’ allegations show that he was personally involved with
the decision to use the Flint River as a water source
or otherwise engaged in any conscience-shocking
behavior.
Accordingly, I join the majority in concluding
that plaintiffs’ allegations against these defendants
engaged in conscience-shocking behavior or otherwise infringed on plaintiffs’ due process rights.
For all of these reasons, I do not believe plaintiffs’ allegations suggest that any individual defendant’s actions or failures to act shock the conscience.
This presents a significant roadblock that seems to
prevent plaintiffs from establishing a violation of
substantive due process and thus proceeding past the
first prong of the qualified-immunity analysis.
B
The second roadblock to plaintiffs’ substantivedue-process claim—which also suggests they cannot
proceed past qualified immunity’s first prong—is
that their claim does not appear to arise from the

89a
deprivation of a recognized fundamental right to
bodily integrity. As should be clear by now, the right
reconstructed by the majority is entirely distinct
from the one asserted in plaintiffs’ complaint and is
thus, unsurprisingly, devoid of support from plaintiffs’ factual allegations.
So what is the bodily integrity right plaintiffs
allege? According to the complaint, defendants’
alleged conduct amounted to a failure to protect from
exposure to lead-contaminated water. But although
plaintiffs frame the claim that way in their complaint, they insist their claim does not flow from a
right to receive clean water. Plaintiffs are right to
avoid advancing that theory because the Due Process
Clause guarantees neither a right to live in a
contaminant-free environment, Collins, 503 U.S. at
125–26, nor a fundamental right to water service. In
re City of Detroit, 841 F.3d 684, 700 (6th Cir. 2016)
(quoting Golden v. City of Columbus, 404 F.3d 950,
960 (6th Cir. 2005)). Still, it is hard to understand
plaintiffs’ claim independent from the right to
receive clean water. If the Constitution does not
guarantee the right to receive clean water on the one
hand, how may it guarantee the right not to be
exposed to contaminated water on the other?
The majority avoids grappling with that issue by
turning, inappropriately, to abstract concepts of personal autonomy and informed consent that it divines
from several inapposite cases. In so doing, the
majority’s analysis runs contrary to the “restrained
methodology” outlined by the Supreme Court in
Washington v. Glucksberg, 521 U.S. 702, 721 (1997).
To apply that methodology, we look to “concrete
examples involving fundamental rights found to be
deeply rooted in our legal tradition.” Id. at 722.

90a
Those examples reveal the “outlines of the ‘liberty’
[interests] specially protected by the Fourteenth
Amendment[.]” Id. Because the Due Process Clause’s
substantive component protects only those rights
that are an integral part of our “Nation’s history and
tradition,” courts “have always been reluctant to
expand” the Clause’s coverage into new territory. Id.
at 720–21. Looking to concrete examples regarding
what those historic rights are “tends to rein in the
subjective elements that are necessarily present in
due-process judicial review.” Id. at 720, 722.
In Glucksberg, the Court showed us how to use
that “restrained methodology.” There, the Supreme
Court dismissed a claim by state physicians that the
Due Process Clause guaranteed a right to physicianassisted suicide. Id. at 721–24. The physicians
argued that recognizing such a right would be consistent with the “self-sovereignty” principles underlying
a person’s interest in choosing between life and
death, which were articulated in Cruzan v. Missouri
Department of Health, 497 U.S. 261 (1990). Id. at
723–24. In rejecting that argument, the Glucksberg
Court clarified that Cruzan assumed, though did not
definitively decide, that a competent person had a
right to refuse unwanted lifesaving medical treatment. Id. at 720. That assumption, however, “was
not simply deduced from abstract concepts of personal autonomy.” Id. at 725. It instead arose from
the “common-law rule that forced medication was a
battery, and the long legal tradition protecting the
decision to refuse unwanted medical treatment[.]” Id.
The specific right to physician-assisted suicide found
no support in the examples outlined in the Court’s
jurisprudence or in our Nation’s history or traditions
and was therefore not protected by substantive due
process. Id. at 723–24.

91a
Likewise, no concrete examples arising from the
established bodily integrity jurisprudence or from
our Nation’s history or traditions support the right
asserted here—protection from policy or regulatory
decisions or public statements that, somewhere down
the line, result in exposure to contaminated water.
We have previously interpreted the bodily integrity right as “the right against forcible physical
intrusions of the body by the government.” Planned
Parenthood Sw. Ohio Region v. DeWine, 696 F.3d
490, 506 (6th Cir. 2012) (citations omitted). The right
is outlined most explicitly in Rochin v. California,
342 U.S. 165 (1952). There, the Court held that the
Due Process Clause prohibits a state from securing
evidence in support of a conviction by using a vomitinducing solution to forcibly extract the evidence
from a suspect’s stomach. Id. at 172–74. That intrusion on an individual’s body, the Court explained,
was “too close to the rack and the screw” to be constitutionally permissible. Id. at 172. Since then, the
Court has concluded that similar types of physically
intrusive law enforcement searches implicate the
right to bodily integrity. Those include a “compelled
physical intrusion beneath [a suspect’s] skin and into
[the] veins to obtain a” blood sample, Missouri v.
McNeely, 569 U.S. 141, 148 (2013), and a nonconsensual surgery to retrieve a bullet from a suspect’s
chest. Winston v. Lee, 470 U.S. 753, 767 (1985). In
this Circuit, we have concluded that obtaining
evidence by “anally prob[ing]” an individual “without
his consent” when he was “naked and handcuffed, . . .
paralyzed, [and] intubated” was such a grave bodily
integrity violation that it rendered the Fourth
Amendment search unreasonable. United States v.
Booker, 728 F.3d 535, 537, 547 (6th Cir. 2013)
(citation omitted).

92a
In the medical context, too, the Court has
underscored the right’s guarantee against direct,
physical intrusions into an individual’s body at the
hands of a government official. In Washington v.
Harper, for instance, the Court emphasized the
significance of an inmate’s “liberty interest in avoiding the unwanted administration of antipsychotic
drugs.” 494 U.S. 210, 221, 223 (1990). Riggins v.
Nevada, 504 U.S. 127, 135 (1992) affirmed the
magnitude of that liberty interest—avoiding the
unwanted administration of drugs—for pretrial
detainees as well. Later, in Cruzan, the Court
explained that the general principles underlying
Harper and Riggins suggested that “a competent
person [has] a constitutionally protected right to
refuse lifesaving hydration and nutrition.” 497 U.S.
at 280; Glucksberg, 521 U.S. at 720 (explaining that
Cruzan “assumed, and strongly suggested, that the
Due Process Clause protects” such a right without
expressly concluding that it did (citing Cruzan, 497
U.S. at 278–79)). In the same vein, cases from the
Supreme Court and our Circuit suggest that the
right to bodily integrity is implicated by government
interference with a woman’s right to obtain an
abortion. See id. at 726–27; Planned Parenthood Sw.
Ohio Region, 696 F.3d at 507.
These cases delineate the contours of the right to
bodily integrity in terms of intrusive searches or
forced medication. None of them is compatible with
the “careful description” of the right at issue here:
protection from exposure to lead-contaminated water
allegedly caused by policy or regulatory decisions or

93a
statements.4 Even the few district court or sister
circuit cases cited by the majority do not clarify the
contours of plaintiffs’ alleged right. All except one of
those cases deal with medical professionals performing government-sponsored invasive procedures or
harmful experiments on unsuspecting patients.5 The
4 Even In re Cincinnati Radiation Litigation, 874 F. Supp. 796
(S.D. Ohio 1995), the one district court case the majority finds
“especially analogous,” fails to close the gap. There, the court
concluded that government officials violated medical patients’
right to bodily integrity by devising a program that subjected
unwitting cancer patients to high doses of radiation under the
guise of performing cancer treatment. Id. at 803–04. But
whether the Due Process Clause protects hospital patients from
being intentionally subjected to harmful medical treatment
without their consent is not the determinative issue here. What
we should care about is whether and when it protects an
indeterminate number of public citizens from certain regulatory
decisions or statements that have some impact on the quality of
public drinking water or any other environmental resource.
5 Barrett v. United States, 798 F.2d 565 (2d Cir. 1986) (state
psychiatric hospital administered injections of a synthetic
mescaline compound furnished by the Unites States as part of
an experimental program that tested the suitability of the substance as a chemical warfare agent); Lojuk v. Quandt, 706 F.2d
1456 (7th Cir. 1983) (Veterans Affairs psychiatrist subjected
patient to electroconvulsive therapy without the patient’s
consent); Rogers v. Okin, 634 F.2d 650 (1st Cir. 1980), overruled
on other grounds sub nom, Miss v. Rogers, 457 U.S. 291 (1982)
(state administered antipsychotic drugs to both voluntary and
involuntary patients at state mental health facilities); Heinrich
v. Sweet, 62 F. Supp. 2d 282 (D. Mass. 1999) (U.S. Government
conspired with health institutions to conduct “extensive,
unproven and dangerous medical experiments on over 140
terminally ill patients, without their knowledge or consent”);
Stadt v. Univ. of Rochester, 921 F. Supp. 1023 (W.D.N.Y. 1996)
(government physicians injected patient with plutonium without her knowledge or consent); In re Cincinnati Radiation
[Footnote continued on next page]

94a
last one deals with police officers who coerced individuals to ingest marijuana while those individuals
were under the officer’s control.6 So those cases
further elaborate the ways in which medical or law
enforcement personnel may interfere with an individual’s right to bodily integrity. But they say
nothing about how non-custodial policy or regulatory
decisions or statements affecting the quality of an
environmental resource may do so. In short, neither
our Nation’s history and traditions nor governing
bodily integrity jurisprudence suggests that the
conduct alleged here is comparable to a “forcible
physical intrusion[] of the body by the government.”
Planned Parenthood Sw. Ohio Region, 696 F.3d at
506. “The mere novelty of such a claim is reason
enough to doubt that ‘substantive due process’
sustains it.” Reno v. Flores, 507 U.S. 292, 303 (1993).
In sum, because the conduct alleged does not
appear to rise to the level of conscience-shocking, and
because I believe it does not demonstrate the
deprivation of a recognized fundamental right, I have
serious doubts about whether plaintiffs state a
substantive due process claim sufficient to carry

[Footnote continued from previous page]
Litigation, 874 F. Supp. 796 (S.D. Ohio 1995) (government and
university physicians subjected cancer patients to radiation
experiments without their knowledge under the guise that they
were receiving cancer treatment); Davis v. Hubbard, 506 F.
Supp. 915 (N.D. Ohio 1980) (inadequate medical treatment).
6 Bounds v. Hanneman, 2014 WL 1303715 (D. Minn. Mar. 31,
2014) (officers forced plaintiffs to ingest a substantial amount of
marijuana, against their will, in order to observe how they
would react).

95a
them past prong one of the qualified-immunity
analysis.
III
The second prong of the qualified-immunity
analysis looks to whether the alleged constitutional
right was “clearly established” at the time the
government official acted. al-Kidd, 563 U.S. at 735.
This presents the most fundamental problem for
plaintiffs’ case. To the extent plaintiffs do successfully allege the violation of a constitutional right,
the novelty of that right just shows that it was not
clearly established at the time the alleged events
unfolded. Therefore, the doctrine of qualified immunity shields every defendant from suit.
For a right to be clearly established, its contours
must be “sufficiently clear that every reasonable
official would have understood that what he is doing
violates that right[.]” Mullenix v. Luna, 136 S. Ct.
305, 308 (2015) (emphasis added) (quoting Reichle v.
Howards, 566 U.S. 658, 664 (2012)). Because “[t]he
dispositive question is whether the violative nature
of particular conduct is clearly established,” we look
to how existing precedent applies to each defendant’s
actions in the “specific context of the case” before us.
Id. at 308 (internal quotation marks and citation
omitted). Plaintiffs must be able to “identify a case
with a similar fact pattern” to this one “that would
have given ‘fair and clear warning to officers’ about
what the law requires.” Arrington-Bey v. City of
Bedford Heights, 858 F.3d 988, 993 (6th Cir. 2017)
(quoting White v. Pauly, 137 S. Ct. 548, 552 (2017)).
Identifying a factually similar case is especially
important in the realm of substantive due process,
where the inherent ambiguity of what the law
protects is best discerned through “carefully refined

96a
. . . concrete examples[.]” Glucksberg, 521 U.S. at
722.
Here, that means plaintiffs must be able to point
to controlling cases extending substantive due
process protections to the following individuals:


A high-level government executive who
makes a decision (or proceeds with a project) while relying on expert opinions that
the decision or project is lawful and safe
(Earley and Ambrose).



A regulator who misinterprets environmental laws and provides bad advice to
government
policymakers
(MDEQ
employees).



A city or state regulator who, based on
the erroneous advice of other regulators,
publicly announces that a governmentprovided resource is safe for consumption
when it is not (Wurfel, Croft, or others
who made public statements).

As the majority acknowledges, plaintiffs point to no
factually similar controlling case in which a court
found that such conduct violated a constitutional
right to bodily integrity. “This alone should have
been an important indication to the majority that
[the defendants’] conduct did not violate [plaintiffs’]
‘clearly established’ right.” White, 137 S. Ct. at 552.
In fact, in case after case around the country,
courts have consistently rejected substantive-dueprocess claims based on the type of conduct alleged
here. Branch v. Christie is one such case. 2018 WL
337751 (D.N.J. Jan. 8, 2018). Branch dealt with a
bodily integrity claim brought by parents of New
Jersey public school children against several state

97a
officials for “knowingly expos[ing] the children . . . to
water that was contaminated with unsafe levels of
lead,” and “concoct[ing] a scheme to cover up the
health hazard.” Id. at *1. The parents said that state
employees caused the lead contamination by
“cancel[ling] work orders to change outdated and
lead-saturated filters,” and “allowing several filters
to be used for upwards of five years.” Id. (internal
quotation marks and citation omitted). Once the
public became aware of the unsafe lead levels in the
school’s drinking fountains, state employees “undertook a course of providing misinformation to parents,
telling the community that the water was safe.” Id.
(internal quotation marks and alterations omitted).
The Branch court dismissed the parents’ claims,
finding “no authority” supporting their bodily integrity theory. Id. at *8. As the court explained, “[t]he
liberty interest in bodily integrity guarantees the
‘right generally to resist enforced medication,’ the
right to be ‘free from medical invasion,’ and the right
to an abortion,” but “not to guarantee . . . a right to
minimum levels of safety” or protection from
contaminated water. Id. at *7 (citations omitted).
Here, as in Branch, government officials allegedly exposed others to water contaminated with lead.
And here, as in Branch, certain government officials
allegedly attempted to hide the lead contamination.
The Branch court could find no authority indicating
that such conduct violated a substantive due process
right—not even the Supreme Court’s bodily integrity
cases were close to on point. That court’s conclusion
shows how unclear it would have been for the
regulators and policymakers in this case to have
anticipated that their actions might have violated an
established bodily integrity right.

98a
Coshow v. City of Escondido, a state court case,
also sheds light on the novelty of plaintiffs’ asserted
right. 132 Cal. App. 4th 687 (Cal. Ct. App. 2005).
There, the California Court of Appeals rejected
residents’ bodily integrity claims against the City of
Escondido and California’s Department of Health
Services over their decision to add fluoride to public
drinking water. Id. at 698. The residents asserted
that adding fluoride to the water exposed the public
to unnecessary health risks. Id. But the court held
that, just as the Constitution did not guarantee any
“right to a healthful or contaminate-free environment,” it likewise did not guarantee a right to receive
fluoride-free drinking water from the City. Id. at
709–10. This was so even though the fluoride might
have contained “trace levels of lead and arsenic[.]”
Id. at 700. The court reasoned that the residents’
claim came down to an asserted right to receive
“public drinking water of a certain quality.” Id. at
708–09. And it held that the “mere novelty” of that
claim indicated it was not “so rooted in the traditions
and conscience of our people as to be ranked as
fundamental.” Id. (quoting United States v. Salerno,
481 U.S. 739, 751 (1987)). Accordingly, the court held
that the right to fluoride-free drinking water was not
protected by substantive due process. Id.
Just as in Coshow, the novelty of plaintiffs’ claim
here shows that it is not clearly established. The
majority attempts to draw a disingenuous distinction
between this case and Coshow. It reasons that, in
Coshow, adding fluoride to drinking water served the
beneficial purpose of preventing tooth decay while, in
this case, adding lead to water served no countervailing governmental interest. I certainly do not quibble
with the premise that adding lead to water furthers
no discernable beneficial purpose. But that is not

99a
what happened here. No government official made a
conscious decision to introduce lead into Flint’s
water. Instead, the Emergency Managers made a
conscious and legitimate policy decision to switch to
the Flint River as a water source to cut costs—and
they did so in reliance on guidance from engineering
firms and the MDEQ. That hardly demonstrates that
the decision to switch to the Flint River was made
with no countervailing governmental interest in
mind. The government officials’ resource-allocation
decisions during a budgetary crisis did not constitute
obvious violations of the right to bodily integrity
because of the grave health consequences they
allegedly caused in hindsight.
Moreover, that some governmental officials made
public statements about the safety of Flint’s water
does not make the unlawfulness of any defendant’s
conduct any more obvious. As the Second Circuit put
it, “no court has ever held a government official
liable for denying substantive due process by issuing
press releases or making public statements”—
regardless of whether the public statements were
true or false. Benzman v. Whitman, 523 F.3d 119,
125, 127 (2d Cir. 2008) (rejecting residents’ substantive due process claims against EPA officials for
making “substantially exaggerated” statements regarding air quality after the September 11 terrorist
attacks). Benzman invoked the principles underlying
a similar post-September-11 case, Lombardi v.
Whitman, 485 F.3d 73 (2d Cir. 2007). In Lombardi,
workers who performed search, rescue, and clean-up
services at the World Trade Center site in the
aftermath of the terrorist attacks alleged that the
EPA violated their right to bodily integrity by falsely
assuring them that it would be safe to work without
respiratory protection. Id. at 74. Relying on those

100a
assurances, several workers went without that
protection and later suffered adverse health effects.
Id. at 75. Without definitively deciding whether the
alleged false assurances interfered with the workers’
fundamental right to bodily integrity, the court found
that they were nevertheless not conscience-shocking.
Id. at 82–83. In so deciding, the court expressed
concern with imposing broad constitutional liability
on EPA officials for making false statements in the
course of fulfilling the agency’s mission. The court
reasoned that “the risk of such liability will tend to
inhibit EPA officials in making difficult decisions
about how to disseminate information to the public
in an environmental emergency.” Id. at 84. Accordingly, absent any allegation of an intent to harm, the
court declined to extend substantive due process to
cover what was “in essence a mass tort for making
inaccurate statements.” Benzman, 523 F.3d at 127–
28.
This case implicates similar, albeit not identical,
concerns to those invoked in Lombardi and
Benzman. As the majority points out, there is no
allegation that any defendant here intended to harm
a Flint resident. And like the EPA regulators in
Lombardi and Benzman, Wurfel made public
statements pursuant to his official role as MDEQ’s
Director of Communications. To be sure, those
statements countered evidence about Flint water’s
lead levels presented in two separate outside studies.
But they were also consistent with information provided to Wurfel by officials from his own department.
That information was, in retrospect, misguided.
Plaintiffs do not assert, however, that Wurfel made
any knowingly false statements for the purpose of
causing harm. The same goes for Croft. When he
issued a press release asserting that Flint’s water

101a
was of a “high quality,” at least one engineering firm
and the MDEQ had concluded that the water treatment plant was capable of adequately treating Flint’s
water. In other words, the allegations do not show
that Croft made a knowingly false public statement
for the purpose of causing harm. Given the absence
of any such allegation, and because no court has ever
concluded that the Due Process Clause covers the
public statements of government officials, it can
hardly have been apparent to Wurfel or Croft that
their statements clearly violated plaintiffs’ due
process right to bodily integrity.
Due to the lack of controlling precedent and the
many cases suggesting substantive due process does
not protect plaintiffs’ asserted right, the majority
again falls back on its exaggerated characterization
of defendant’s actions and statements, likening them
to the “systematic” poisoning of an entire community.
Advancing that narrative, the majority concludes
that this case is one of the “easy” ones that should
never have arisen in the first place. See United
States v. Lanier, 520 U.S. 259, 271 (1997). “Of course,
in an obvious case, [general] standards,” (or reasoning) “can ‘clearly establish’ the answer, even without
a body of relevant case law.” Brosseau v. Haugen,
543 U.S. 194, 199 (2004) (citation omitted). But this
is not one of those cases. As already demonstrated,
the majority’s systematic poisoning narrative has no
basis in plaintiffs’ factual allegations.7 This is not a
7 What is more, the majority’s exaggerated narrative runs
contrary to what is publicly known in the aftermath of the Flint
Water Crisis. For instance, plaintiffs point out that the state
has brought criminal charges against various defendants and
ask us to take judicial notice of those charges as providing
[Footnote continued on next page]

102a
case about a government official knowingly and
intentionally introducing a known contaminant into
another’s body without that person’s consent. It is a
case about a series of erroneous and unfortunate
policy and regulatory decisions and statements that,
taken together, allegedly caused plaintiffs to be
exposed to contaminated water.
The proper framing of the factual narrative
exposes how far off base are the bodily integrity
cases relied upon by the majority. How could those
cases have provided any practical guidance to
government officials like Earley, Ambrose, Croft, or
the MDEQ employees? For instance, how should
Rochin’s prohibition against induced vomiting to
[Footnote continued from previous page]
context for their bodily integrity claim. Of course, I agree with
the majority that it is inappropriate to consider those charges
for the purpose of deciding plaintiffs’ constitutional claim. But I
note that even if it were appropriate to consider them, the
charges would not support plaintiffs’ assertion that defendants’
conduct is so obviously unlawful that qualified immunity does
not shield them from plaintiffs § 1983 suit. In fact, they prove
just the opposite. If the defendants’ actions are obviously
unlawful, then one would expect relatively speedy probablecause determinations. Reality suggests otherwise. Consider
this: the state issued its complaint against Lyon on June 14,
2017, but the court did not find probable cause to bind him over
for trial until August 24, 2018. In the meantime, the trial judge
spent around 11 months on preliminary examinations just to
find probable cause existed. Other defendants, such as MDEQ
Employee Shekter-Smith and MDHHS Executive Peeler, have
not even been bound over yet, despite the state filing complaints against them as early as July 2016. These cases have
languished unusually long in probable cause proceedings. That
alone suggests that the egregiousness of defendants’ actions is
not so apparent as the majority makes it out to be.

103a
obtain evidence have informed Earley’s oversight of
the switch from the DWSD to the Flint River and
what professional opinions he was entitled to rely
upon when the City made the switch? And how
should it have informed Ambrose’s decision to continue using the Flint River as a water source and
what professional opinions he was entitled to rely
upon in doing so? What about the MDEQ employees?
How should Riggins’s limits on the state’s ability to
administer antipsychotic drugs to pretrial detainees
have changed what kind of advice the MDEQ employees gave the City about federal corrosion-control
requirements? Or what about the fact that Cruzan
allows a state to demand clear and convincing evidence that an incompetent patient no longer desires
life support before cutting it off? How should that
have influenced the content of Wurfel’s (or any other
defendant’s) public statements about the water’s
quality? The answer to these questions is—clearly—
not established.
And although the right plaintiffs allege is not
established, various courts have certainly considered
it—and rejected it. See Branch, 2018 WL 337751;
Coshow, 132 Cal. App. 4th 687; Benzman, 523 F.3d
119; Lombardi, 485 F.3d 73.8 But ignoring those
8 The number of cases rejecting similar environmentally based
claims is significant. See Kaucher v. Cty. of Bucks, 455 F.3d 418,
420, 428–30 (3d Cir. 2006) (rejecting a substantive-due-process
claim by corrections officials who contracted a disease allegedly
due to the jail’s unsanitary conditions and provision of false and
misleading information about the extent of the sanitary
problem); Walker v. City of E. Chicago, No. 2:16-cv-367, 2017
WL 4340259, at *6 (N.D. Ind. Sept. 29, 2017) (rejecting a
substantive-due-process claim that the government allowed a
housing authority to “build and operate public housing in an
[Footnote continued on next page]

104a
cases, the majority turns, curiously, to a few federal
and state cases arising from the Flint Water Crisis
itself. The majority begins its opinion with the
proclamation that it joins a few decisions concluding
that some of these same defendants, and some
others, violated various Flint residents’ substantive
due process rights. Those cases offer weak support
for the majority’s position. Oddly, one of the
decisions it cites is the very case before us on appeal,
Guertin v. Michigan, 2017 WL 2418007 (E.D. Mich.
June 4, 2017). The second is authored by the same
judge as authored Guertin, and its bodily integrity
analysis block-quotes more than 2,000 words from
the Guertin analysis. In re Flint Water Cases, 329 F.
Supp. 3d 369, 397–400 (E.D. Mich. 2018), vacated on
other grounds (Nov. 9, 2018). And that case appears
to follow the same analytical errors as the state case
to come before it—that is, just like the state case, it
makes several logical leaps to conclude that policy
[Footnote continued from previous page]
area with contaminated soil, thus increasing their risk of
injury”); In re Camp Lejeune N. Carolina Water Contamination
Litig., 263 F. Supp. 3d 1318, 1325, 1359 (N.D. Ga. 2016)
(rejecting a substantive-due-process claim by service members
against government officials at the Marine base where they
lived based on the officials’ failure to monitor water quality and
notify service members of the presence of toxic substances in
the water); Naperville Smart Meter Awareness v. City of
Naperville, 69 F. Supp. 3d 830, 839 (N.D. Ill. 2014) (rejecting a
substantive-due-process claim by residents of a city asserting
that radio frequency waves emitted by “smart meters” that the
city installed in their homes posed health risks); J.S. ex rel.
Simpson v. Thorsen, 766 F. Supp. 2d 695, 712 (E.D. Va. 2011)
(rejecting a substantive-due-process claim brought by an elementary student that school officials knowingly concealed the
school’s mold problems to the detriment of the student’s health).

105a
and regulatory decisions and statements are on par
with an intentional introduction of a contaminant
into another’s body. Mays v. Snyder, 916 N.W.2d 227
(Mich. Ct. App. 2018); Mays v. Snyder, No. 16000017-MM (Mich. Ct. Cl. Oct. 26, 2016). These few
cases and their redundant analyses provide a weak
foundation on which to build a new bodily integrity
jurisprudence.
In sum, the majority’s opinion is a broad expansion of substantive due process, which contradicts
the traditional understanding that due process does
not “supplant traditional tort law” or impose a duty
on the government to ensure environmental safety.
Collins, 503 U.S. at 126 (citation omitted). What is
more, it effectively “convert[s] the rule of qualified
immunity . . . into a rule of virtually unqualified
liability” for government officials making policy or
regulatory decisions or statements that have any effect on a publicly consumed environmental resource.
White, 137 S. Ct. at 552 (ellipses in original) (citation
omitted). That turns qualified immunity on its head.
IV
The majority’s conclusion that the defendants
violated plaintiffs’ clearly established right to bodily
integrity has some facial appeal, of course, because
we sympathize with the Flint residents’ plight. It is
wrong, however, on both the facts and the law. For
all of the above reasons, I join the majority in its
denial of sovereign immunity to the City of Flint and
in dismissing various defendants from the case. But I
dissent from its denial of qualified immunity to
Earley, Ambrose, Croft, Shekter-Smith, Busch,
Prysby, and Wurfel.

106a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Shari Guertin, Shari Guertin as
next friend of her child, E.B., a
minor, and Diogenes MuseCleveland,
Plaintiffs,
v.

Case No. 16-cv12412
Judith E. Levy
United States
District Judge

Mag. Judge
State of Michigan, Richard
Snyder, Michigan Department of Mona K.
Majzoub
Environmental Quality,
Michigan Department of Health
and Human Services, City of
Flint, Howard Croft, Michael
Glasgow, Darnell Earley, Gerald
Ambrose, Liane ScheckterSmith, Daniel Wyant, Stephen
Busch, Patrick Cook, Michael
Prysby, Bradley Wurfel, Eden
Wells, Nick Lyon, Nancy Peeler,
Robert Scott, Veolia North
America, LLC, and Lockwood,
Andrews & Newman, Inc.,
Defendants.
___________________________/
OPINION AND ORDER GRANTING IN PART
AND DENYING IN PART DEFENDANTS’
MOTIONS TO DISMISS [50, 52, 59, 69, 70, 96,
102, 103, 105]

107a
This is a Flint water case. Plaintiffs Shari
Guertin, her minor child E. B., and Diogenes MuseCleveland allege that at all relevant times they were
residents of Flint, Michigan, where defendants
caused the lead in the potable water to rise to
dangerous levels and then actively concealed it from
residents, causing plaintiffs harm when they
consumed and bathed in the water over an extended
period of time. Defendants filed motions to dismiss,
and the Court held a hearing on March 27, 2017. For
the reasons set forth below, each motion is granted
in part and denied in part.
I.

Background

Plaintiffs are residents of Flint, Michigan, and
allege that defendants are legally responsible for
harm that was caused when plaintiffs drank and
bathed in water that was contaminated with dangerous levels of lead. (Dkt. 1 at 4-5.)1 Defendants’ main
challenges to plaintiffs’ complaint are under Rule
12(b)(1) as a facial challenge to subject matter jurisdiction and Rule 12(b)(6) for failure to state a claim,
so the following background is drawn from the complaint in the light most favorable to plaintiffs and
accepting all allegations as true. Keys v. Humana,
Inc., 684 F.3d 605, 608 (6th Cir. 2012); United States
v. Ritchie, 15 F.3d 592, 598 (6th Cir. 1994).

1 Plaintiffs clarified at the hearing on the motions to dismiss
that paragraph sixteen of the complaint applies to plaintiff
Diogenes Muse-Cleveland. (See Dkt. 1 at 5.)

108a
a. The defendants
Defendant City of Flint is where the relevant
harms occurred, and its officials made some of the
decisions that ultimately led to plaintiffs’ harms.
(Dkt. 1 at 5.) Defendant Darnell Earley, Flint’s
Emergency Manager from November 1, 2013,
through January 12, 2015, made the decision “to
rush the distribution of water from the Flint River
without proper treatment, including corrosion
control.” (Id.) Defendant Earley made the decision to
switch to Flint River water and made false and
misleading statements representing that the water
was safe to drink, even after he became aware that it
was not. (Id. at 7-8.)
Defendant Howard Croft, Flint’s Department of
Public Works Director, and defendant Michael
Glasgow, a water treatment plant operator for Flint,
knew that Flint’s water treatment plant was inadequate, and nonetheless caused and allowed unsafe
water to be delivered to Flint’s residents and did not
disclose that Flint’s water was unsafe. (Id. at 6-7.)
Defendant Croft also made a number of false
statements about the safety and quality of Flint’s
water that he knew to be untrue. (Id. at 6.)
Defendant State of Michigan directs, controls,
and operates defendants Michigan Department of
Environmental Quality (“MDEQ”) and Michigan
Department of Health and Human Services
(“MDHHS”). (Id. at 7.) Defendant Richard Snyder, as
Governor of Michigan, participated in, directed, and
facilitated the state’s decision to transition Flint’s
water source to the Flint River, and participated in,
directed, and facilitated the state’s insufficient
response to protect plaintiffs from defendant State of
Michigan’s actions. (Id.)

109a
Defendant Gerald Ambrose, Flint’s Emergency
Manager from January 13, 2015, until April 28,
2015, and a financial advisor regarding Flint’s financial emergency from January 2012 until December
2014, was involved in and directed the state’s decision to transition Flint to Flint River water, and
made false and misleading statements representing
that the water was safe to drink. (Id. at 7-8.)
Defendant MDEQ is the state agency responsible
for implementing safe drinking water laws, rules,
and regulations in Michigan. Defendant MDEQ,
through its employees, violated the federal Lead and
Copper Rule by failing to require corrosion control
for Flint River water, misled the federal Environmental Protection Agency (“EPA”), conducted illegal
and improper sampling of Flint’s water, lied to the
public about the safety of Flint’s water, and
attempted to publicly discredit outside individuals
who offered independent evidence of the water’s
contamination. (Id. at 8-9.) These defendants ignored
voluminous evidence of the crisis they had created
until the point when their denials could no longer
withstand outside scrutiny. (Id. at 9.)
Defendant Liane Shekter Smith,2 Chief of the
Office of Drinking Water and Municipal Assistance
for MDEQ until she was removed from her position
on October 19, 2015, knowingly participated in,
approved of, and caused the decision to transition to
Flint River water, and knowingly disseminated false
2 Plaintiffs incorrectly spelled defendant Liane Shekter Smith’s
name as “Liane Sheckter-Smith” in the case caption, but the
Court uses the correct spelling of her name in this opinion and
order.

110a
statements to the public that the water was safe to
drink, leading to the continued consumption of leadcontaminated water. (Id.)
Defendant Daniel Wyant, the Director of MDEQ
until his resignation on or about December 29, 2015,
participated in, directed, and oversaw defendant
MDEQ’s repeated violations of federal water quality
laws, failure to properly study and treat Flint River
water, and defendant MDEQ’s systemic denial, lies,
and attempts to discredit outside observers who were
publicly reporting that the water in Flint contained
dangerous levels of lead. (Id.) He knowingly disseminated false statements to the public that led to the
continued consumption of lead-contaminated water.
(Id. at 9-10.)
Defendant Stephen Busch, the District Supervisor assigned to the Lansing District Office of
defendant MDEQ, participated in MDEQ’s repeated
violations of federal water quality laws, the failure to
properly study and treat Flint River water, and
defendant MDEQ’s program of systemic denials, lies,
and attempts to discredit honest outsiders. (Id. at
10.) He personally falsely reported to the EPA that
Flint had enacted an optimized corrosion control
plan and provided assurances to plaintiffs that the
water was safe to drink when he knew that such
assurances were false. (Id.)
Defendant Patrick Cook, the Water Treatment
Specialist assigned to the Lansing Community
Drinking Water Unit of defendant MDEQ, participated in, approved, and assented to the decision to
allow Flint’s water to be delivered to residents without corrosion control or proper study or testing. (Id.
at 10-11.)

111a
Defendant Michael Prysby, the Engineer
assigned to District 11 (Genesee County) of MDEQ,
participated in, approved, and assented to the
decision to switch the water source, failed to properly
monitor or test the Flint River water, and provided
assurances to plaintiffs that the Flint River water
was safe when he knew those statements to be
untrue. (Id. at 11.)
Defendant Bradley Wurfel, the Director of
Communications for MDEQ until he resigned on
December 29, 2015, repeatedly denied the water
situation as it unfolded and attempted to discredit
opposing opinions. (Id. at 11-12.) He repeatedly made
public statements that created, increased, and prolonged the risks and harms facing plaintiffs, which
he knew were false. (Id. at 12.) He was eventually
relieved of his duties for his “persistent [negative]
tone and derision” and his “aggressive dismissal,
belittlement and attempts to discredit the individuals involved in [conducting independent studies and
tests].” (Id.)
Defendant MDHHS, through decision-making
employees, deliberately hid information that would
have revealed the public health crisis in Flint, which
MDHHS had earlier failed to detect. (Id.) MDHHS’s
failure to properly analyze data led it to conclude
that there was no increase in lead contamination in
Flint’s children, and MDHHS resisted and
obstructed the efforts of outside researchers and the
county health department to determine whether that
was actually true and correct. (Id.)
Defendants Eden Wells, Chief Medical Executive
within the Population Health and Community Services Department of MDHHS, Nick Lyon, Director of
MDHHS, and Nancy Peeler, an MDHHS employee in

112a
charge of its childhood lead poisoning prevention
program, participated in, directed, and oversaw the
Department’s efforts to hide information to save face
and to obstruct the efforts of outside researchers. (Id.
at 12-13.) Defendants Wells and Lyon knew as early
as 2014 of problems with lead and legionella contamination in Flint’s water and participated in hiding
this information. (Id. at 12-13.) And defendant Peeler
continued to try to generate evidence that there was
no lead contamination problem even when her own
Department had data that verified outside evidence
to the contrary. (Id. at 13.)
Defendant Robert Scott, at all relevant times
Data Manager for MDHHS’s Healthy Homes and
Lead Prevention Program, also participated in,
directed, and oversaw the Department’s efforts to
hide information to save face and actively sought to
obstruct and discredit the efforts of outside
researchers. (Id. at 14.) And he continued to try to
generate evidence that there was no lead contamination problem even when his own Department had
data that verified outside evidence to the contrary.
(Id.) He served a key role in withholding and
delaying disclosure of data that outside researchers
needed to conduct independent research. (Id.)
Defendant Veolia North America, LLC, a
Delaware corporation with its principal office in
Illinois, provided negligent professional engineering
services in reviewing Flint’s water system and
declaring the water safe to drink. (Id. at 14-15.)
Defendant Lockwood, Andrews & Newnam, Inc., a
Texas corporation with its principal office in Texas,
provided negligent professional engineering services
in preparing Flint’s water treatment facility to treat
water from the Flint River. (Id. at 15.)

113a
b. The events
Under the federal Safe Drinking Water Act, the
EPA is responsible for setting rules regulating drinking water, including the Lead and Copper Rule. (Id.)
Put simply, the law requires sampling of public
water systems, and when results indicate that lead is
present at levels that exceed the lead action level set
in the Lead and Copper Rule, water systems are
required to notify the public, the state, and the EPA
of the lead action level “exceedance.” When the levels
have the potential to cause serious adverse health
effects from short-term exposure, the water system
must issue the notifications within twenty-four
hours. See 42 U.S.C. § 300g-3(c)(2)(C); 40 C.F.R.
§ 141.80(c).
In 2010, the EPA commissioned a report noting,
among other things, that defendant MDEQ’s practice
of calculating the amount of lead in water “does not
meet the requirements of Federal Regulations, since
it is required that all 90th percentiles be calculated,”
something MDEQ would not do unless a potential
violation had been identified. (Dkt. 1 at 18.) The
report also noted that MDEQ did not conduct the
required number of water samples for lead. (Id.)
Defendant MDEQ also violated “the letter and spirit”
of the Lead and Copper Rule by failing to require
corrosion control for Flint River water and by misinforming the EPA about whether corrosion control
was being utilized. (Id. at 19.) MDEQ’s former
director “explicitly admitted” that the state agency
did not follow the rule. (Id. at 20.)
In November 2012, Flint’s Emergency Manager
suggested joining the Karegnondi Water Authority to
save costs. (Id.) On March 7, 2014, defendant Earley
sent a letter to the Detroit Water and Sewerage

114a
Department from which Flint had been receiving its
water supply, stating “[w]e expect that the Flint
Water Treatment Plant will be fully operational and
capable of treating Flint River water prior to the
date of termination. In that case, there will be no
need for Flint to continue purchasing water to serve
its residents and businesses after April 17, 2014.”
(Id. at 21.) On March 26, 2014, defendant Busch emailed defendant Shekter Smith and another
colleague stating that starting up the Flint plant “for
continuous operation will carry significant changes
in regulatory requirements so there is a very gray
area as to what we consider for startup.” (Id. at 22.)
However, defendant Glasgow informed defendant
MDEQ on April 17, 2014, that he “assumed there
would be dramatic changes to [MDEQ’s] monitoring”
and did “not anticipate giving the OK to begin sending water out anytime soon. If water is distributed
from this plant in the next couple of weeks, it w[ould]
be against [his] direction. [He] need[ed] time to
adequately train additional staff and to update
[MDEQ’s] monitoring plans before [he would] feel
[MDEQ was] ready.” (Id. at 22.) According to
Glasgow, “management above” seemed “to have their
own agenda.” (Id.)
On April 25, 2014, Flint officially began using
the Flint River as its primary water source, despite
the fact that the proper preparations had not been
made and defendant Glasgow’s clear warning to the
contrary. (Id. at 23.) Defendant Croft stated in a
press release that “[t]he test results have shown that
our water is not only safe, but of the high quality
that Flint customers have come to expect.” (Id.)
When Flint was receiving its water from the
Detroit Water and Sewerage Department, it was

115a
already treated to prevent corrosion, but the water
from the Flint River was not. (Id. at 24.) Defendant
Lockwood was hired to make Flint’s plant sufficient
to treat water from its new source. (Id.) Defendants
State of Michigan, MDEQ, and Lockwood did not
implement any corrosion control for the new water
source, which it required due to the lead pipes in
Flint’s water system. (Id. at 24-26.) Defendants were
put on notice that this was an issue when residents
of Flint began complaining almost immediately
about discoloration and odor, among other things.
(Id. at 26.)
In August and September 2014, Flint issued two
boil-water advisories after fecal coliform bacteria was
discovered in the water. (Id. at 27.) On October 13,
2014, General Motors ceased using Flint River water
at its engine plant because the company determined
that high levels of chloride would corrode its car
parts. Discussing General Motors’ decision, defendant Prysby wrote to defendants Busch, Shekter
Smith, and others that the Flint River water had
elevated chloride levels that “although not optimal”
were “satisfactory.” (Id. at 28.) He “stressed the importance of not branding Flint’s water as ‘corrosive’
from a public health standpoint simply because it
does not meet a manufacturing facility’s limit for
production.” (Id.)
In October of 2014, defendant Snyder received a
briefing in which officials blamed iron pipes, susceptible to corrosion and bacteria, for the two boil-water
advisories. (Id.) On January 2, 2015, Flint mailed a
notice to its water customers indicating that the city
had been in violation of the Safe Drinking Water Act
due to the presence of trihalomethanes, which was a
result of attempts to disinfect the water. (Id.) And on

116a
January 9, 2015, the University of Michigan–Flint
discovered lead in the water coming out of campus
drinking fountains. (Id.)
As early as January 2015, defendant State of
Michigan began providing purified water coolers at
its Flint offices for state employees in response to
concerns about the drinking water, while government officials, including many defendants, continued
to tell Flint residents that the water was safe to
drink. (Id.) On January 12, 2015, the Detroit Water
and Sewerage Department offered to waive a fourmillion dollar reconnection fee to transition Flint
back to water provided by the Detroit Water and
Sewerage Department. Defendant Ambrose, as
Emergency Manager, declined the offer. (Id.)
On January 29, 2015, defendant Shekter Smith
emailed MDEQ deputy director Jim Sygo that a
“change in water chemistry can sometimes cause
more corrosive water to slough material off of pipes
as opposed to depositing material or coating pipes in
the distribution system,” and that this “may continue
for a while until things stabilize.” (Id. at 29.) She
noted that because “it appears wide-spread, it’s most
likely a distribution system problem.” (Id.)
On February 6, 2015, an Emergency Manager
staff member wrote to defendant Prysby, asking
whether he knew if defendant MDEQ had ever
conducted a “source water assessment” for the Flint
River. (Id.) After an initial response stating that he
did not know, Prysby later responded that a study on
the Flint River as an emergency intake had been
conducted in 2004. The 2004 study noted that the
Flint River was a highly sensitive drinking water
source susceptible to contamination. (Id.)

117a
On February 27, 2015, in response to concerns
about dangerously high levels of lead in a resident’s
water sample, defendant Busch told the EPA on
behalf of defendant MDEQ that the Flint Water
Treatment Plant had an optimized corrosion control
program, despite knowing it did not. (Id.) In an email
to defendants Prysby and Busch, the EPA’s regional
drinking water regulations manager Miguel Del
Toral noted high levels of particulate lead in the
water sample, and inquired about optimized corrosion control. (Id. at 30.) He relayed that defendant
MDEQ’s testing method—flushing the line before
compliance sampling—impermissibly skewed the
test results to show fewer lead particles than were
generally present. (Id.)
During this time, an email from an employee in
defendant MDEQ noted that the switch to the Flint
River “put the city in the business of water production, where they had historically been in the business
of water transmission,” stating that “once the city
connects to the new KWA system in 2016, this issue
w[ould] fade into the rearview.” (Id. at 31.) Also during this time, defendant Veolia was hired to review
Flint’s public water system, including treatment processes, maintenance procedures, and actions taken.
(Id.) Veolia issued an interim report on February 18,
2015, stating that Flint’s water was “in compliance
with drinking water standards,” and noting that
“[s]afe [meant] complian[t] with state and federal
standards and required testing.” (Id.) Veolia
dismissed medical concerns by stating that “[s]ome
people may be sensitive to any water.” (Id. at 32.)
Defendant Veolia issued its final report on March
12, 2015, stating that “a review of water quality
records for the time period under our study indicates

118a
compliance with State and Federal water quality
regulations.” (Id.) Veolia recommended that adding
polyphosphate to the water would minimize
discoloration. (Id.)
On April 24, 2015, defendant MDEQ stated to
the EPA that Flint did not have optimized corrosion
control in place, contradicting MDEQ’s previous
statement made two months prior. (Id. at 33.) That
same month, EPA regional drinking water manager
Del Toral issued a memorandum to the MDEQ,
stating:
I wanted to follow up on this because Flint
has essentially not been using any corrosion
control treatment since April 30, 2014, and
they have (lead service lines). Given the very
high lead levels found at one home and the
pre-flushing happening in Flint, I’m worried
that the whole town may have much higher
lead levels than the compliance results
indicated, since they are using pre-flushing
ahead of their compliance sampling.
(Id. at 34.) On May 1, 2015, defendant Cook
responded that “[a]s Flint will be switching raw
water sources in just over one year from now, raw
water quality will be completely different than what
they currently use. Requiring a study at the current
time will be of little to no value in the long term
control of these chronic contaminants.” (Id. at 35.)
On June 24, 2015, Del Toral sent a memorandum
to the chief of the EPA’s Region 5 Ground Water and
Drinking Water Branch, and included on the email
defendants Shekter Smith, Cook, Busch, and Prysby.
(Id. at 35-36.) He expressed concern at the lead levels
and lack of mitigating treatment, detailing Lee-Anne

119a
Walters’ experience. Walters had contacted the EPA
with the lead-level results in her potable water,
which defendant MDEQ had told her was coming
from the plumbing in her own home. (Id. at 36.) Del
Toral’s inspection revealed that her plumbing was
entirely plastic and noted that blood tests showed
her child had elevated blood lead levels. (Id.)
On July 9, 2015, ACLU-Michigan reporter Curt
Guyette publicly broke the story about lead in Flint’s
drinking water, citing Del Toral’s Memorandum and
exposing the lack of corrosion control in Flint’s drinking water. Defendant Wurfel responded: “Let me
start here—anyone who is concerned about lead in
the drinking water in Flint can relax.” (Id. at 38.)
On August 27, 2015, Virginia Tech Professor
Marc Edwards released an analysis of lead levels in
homes he sampled in Flint. More than half of the
samples came back above 5 parts-per-billion, and
more than 30% of them came back over 15 ppb,
which would be unacceptable even at the 90th percentile. (Id. at 40-41.) In September 2015, Professor
Edwards published a report of his findings. (Id. at
42-43.) Defendant Wurfel made a number of
statements to qualify, distinguish, or otherwise
downplay these results. (Id. at 41-42, 43-44.)
On September 17, 2015, defendant Wyant wrote
a letter in response to an inquiry from various legislators, stating that “the MDEQ does not review or
receive draft memos from the USEPA, nor would we
expect to while it is a draft,” despite the memorandum it had received months earlier from Del Toral.
(Id. at 46.) On September 23, 2015, defendant Croft
sent an email to numerous officials stating that
“Flint has officially returned to compliance with the
Michigan Safe Drinking Water Act,” recent “testing

120a
has raised questions regarding the amount of lead
that is being found in the water,” and “over one
hundred and sixty lead tests [have been performed]
throughout the city since switching over to the Flint
River and remain within EPA standards.” (Id.)
On July 28, 2015, MDHHS epidemiologist
Cristin Larder emailed defendant Peeler and
MDHHS employee Patricia McKane, noting an
increase in blood lead levels in Flint residents just
after the switch and concluding that the issue “warrant[ed] further investigation.” (Id. at 48.) Defendant
Peeler responded by attributing the increase to
seasonal variation. (Id.)
On September 24, 2015, Dr. Hanna-Attisha
presented the results from her study at a press
conference, which showed post-water transition
elevation of blood-lead levels in Flint children. (Id. at
50.) MDHHS employees “were uniformly dismissive
of Dr. Hanna-Attisha’s results.” (Id.) But the day
after Dr. Hanna-Attisha released her study, the City
of Flint issued a health advisory, telling residents to
flush pipes and install filters to prevent lead
poisoning. (Id. at 51.)
On September 28, 2015, defendant Wurfel
publicly stated that he “wouldn’t call [Dr. HannaAttisha’s statements] irresponsible. [He] would call
them unfortunate.” And he again declared Flint’s
water safe to drink. (Id. at 53.) The same day,
defendant Lyon stated that he “would like to make a
strong statement with a demonstration of proof that
the lead blood levels seen are not out of the ordinary
and are attributable to seasonal fluctuations.” (Id. at
54.)

121a
Plaintiffs cite numerous inter- and intra-department communications, alleging they show attempts
to cover up the issue. (Id. at 54-58.) By October 12,
2015, defendant Snyder received a proposal to reconnect Flint to the Detroit Water and Sewerage
Department. And on October 16, 2015, Flint reconnected to the Detroit Water and Sewerage Department. This did not change the corrosion that had
already occurred, and lead has continued to leach
from pipes into the water. (Id. at 58.)
On October 18, 2015, defendant Wyant stated to
defendant Snyder:
[S]taff made a mistake while working with
the City of Flint. Simply stated, staff employed a federal (corrosion control) treatment
protocol they believed was appropriate, and it
was not. . . . I believe now we made a mistake. For communities with a population
above 50,000, optimized corrosion control
should have been required from the beginning. Because of what I have learned, I will
be announcing a change in leadership in our
drinking water program.
(Id. at 58-59.)
On October 21, 2015, defendant Snyder
appointed a task force to investigate the Flint water
crisis. (Id. at 59.) On December 29, 2015, the task
force issued a letter detailing its findings: “Although
many individuals and entities at state and local
levels contributed to creating and prolonging the
problem,” the “primary responsibility for what happened in Flint rests with the [MDEQ]. . . . It failed in
that responsibility and must be held accountable for
that failure.” (Id. at 59-60.) Among other things, the

122a
task force found that “the agency’s response was
often one of aggressive dismissal, belittlement, and
attempts to discredit [outside, independent] efforts
and the individuals involved,” and “the MDEQ seems
to have been more determined to discredit the work
of others—who ultimately proved to be right—than
to pursue its own oversight responsibility.” (Id. at
60.) The task force stated “we are particularly concerned by recent revelations of MDHHS’s apparent
early knowledge of, yet silence about, elevated blood
lead levels detected among Flint’s children.” (Id. at
61.)
In October 2015, defendant Shekter Smith was
reassigned so as to have no continued oversight
responsibility regarding Flint’s drinking water. On
December 5, 2015, the City of Flint declared a state
of emergency. On December 23, 2015, the Michigan
Auditor General provided an investigative report on
the crisis, finding that corrosion control should have
been maintained from the beginning and that improper sample sites had been selected by defendant
MDEQ. On December 30, 2015, defendants Wyant
and Wurfel resigned. (Id.) On January 4, 2016,
Genesee County declared its own state of emergency.
(Id. at 62.)
On January 21, 2016, Susan Hedman, former
EPA Region 5 Administrator, resigned over her
involvement in the Flint Water crisis.3 That same
3 In paragraph forty-three, plaintiffs state that Hedman could
not yet be named as a defendant pursuant to the Federal Tort
Claims Act, but that if their anticipated FTCA claims to the
EPA were rejected, they might seek to amend their complaint
in order to add claims against Hedman. (Dkt. 1 at 14.) Plaintiffs
clarified at the hearing that this was a drafting mistake;
[Footnote continued on next page]

123a
day, the EPA issued an Emergency Order, based on
its finding that “the City of Flint’s and the State of
Michigan’s responses to the drinking water crisis in
Flint have been inadequate to protect public health
and that these failures continue.” (Id. at 62.) At one
of the several hearings conducted before the U.S.
Congress, the EPA Deputy Assistant Administrator
testified:
[Defendant] MDEQ incorrectly advised the
City of Flint that corrosion-control treatment
was not necessary, resulting in leaching of
lead into the city’s drinking water . . . . EPA
regional staff urged MDEQ to address the
lack of corrosion control, but was met with
resistance. The delays in implementing the
actions needed to treat the drinking water
and in informing the public of ongoing health
risks raise very serious concerns.
(Id. at 64.)
On January 22, 2016, defendants Shekter Smith
and Busch were suspended without pay. Defendant
Shekter Smith’s firing was announced on February
5, 2016. (Id. at 63.)
c. Plaintiffs’ claims
Plaintiffs bring fifteen claims. In Count 1—
against defendants City of Flint, Croft, Glasgow,
State of Michigan, Snyder, Earley, Ambrose, MDEQ,
Shekter Smith, Wyant, Busch, Cook, Prysby, and
[Footnote continued from previous page]
plaintiffs have not filed an FTCA administrative claim, and
they have otherwise taken no action to bring suit against
Hedman, nor do they intend to.

124a
Wurfel—plaintiffs bring a 42 U.S.C. § 1983 claim,
alleging a deprivation of a contractually created
property right in violation of substantive due process. According to plaintiffs, these defendants violated their property right “when, ceasing to provide
[p]laintiffs with safe, potable water, they provided
[p]laintiffs with poisonous, contaminated water.” (Id.
at 64-65.)
In Count 2— against defendants City of Flint,
Croft, Glasgow, State of Michigan, Snyder, Earley,
Ambrose, MDEQ, Shekter Smith, Wyant, Busch,
Cook, Prysby, and Wurfel—plaintiffs bring a § 1983
claim, alleging a deprivation of a contractually
created property right in violation of procedural due
process. According to plaintiffs, these defendants
deprived them of their contractually based property
right to purchase and receive safe, potable drinking
water without notice or a hearing. (Id. at 65-66.)
In Count 3—against defendants City of Flint,
Croft, Glasgow, State of Michigan, Snyder, Earley,
Ambrose, MDEQ, MDHHS, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, Lyon,
and Scott, i.e., all defendants except Veolia and
Lockwood—plaintiffs bring a § 1983 claim, alleging a
state-created danger in violation of substantive due
process. According to plaintiffs, these defendants
each acted to expose them to toxic, lead-contaminated water by making, causing to be made, and/or
causing or making representations that the water
was safe to drink, and these actions and omissions
were objectively unreasonable in light of the facts
and circumstances confronting them, in violation of
plaintiffs’ Fourteenth Amendment rights. (Id. at 6668.)

125a
In Count 4—against defendants City of Flint,
Croft, Glasgow, State of Michigan, Snyder, Earley,
Ambrose, MDEQ, MDHHS, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, Lyon,
and Scott, i.e., all defendants except Veolia and
Lockwood—plaintiffs bring a § 1983 claim, alleging a
violation of their substantive due process right to
bodily integrity. According to plaintiffs, these
defendants caused their harm by exposing them to
lead-contaminated water and otherwise hiding the
contamination from them, and as a result, plaintiffs
suffered bodily harm and their rights to bodily
integrity were violated. (Id. at 68-70.)
In Count 5—against defendants City of Flint and
State of Michigan—plaintiffs allege a breach of
contract. According to plaintiffs, these defendants
offered to sell potable water, plaintiffs agreed to pay
for potable water, and these defendants materially
and irreparably breached the contract with plaintiffs
by failing to provide potable, safe drinking water.
(Id. at 70-71.)
In Count 6—against defendants City of Flint and
State of Michigan—plaintiffs allege a breach of
implied warranty. According to plaintiffs, these
defendants directly promised to provide water that
was fit for human consumption and/or impliedly
promised that the water was fit for human
consumption, and did not. (Id. at 71-72.)
In Count 7—against all defendants—plaintiffs
allege a nuisance. According to plaintiffs, defendant
caused foul, poisonous, lead-contaminated water to
be delivered to their homes, resulting in the presence
of contaminants in their properties and persons, and
substantially and unreasonably interfering with

126a
their comfortable living and ability to use and enjoy
their homes. (Id. at 72-73.)
In Count 8—against all defendants—plaintiffs
allege a trespass. According to plaintiffs, defendants’
negligent, grossly negligent, willful, and wanton conduct and failures to act caused contaminants to enter
plaintiffs’ property. (Id. at 74-75.)
In Count 9—against defendants City of Flint and
State of Michigan—plaintiffs allege unjust enrichment. According to plaintiffs, these defendants
received and retained the benefits of the funds paid
by plaintiffs for contaminated water that was and is
unfit for human consumption. (Id. at 75.)
In Count 10, plaintiffs allege negligence/
professional negligence/gross negligence against
defendant Veolia. According to plaintiffs, Veolia
undertook, for consideration, to render services that
it should have recognized as necessary for the protection of plaintiffs and their property, thus creating a
duty to plaintiffs to exercise reasonable care to
protect that undertaking; plaintiffs relied on Veolia
to perform its duty; Veolia breached its duty; and
plaintiffs were directly and proximately harmed by
Veolia’s breach. (Id. at 75-78.)
In Count 11, plaintiffs allege negligence/professional negligence/gross negligence against defendant Lockwood. According to plaintiffs, Lockwood
undertook, for consideration, to render services that
it should have recognized as necessary for the
protection of plaintiffs and/or their property, thus
creating a duty to plaintiffs to exercise reasonable
care to protect that undertaking; plaintiffs relied on
Lockwood to perform its duty; Lockwood breached its

127a
duty; and plaintiffs were directly and proximately
harmed by Lockwood’s breach. (Id. at 78-79.)
In Count 12—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and
Scott—plaintiffs allege gross negligence. According to
plaintiffs, these defendants owed plaintiffs an
independent duty of care, breached the duty of care,
and plaintiffs suffered harm. (Id. at 80-83.)
In Count 13—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and
Scott—plaintiffs allege intentional infliction of
emotional distress. According to plaintiffs, these
defendants’ outrageous conduct was intentional and
reckless, in conscious disregard for the rights and
safety of plaintiffs, and caused, prolonged, and
obscured plaintiffs’ exposure to lead-contaminated
water. (Id. at 82-83.)
In Count 14—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and
Scott—plaintiffs allege negligent infliction of
emotional distress. According to plaintiffs, these
defendants were in a special relationship to them,
being charged with providing them safe water, the
distress they caused from plaintiffs suffering and
having to see family members suffer from lead
exposure was highly foreseeable, and defendants’
negligent acts caused plaintiffs and their loved ones
harm. (Id. at 83-85.)
In Count 15—against defendants Snyder, Croft,
Glasgow, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, Wurfel, Wells, Peeler, and

128a
Scott—plaintiffs allege that these defendants engaged in proprietary functions when selling potable
water to plaintiffs, i.e., to produce a pecuniary profit
for the governmental agencies, not supported by
taxes and fees, and thus these defendants do not get
governmental immunity. (Id. at 85-87.)
Plaintiffs seek an order declaring defendants’
conduct unconstitutional; an order of equitable relief
to remediate the harm caused by defendants’ unconstitutional conduct including repairs to property,
establishment of a medical monitoring fund, and
appointing a monitor to oversee the water operations
of Flint for a period of time deemed appropriate by
the court; an order for an award for general damages; an order for an award of compensatory damages; an order for an award of punitive damages; an
order for an award of actual reasonable attorney fees
and litigation expenses; and an order for all such
other relief the court deems equitable. (Id. at 88.)
II. Standard
a. Rule 12(b)(1)
“Motions to dismiss for lack of subject matter
jurisdiction fall into two general categories: facial
attacks and factual attacks.” United States v. Ritchie,
15 F.3d 592, 598 (6th Cir. 1994). Relevant here, “[a]
facial attack is a challenge to the sufficiency of the
pleading itself.” Id. (emphasis in original). When
considering a facial attack, “the court must take the
material allegations of the [complaint] as true and
construed in the light most favorable to the
nonmoving party.” Id.
To survive such an attack, “the plaintiff’s burden
to prove federal question subject matter jurisdiction
is not onerous.” Musson Theatrical, Inc. v. Fed.

129a
Express Corp., 89 F.3d 1244, 1248 (6th Cir. 1996)
(citing RMI Titanium Co. v. Westinghouse Elec.
Corp., 78 F.3d 1125, 1134 (6th Cir. 1996)). “The
plaintiff must show only that the complaint alleges a
claim under federal law, and that the claim is ‘substantial.’” Id. “[T]he plaintiff can survive the motion
by showing any arguable basis in law for the claim
made.” Id. “Dismissal for lack of subject-matter jurisdiction because of the inadequacy of the federal claim
is proper only when the claim is ‘so insubstantial,
implausible, foreclosed by prior decisions of [the
Supreme Court], or otherwise completely devoid of
merit as not to involve a federal controversy.’” Steel
Co. v. Citizens for a Better Env’t, 523 U.S. 83, 89
(1998) (quoting Oneida Indian Nation of New York v.
Cty. of Oneida, 414 U.S. 661, 666 (1974)).
b. Rule 12(b)(6)
When deciding a motion to dismiss under Rule
12(b)(6) of the Federal Rules of Civil Procedure, the
Court must “construe the complaint in the light most
favorable to the plaintiff and accept all allegations as
true.” Keys v. Humana, Inc., 684 F.3d 605, 608 (6th
Cir. 2012). “To survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009). A plausible claim need not contain
“detailed factual allegations,” but it must contain
more than “labels and conclusions” or “a formulaic
recitation of the elements of a cause of action.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007).
III. Analysis
Because defendants challenge the sufficiency of
plaintiffs’ complaint on both subject-matter

130a
jurisdiction and sufficiency-of-the pleadings grounds,
the Court first addresses defendants’ jurisdictional
arguments.
a. Whether the Court has subject-matter
jurisdiction
i. Standing
Defendants Lockwood and Scott argue that
plaintiffs fail to establish Article III standing, and
thus the complaint should be dismissed under Rule
12(b)(1). (See, e.g., Dkt. 59 at 15-16; see Dkt. 96 at
49.) Specifically, they argue that plaintiffs only plead
they were “‘damaged’ or ‘injured’ in some unspecified
way,” and that failing to plead that “their blood lead
levels are even elevated, just that they were exposed
to lead-contaminated water,” is insufficient to plead
a concrete injury. (See, e.g., Dkt. 59 at 16-17.)
This argument is frivolous. At the beginning of
the complaint, plaintiffs allege that they all consumed lead-conftaminated [sic] water, that the water
was contaminated with lead because of defendants’
actions, and that they suffered injuries including
hair, skin, digestive, and organ problems; physical
pain and suffering; disability; brain and developmental injuries including cognitive deficits; and aggravation of pre-existing conditions. (Dkt. 1 at 4-5.) There
is no question that plaintiffs sufficiently pleaded a
“concrete and particularized” injury, they “suffered
an injury in fact,” there is “a causal connection
between the injury and the conduct complained of,”
and a favorable decision from this Court would likely
redress plaintiffs’ injury. Lujan v. Defs. of Wildlife,
504 U.S. 555, 560-61 (1992). Accordingly, the
motions to dismiss based on plaintiffs’ failure to
plead a concrete injury is denied.

131a
ii. Preemption
Defendants against whom the four § 1983 claims
are made—all defendants except for Veolia and
Lockwood—argue that the federal Safe Drinking
Water Act (“SDWA” or “Act”) has a comprehensive
remedial scheme that preempts plaintiffs’ federal
claims. (See Dkts. 52 at 17, 69 at 25, 70 at 24, 96 at
25, 102 at 35, 103 at 23, 105 at 15.)
Plaintiffs allege that the state violated their substantive and procedural due process rights to property created by a contract for water with the city and
state, their substantive due process right to be free
from a state-created danger, and their substantive
due process right to bodily integrity. According to
defendants, the SDWA provides the exclusive remedy for claims based on unsafe public drinking water.
(See, e.g., Dkt. 103 at 24.) They argue that the Act’s
remedial scheme is so comprehensive that Congress
intended the Act to preempt all other federal remedies, including constitutional claims brought under
§ 1983.
Plaintiffs respond that defendants apply the
wrong preemption analysis, that which applies to
§ 1983 claims for federal statutory violations, but the
correct test here is that which applies to § 1983
claims for violations of the Constitution. (See Dkt.
123 at 24.) Plaintiffs argue that because the contours
of the rights afforded under the Constitution are
substantially different from those under the SDWA,
Congress did not intend the enforcement scheme in
the SDWA to displace constitutional claims under
§ 1983. (Id. at 24-31.)
When Congress intends a statute’s remedial
scheme to “be the exclusive avenue through which a

132a
plaintiff may assert [the] claims,” § 1983 claims are
precluded. Fitzgerald v. Barnstable Sch. Comm., 555
U.S. 246, 252 (2009) (quoting Smith v. Robinson, 468
U.S. 992, 1009 (1984)). And when, as here, a § 1983
claim is based on a constitutional right, “lack of congressional intent may be inferred from a comparison
of the rights and protections of the statute and those
existing under the Constitution.” Id. When “the contours of such rights and protections diverge in significant ways, it is not likely that Congress intended to
displace § 1983 suits enforcing constitutional rights.”
Id.
Among the several Supreme Court cases that
have addressed the issue, this case is in line with
those finding that the federal statute does not preempt § 1983 claims for violations of the Constitution.
In Smith v. Robinson, the Supreme Court held
that the Education of the Handicapped Act preempted § 1983 due process and equal protection
claims because Congress had placed “on local and
state educational agencies the primary responsibility
for developing a plan to accommodate the needs of
each individual handicapped child,” and “the procedures and guarantees set out in the [statute]” were
“comprehensive.” 468 U.S. 992, 1011 (1984). In light
“of the comprehensive nature of the procedures and
guarantees set out in” that statute, the Court found
“it difficult to believe that Congress also meant to
leave undisturbed the ability of a handicapped child
to go directly to court with an equal protection claim
to a free appropriate public education.” Id.
And in Rancho Palos Verdes v. Abrams, the
Court similarly held that the Telecommunications
Act’s detailed and restrictive administrative and
judicial remedies “are deliberate and are not to be

133a
evaded through § 1983.” 544 U.S. 113, 124 (2005). In
both cases, “the statutes at issue required plaintiffs
to comply with particular procedures and/or to
exhaust particular administrative remedies,” and a
direct route to court through § 1983 “would have
circumvented these procedures and given plaintiffs
access to tangible benefits—such as damages,
attorney’s fees, and costs—that were unavailable
under the statutes.” Fitzgerald, 555 U.S. at 254.
In contrast, the Supreme Court held in
Fitzgerald that the relief available under Title IX—
withdrawal of federal funding from institutions not
in compliance with the law and an implied right of
action permitting injunctive relief and damages—
was evidence that Congress did not intend to preempt § 1983 claims based on violations of the Equal
Protection Clause. Id. at 255. The Court noted that
“we should ‘not lightly conclude that Congress
intended to preclude reliance on § 1983 as a remedy
for a substantial equal protection claim,’” and
declined to do so as to Title IX in light of the fact that
there was only an implied remedy under the statute
and because of the “divergent coverage of Title IX
and the Equal Protection Clause.” Id. at 255-58.
Under the SDWA, the states are charged with
“primary enforcement responsibility.” See 42 U.S.C.
§ 300g-2. And the Administrator of the EPA can sue
in federal court for civil penalties of up to $25,000 for
each day in which the statute or regulations are
violated. Id. at § 300g-3.
There is a citizen-suit provision as well. “[A]ny
person may commence a civil action on his own behalf . . . against any person . . . who is alleged to be in
violation of any requirement prescribed by or under”
the Act. 42 U.S.C. § 300j-8(a)(1). District courts have

134a
jurisdiction “to enforce in an action brought under
this subsection any requirement prescribed by or
under this title or to order the Administrator to
perform an act” that is non-discretionary. Id. at
(a)(1)-(2). The SDWA has been interpreted to provide
only for prospective injunctive relief for ongoing
violations. See Mattoon v. City of Pittsfield, 980 F.2d
1, 6-7 (1st Cir. 1992) (SDWA only authorizes suit for
continuous or intermittent violation, not for past
harm); Batton v. Ga. Gulf, 261 F. Supp. 2d 575, 598
(M.D. La. 2003) (“The defendants nevertheless are
correct that the SDWA does not permit a private
right of action for the recovery of compensatory
damages . . . .”). The citizen-suit provision also provides that the Court may award costs and attorney’s
fees when appropriate.
But the Act includes a robust savings clause:
“Nothing in this section shall restrict any right
which any person (or class of persons) may have
under any statute or common law to seek enforcement of any requirement prescribed by or under this
title or to seek any other relief.” 42 U.S.C. § 300j8(d)-(e).
Reading these provisions together, the relevant
provisions of the Act can be summarized as follows:
the Act is enforced primarily by the states; the
Administrator of the EPA may enforce the Act by
bringing civil suits and enforcement actions; private
citizens may enforce the Act by suing anyone in
violation of the Act for injunctive relief, costs, and
attorney’s fees; and the Act explicitly does not
restrict “any right” under “any statute or common
law” to enforce any requirement prescribed by the
Act or regulations or for “any other relief.”

135a
As in Smith, Congress here placed “on local and
state [] agencies the primary responsibility for
developing a plan to” provide for and enforce the safe
drinking water requirements of the SDWA. 468 U.S.
at 1011. But as in Fitzgerald, the SDWA’s protections are “narrower in some respects and broader in
others” than the constitutional claims plaintiffs bring
here. See 555 U.S. at 256. For example, the SDWA
provides for citizen suits “against any person . . . who
is alleged to be in violation of any requirement prescribed by or under” the Act, 42 U.S.C. § 300j-8(a)(1)
(emphasis added), whereas the Constitution only
reaches government officials and limited classes of
private persons acting as the government. See, e.g.,
Fitzgerald, 555 U.S. at 256. And the Act requires
conduct that may give rise to a claim under the
SDWA, such as for violation of water quality reporting requirements, that would not likely give rise to
constitutional claims.
On the other hand, the Court can contemplate
conduct related to drinking water that might violate
the Constitution, but would not be proscribed by the
Act. For example, allegations related to the rates
charged for water, rather than the quality of water,
could conceivably form the basis of constitutional
claims that the SDWA does not reach; such might be
the case if government officials charged differing
rates for water service based on race. These significant differences in the contours of the statutory and
constitutional rights and protections suggest that
Congress did not intend to preempt constitutional
claims under § 1983.
And the savings clause is explicit evidence that
Congress did not mean to preempt the constitutional
claims in this case. Defendants argue that the

136a
savings clause is only meant to apply to “any remedy
available under state law,” and a parallel savings
clause in Rancho Palos Verdes did not prevent the
Supreme Court from finding that the Telecommunications Act preempted the § 1983 claims in that case.
(See, e.g., Dkt. 102 at 15 n.4 (emphasis in original).)
But that holding of Rancho Palos Verde does not
apply here. In that case, the Supreme Court held
that the savings clause did not “save” the § 1983
constitutional claim because any § 1983 claim that
could have been brought before the operation of the
Telecommunications Act was preserved. See Rancho
Palos Verdes, 544 U.S. at 126 (the savings clause
“has no effect on § 1983 whatsoever . . . . [T]he claims
available under § 1983 prior to the enactment of the
TCA continue to be available after its enactment”).
In contrast, finding preemption in this case would
certainly affect, for example, plaintiffs’ § 1983 bodily
integrity claim, which would have been available before the SDWA but no longer if preemption applies.
Allowing plaintiffs’ constitutional claims to proceed would not “circumvent” the SDWA’s “procedures
and give access to tangible benefits . . . that were
unavailable under” the Act. Fitzgerald, 555 U.S. at
254. The procedural requirements for seeking remedies available under the SDWA still apply to claims
for violations of the SDWA, because, as Congress
intended, the SDWA preempts § 1983 claims for
statutory violations of the Act. The SDWA’s notice
requirements must be satisfied before bringing suit
under the Act: before bringing suit to enforce the provisions of the SDWA, plaintiffs must give sixty days’
notice of SDWA violations to the Administrator, the
alleged violators, and to the state. 42 U.S.C. § 300j8(b)(1)(A). If the Administrator, the Department of

137a
Justice, or the state “is diligently prosecuting a civil
action in federal court,” plaintiffs may not bring a
suit to enforce the Act, but may “intervene as a
matter of right.” Id. at § 300j-8(b)(1)(B).
But the procedural requirements and remedial
restrictions under the Act are not intended to
preempt § 1983 claims for violations of the Constitution. The “protections guaranteed by the two sources
of law” are “narrower in some respects and broader
in others,” Fitzgerald, 555 U.S. at 256, and Congress
explicitly included a robust savings clause that preserves the constitutional claims in this case. Because
the SDWA does not preempt plaintiffs’ constitutional
claims, they must be addressed on the merits. See,
e.g., Rietcheck v. City of Arlington, No. 04-CV-1239BR, 2006 U.S. Dist. LEXIS 1490, at *10 (D. Or.
Jan. 4, 2006) (“Plaintiffs here . . . bring their First
Claim under § 1983 to enforce their constitutional
rights to be free from state-created danger, which is
an entirely different kind of claim and is only tangentially related to safe drinking water. The Court,
therefore, concludes Plaintiffs’ First Claim brought
under § 1983 is not preempted by the SDWA because
Plaintiffs do not seek to vindicate any right
addressed by the SDWA.”).4

4 On February 2, 2017, in Mays v. Snyder, now assigned to this
Court, Judge John Corbett O’Meara found the opposite. See
Mays v. Snyder, No. 15-14002, 2017 U.S. Dist. LEXIS 14274, at
*11 (E.D. Mich. Feb. 2, 2017). That case is now on appeal. This
Court declined to stay this case sua sponte until the Court of
Appeals issues its opinion and order.

138a
iii. Eleventh Amendment Immunity
The governmental defendants, i.e., all defendants
except for Veolia and Lockwood, argue that the
Eleventh Amendment bars plaintiffs’ claims against
the State of Michigan, state agencies, and state
officials in the [sic] official capacities, as well as the
City of Flint and city defendants in their official
capacities, who would not generally be protected by
the Eleventh Amendment, because they were acting
as an arm of the state. (See Dkts. 52 at 21, 69 at 25,
70 at 24, 96 at 46, 102 at 31, 103 at 27, 105 at 14.)
“Eleventh Amendment immunity constitutes a jurisdictional bar, and unless [it] is expressly waived, a
state and its agencies may not be sued for damages
and injunctive relief in federal court.” Pennhurst
State Sch. & Hosp. v. Halderman, 465 U.S. 89, 10001 (1984).
Because the city defendants (City of Flint, the
emergency managers, and other municipal employees of the city) were not acting as an arm of the state,
they are not entitled to Eleventh Amendment
Immunity. Mt. Healthy City Sch. Dist. Bd. of Educ. v.
Doyle, 429 U.S. 274, 280 (1977) (“The bar of the
Eleventh Amendment to suit in federal courts
extends to States and state officials in appropriate
circumstances, . . . but does not extend to counties
and similar municipal corporations. The issue here
thus turns on whether the [municipality] is to be
treated as an arm of the State partaking of the
State’s Eleventh Amendment immunity, or is instead
to be treated as a municipal corporation or other
political subdivision to which the Eleventh Amendment does not extend.”) (internal citations omitted).
To determine whether the city defendants are an

139a
arm of the state, the following factors must be
considered:
(1) the State’s potential liability for a
judgment against the entity; (2) the language
by which state statutes and state courts refer
to the entity and the degree of state control
and veto power over the entity’s actions;
(3) whether state or local officials appoint the
board members of the entity; and (4) whether
the entity’s functions fall within the traditional purview of state or local government.
Kreipke v. Wayne State Univ., 807 F.3d 768, 775 (6th
Cir. 2015) (quoting Ernst v. Rising, 427 F.3d 351, 359
(6th Cir. 2005)). The first factor is “the foremost
factor” and given substantial weight. Id. at 776.
As to the first factor, the City of Flint, and not
Michigan, would be liable for any judgment entered
against it while under emergency management.
MICH. COMP. LAWS § 141.1560(5) (funds “shall be
paid out of the funds of the local government that is
or was subject to the receivership administered by
that emergency manager”). The city defendants
argue that they are arms of the state under MICH.
COMP. LAWS § 600.6458(2), because that provision
requires the state to pay the liabilities of an “arm of
the state” if the arm is unable to pay, but this
assumes the conclusion. That the state may be on the
hook for judgments against arms of the state does
not make the City of Flint an arm of the state.
Because this first prong weighs heavily against
finding that the City of Flint is an arm of the state,
the city defendants must make a showing that this
“near-determinative factor” is outweighed by the
other three factors. See Pucci v. Nineteenth Dist.
Court, 628 F.3d 752, 761 (6th Cir. 2010).

140a
But the second factor, regarding who between
the city and state has the most control over the provision of water services, also weighs against finding
that the City of Flint was an arm of the state. The
city defendants argue that the state stripped them of
home rule by appointing an emergency manager, but
under state law, an emergency manager is a municipal agent and thus not subject to the protections of
Eleventh Amendment Immunity. See Kincaid v. City
of Flint, 311 Mich. App. 76, 87-88 (2015). The city
defendants cannot show that they are an arm of the
state, and thus are not protected by the Eleventh
Amendment.
The state defendants (State of Michigan, state
agencies, and state officials in their official capacities) argue that the allegedly injunctive relief plaintiffs seek—repairs to property, a medical monitoring
fund, and a monitor to oversee the water operations
of Flint for a period of time deemed appropriate by
the Court—is in essence retroactive and thus barred
by the Eleventh Amendment. (See, e.g., Dkt. 103 at
30-31.) The individual defendants acknowledge that
suit is brought against them in their official and
unofficial capacities, but insofar as they are sued in
their official capacities, they seek immunity under
the Eleventh Amendment. (See, e.g., Dkt. 104 at 14.)
To obtain relief against the state, plaintiffs must
allege an “ongoing violation of federal law” and seek
“relief properly characterized as prospective,” because the state has not waived sovereign immunity.
Verizon Md., Inc. v. Pub. Serv. Comm’n of Md., 535
U.S. 635, 645 (2002).
The closest plaintiffs come to pleading an
ongoing violation of federal law in the complaint is
alleging that “the damage had been done[,] lead has

141a
continued to leach from pipes into the water,” and
“the water [] continues to poison them.” (See Dkt. 1
at 44, 58.) Even accepting, as plaintiffs argued at the
hearing, that defendants continue to violate the
SDWA and the Lead and Copper Rule (Dkt. 147 at
70), the only remedy available to plaintiffs premised
on a violation of the SDWA and its regulations is the
injunctive relief permitted under the SDWA’s citizensuit provision. The SDWA preempts actions under
§ 1983 for statutory violations of the Act. (See infra
at a.ii.)
In Concerned Pastors for Social Action v. Khouri,
a case brought under the SDWA, the court held that
injunctive relief similar to the relief plaintiffs seek
here was permissible. 194 F. Supp. 3d 589, 603 (E.D.
Mich. 2016). There, the plaintiffs (Concerned Pastors
for Social Action, Melissa Mays, the ACLU of Michigan, and the Natural Resources Defense Council,
Inc.) properly pleaded ongoing violations of the
SDWA and Lead and Copper Rule due to irreversible
damage to Flint’s lead service lines, which thus
continued to leach lead into the drinking water. Id.
at 602-03. The district court held that it could order
the replacement of lead service lines, health-risk
mitigation, and monitoring, among other relief,
because such relief would be prospective injunctive
relief to remedy the ongoing violations of the Act and
its regulations. Id. at 603. The parties ultimately
entered into a comprehensive settlement agreement
providing for most of the equitable relief plaintiffs
seek in this case and much more, and the Court
retains jurisdiction to enforce it. See Concerned
Pastors for Soc. Action v. Khouri, No. 16-cv-10277
(E.D. Mich. terminated Mar. 28, 2017) (Dkts. 147,
152, 154).

142a
Even assuming that plaintiffs have sufficiently
pleaded an ongoing violation of constitutional law, as
opposed to ongoing violations of the SDWA and Lead
and Copper Rule, they seek “equitable relief to
remediate the harm caused” (id. at 88 (emphasis
added)), which is the very relief they are not
permitted to seek against the state under the
Eleventh Amendment. See Verizon Md., Inc., 535
U.S. at 645. Only when the fiscal consequences to the
state are ancillary to a prospective injunction—for
example, enjoining a state from terminating subsistence benefits to indigent individuals without
notice and a hearing in violation of the Due Process
Clause, which undoubtedly results in more money
being paid out of the state fisc, Goldberg v. Kelly, 397
U.S. 254, 271 (1970)—would such fiscal consequences
not violate the Eleventh Amendment. Edelman v.
Jordan, 415 U.S. 651, 667-68 (1974). Here, the fiscal
consequences to the state for paying for property
damage or a medical monitoring fund are not ancillary to enjoining an ongoing violation of federal law.
Plaintiffs’ request for an injunction for a monitor
to oversee the water operations of Flint for a period
of time deemed appropriate by the Court is impermissible for a different reason. Plaintiffs do not
request prospective injunctive relief for which such
monitor could be ordered to provide oversight. All
that remains without the equitable relief of repairs
to plaintiffs’ property and a medical monitoring fund
is declaratory relief, damages, costs, and fees. The
Court would be ordering a monitor to oversee water
operations in Flint without any accompanying
injunction against the municipality that such
monitor would be overseeing, which is not relief that
this Court can order.

143a
Accordingly, plaintiffs’ claims as to defendants
State of Michigan, MDEQ, MDHHS, and the state,
MDEQ, and MDHHS employee defendants in their
official capacities only, must be dismissed. The
claims may proceed against the city defendants in
their official and individual capacities and the state
official defendants in their individual capacities.
iv. Federal Absolute Immunity
The MDEQ employee defendants and defendant
Wurfel argue that they are absolutely immune
because federal law authorized and controlled their
actions, and the absolute immunity afforded federal
officials should be extended to the state officials here.
(See, e.g., Dkt. 102 at 31-32 (citing Butz v. Economou,
438 U.S. 478, 490 (1978)); see Dkt. 70 at 27-29.)
As the case cited by these defendants makes
abundantly clear, federal officials are generally
entitled only to qualified immunity. Butz, 438 U.S. at
507. “[I]n a suit for damages arising from unconstitutional action, federal executive officials exercising
discretion are entitled only to [] qualified immunity
. . . , subject to those exceptional situations where it
is demonstrated that absolute immunity is essential
for the conduct of the public business.” Id. Only officials exercising judicial or quasi-judicial functions,
such as executive action “analogous to those of a
prosecutor” exercising prosecutorial discretion,
“should be able to claim absolute immunity.” See id.
at 515; see also Harlow v. Fitzgerald, 457 U.S. 800,
807 (1982) (absolute immunity is limited to judicial
and quasi-judicial functions).
Nothing about the governmental defendants’
alleged actions in this case indicate they were
performing judicial or quasi-judicial functions.

144a
Defendants highlight the federal SDWA, which
grants wide latitude to the states as the primary
enforcement means of the statute. (See, e.g., Dkt. 102
at 32-33.) The actions that the state actors are
alleged to have taken are the very essence of
“executive officials exercising discretion,” for which
they are entitled only to qualified immunity. See
Butz, 438 U.S. at 507. The motions to dismiss based
on absolute immunity are denied.
v. Whether the Court of Appeals has
exclusive jurisdiction over this case
Defendants City of Flint, Earley, Ambrose, Croft,
and Glasgow argue that this case is effectively an
appeal of the Emergency Administrative Order that
the EPA issued on January 21, 2016, pursuant to its
emergency powers under the SDWA, and such order
is a final order that can only be appealed to the
Court of Appeals under the Act. (See Dkts. 52 at 2021.) According to these defendants, plaintiffs’ relief
requires finding numerous facts that might conflict
with the Administrative Order, and thus amounts to
an appeal of it. (Id. at 20-21.) Plaintiffs respond that
this Court should reject the argument as the court
did in Concerned Pastors for Social Action v. Khouri.
(See, e.g., Dkt. 122 at 25-26.)
In that case, defendants similarly argued that
the plaintiffs’ claims were “an implicit request for
judicial review of the [January 21] EPA order.”
Concerned Pastors for Soc. Action v. Khouri, 194 F.
Supp. 3d 589, 596 (E.D. Mich. 2016). The court
rejected the argument because the relief plaintiffs
sought, although parallel to “the EPA’s directives to
the Flint and Michigan respondents,” and which
might “augment those orders,” was “wholly collateral
to the SDWA’s review provisions.” Id. at 599.

145a
The SDWA’s exclusive review provision is even
less applicable to this case than Concerned Pastors.
The Concerned Pastors plaintiffs brought their case
directly under the SDWA, seeking relief using its
citizen suit provision, see id. at 596, whereas
plaintiffs in this case do not bring any claim under
the SDWA. And like the plaintiffs there, the plaintiffs in our case are “not a party to the action
between the EPA and the City of Flint,” nor are they
“identified as ‘Respondents’ in the EPA’s emergency
order.” Id. at 598. They are “not seeking to enjoin the
EPA Order either explicitly or implicitly.” Id. Federal
statutory provisions providing for exclusive jurisdiction in the Courts of Appeals are meant to “bar
litigants from ‘requesting the District Court to enjoin
action that is the outcome of the agency’s order.’” Id.
at 598-99 (quoting F.C.C. v. ITT World Commc’ns,
Inc., 466 U.S. 463, 468 (1984)). Because the relief
plaintiffs seek would not do so, defendants’ motion to
dismiss on this basis is denied.
b. Whether plaintiffs engage in improper
group pleading under Rule 8 of the
Federal Rules of Civil Procedure
Some defendants argue that plaintiffs engaged in
improper group pleading and thus failed to give
defendants “fair notice of what the . . . claim[s are]
and the grounds upon which [they] rest.” (See, e.g.,
Dkt. 52 at 25-26 (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007); see Dkts. 102 at 29-31, 105
at 18.) The complaint clearly describes the specific
conduct plaintiffs allege as to each individual defendant. Defendants have more than fair notice of the
claims against them, so the motions to dismiss on
this basis are denied.

146a
c. Federal claims
As set forth above, plaintiffs’ claims cannot proceed against the State of Michigan, MDEQ, MDHHS,
or individual state officials in their official capacities
because they have immunity under the Eleventh
Amendment. The remaining governmental defendants and individual state officials in their individual capacities argue they are entitled to qualified
immunity and also that plaintiffs fail to plead any
constitutional claim. The Court undertakes a twostep analysis to determine whether a defendant is
entitled to qualified immunity. First, “viewing the
facts in the light most favorable to plaintiff[s], [the
Court] determine[s] whether the allegations give rise
to a constitutional violation.” See Shreve v. Franklin
Cty., 743 F.3d 126, 134 (6th Cir. 2014). Second, the
Court “assess[es] whether the right was clearly
established at the time of the incident.” See id. The
Court may undertake either step first, with certain
limitations not applicable here, Camreta v. Greene,
563 U.S. 692, 694 (2011); Pearson v. Callahan, 555
U.S. 223, 236 (2009), and addresses each federal
claim in that order.
i. Count 1
In Count 1, plaintiffs bring a § 1983 claim
against defendants City of Flint, Croft, Glasgow,
Snyder, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, and Wurfel, alleging that these
defendants deprived plaintiffs of a property right to
which they are entitled pursuant to a state-created
contract, in violation of substantive due process.5
5 Plaintiffs also bring this claim against the State of Michigan,
MDEQ, and the individual state defendants in their official
[Footnote continued on next page]

147a
According to plaintiffs, these defendants violated
their property right to clean water “when, ceasing to
provide [p]laintiffs with safe, potable water, they
provided [p]laintiffs with poisonous, contaminated
water.” (Dkt. 1 at 64-65.) Although this is a tremendously serious allegation, plaintiffs fail to plead the
existence of a constitutionally protected fundamental
interest, and a substantive due process claim cannot
be based on a state-created contract right alone. The
motions to dismiss this claim are granted.
“[A]n entitlement under state law to water and
sewer service d[oes] not constitute a protectable
property interest for purposes of substantive due
process.” Mansfield Apartment Owners Ass’n v. City
of Mansfield, 988 F.2d 1469, 1476 (6th Cir. 1993)
(quoting Ransom v. Marrazzo, 848 F.2d 398 (3d Cir.
1988)); see Bowers v. City of Flint, 325 F.3d 758, 763
(6th Cir. 2003) (“[M]ost, if not all, state-created contract rights, while assuredly protected by procedural
due process, are not protected by substantive due
process.”) (quotations omitted). Rather, “[s]ubstantive due process protects fundamental interests, not
state-created contract rights.” Thomson v. Scheid,
977 F.2d 1017, 1020 (6th Cir. 1992) (citing Charles v.
Baesler, 910 F.2d 1349 (6th Cir.1990)).
Plaintiffs fail to identify any authority to show
they have a constitutionally protected fundamental
[Footnote continued from previous page]
capacities. As set forth above, plaintiffs’ claims against these
defendants are barred by Sovereign Immunity. Hereinafter,
defendants entitled to Sovereign Immunity are excluded from
any analysis of the merits of a claim in which they are included
by plaintiffs.

148a
interest in clean water. And the Sixth Circuit has
explicitly said that they do not. Because plaintiffs
base this substantive due process claim solely on an
alleged property right to clean water created by a
contract with the state, this claim is dismissed.
ii. Count 2
In Count 2, plaintiffs bring a § 1983 claim
against defendants City of Flint, Croft, Glasgow,
Snyder, Earley, Ambrose, Shekter Smith, Wyant,
Busch, Cook, Prysby, and Wurfel, alleging that these
defendants deprived plaintiffs of a property right to
which they are entitled pursuant to a state-created
contract, in violation of procedural due process.
According to plaintiffs, defendants deprived them of
their contractually based property right to purchase
and receive safe, potable drinking water without
notice or a hearing. (Dkt. 1 at 65-66.) Defendants
argue that plaintiffs fail to plead the existence of a
state-created property interest or that the procedural
protections afforded by the state are constitutionally
infirm. (See, e.g., Dkt. 52 at 29.) Because plaintiffs
fail to plead both, the motions to dismiss this claim
are granted.
To establish a procedural due process violation
under § 1983, plaintiffs must show: (1) that they had
a protected life, liberty, or property interest; (2) that
they were deprived of that protected interest; and
(3) that the state did not afford them adequate procedural rights before depriving them of their protected
interest. Wedgewood Ltd. P’ship I v. Twp. of Liberty,
Ohio, 610 F.3d 340, 349 (6th Cir. 2010).
As noted above, “state-created contract rights”
are “assuredly protected by procedural due process.”
Bowers, 325 F.3d at 763. And other courts have

149a
found that “continued utility service is a property
right within the meaning of the due process clause”
requiring pre-deprivation notice and a hearing.
Bradford v. Edelstein, 467 F. Supp. 1361, 1369 (S.D.
Tex. 1979); see, e.g., Keating v. Neb. Pub. Power Dist.,
562 F.3d 923, 925 (8th Cir. 2009) (reversing district
court dismissal of § 1983 claim when plaintiffs
alleged that “state officials deprived them of their
procedural due process rights when those officials
ordered them to cease drawing water from the
Niobrara Watershed without providing prior notice
or a hearing”); see generally Memphis Light, Gas &
Water Div. v. Craft, 436 U.S. 1, 19 (1978) (“Ordinarily, due process of law requires an opportunity for
‘some kind of hearing’ prior to the deprivation of a
significant property interest.”).
But property interests “are created and their
dimensions are defined by existing rules or understandings that stem from . . . state law.” See Bd. of
Regents v. Roth, 408 U.S. 564, 577 (1972). So, “property interests are created by state law”; “whether a
substantive interest created by the state rises to the
level of a constitutionally protected property interest
is a question of federal constitutional law.” Bowers,
325 F.3d at 765 (quotations omitted). “[O]nly those
interests to which one has a legitimate claim of
entitlement, including but not limited to statutory
entitlements, are protected by the due process
clause.” Id.
Plaintiffs fail to plead that they have a contract
with the state or City of Flint under Michigan law,
and thus fail to establish the first element required
to make out their procedural due process claim. See
Wedgewood Ltd. P’ship I, 610 F.3d at 349. Under
Michigan law, “a contract requires mutual assent.”

150a
Kloian v. Domino’s Pizza, L.L.C., 273 Mich. App. 449,
453 (2006). But there is no mutual assent when a
“transaction between the parties with respect to the
‘exchange’ of money for services was wholly devoid of
free and open bargaining, the hallmark of contractual relationships.” Borg-Warner Acceptance Corp. v.
Dep’t of State, 433 Mich. 16, 22 (1989). Specifically, if
defendant City of Flint is “not legally capable of
declining to” provide water services or “otherwise
altering the basic nature of its duty,” and plaintiffs
cannot choose “not to pay the required fee,” there is
no mutual assent to form a contract. See id.; see, e.g.,
Lufthansa Cargo A.G. v. Cty. of Wayne, 142 F. App’x
265, 266 (6th Cir. 2005) (defendant legally required
to provide service, and charge of fee for service “does
not create an implied contract under Michigan law
absent consideration in return”).
Plaintiffs claim that they “entered into a contract
for the purchase and sale of potable, safe drinking
water” with the “City of Flint.” (Dkt. 1 at 70.) But the
City of Flint, through its City Counsel (and possibly
the emergency managers in this case), sets the rate
for water, see Flint Code of Ord. § 46-52(b)(1), (c)(1),
which residents must pay to receive water service.
See Flint Code of Ord. §§ 46-50, 46-51. And water
service “may be denied to any consumer who is in
default to the Division of Water Supply,” a division of
the Department of Public Works, which suggests
that such service may not be denied if a consumer is
not in default. Id. at §§ 46-16 (emphasis added).
Although Flint Code of Ord. § 46-16 defines plaintiffs
as consumers, water as a commodity, and the
relationship between plaintiffs and Flint as “that of
vendor and purchaser,” there is no “mutuality” as
required by Michigan contract law. See Borg-Warner
Acceptance Corp., 433 Mich. at 22.

151a
And even if plaintiffs had adequately pleaded the
existence of a state-created contract right, they fail to
plead that the procedures afforded them by the state
are constitutionally inadequate. To overcome defendants’ motions to dismiss, plaintiffs must plead with
particularity that the process afforded them under
state law was inadequate, including post-deprivation
damages remedies to redress the alleged breach of
contract. See Vicory v. Walton, 721 F.2d 1062, 1063
(6th Cir. 1983) (“[I]n section 1983 damage suits for
deprivation of property without procedural due
process the plaintiff has the burden of pleading and
proving the inadequacy of state processes, including
state damage remedies to redress the claimed
wrong.”). Plaintiffs do not sufficiently plead that
state procedures were inadequate, so their procedural due process claim is dismissed.
iii. Count 3
In Count 3, plaintiffs bring a § 1983 state-created
danger claim, alleging that all defendants except
Veolia and Lockwood violated their substantive due
process rights. According to plaintiffs, defendants
each acted to expose them to toxic, lead-contaminated water by making, causing to be made, and
causing or making representations that the water
was safe to drink, and these actions and omissions
were objectively unreasonable in light of the facts
and circumstances confronting them. (Dkt. 1 at 6668.)
Defendants argue that plaintiffs fail to plead this
claim because they do not allege an act of violence
inflicted by a third party or danger specific to plaintiffs as opposed to the public at large. (See, e.g., Dkt.
52 at 31.) Plaintiffs respond that it “is illogical to
claim that public officials cannot be held liable for

152a
creating a danger and injuring a plaintiff, whereas
they may be held liable if they created or increased a
risk of harm that was carried out by a private third
party.” (See Dkt. 122 at 37.) Because plaintiffs fail to
plead that defendants subjected them to a special
danger as distinguished from the public at large, the
motions to dismiss this claim are granted.
To prevail on a state-created danger claim, plaintiffs must establish three elements: (1) an affirmative act on the part of the government that creates or
increases the risk to plaintiffs, (2) a special danger to
plaintiffs as distinguished from the public at large,
and (3) the requisite degree of state culpability.
Stiles v. Grainger Cty., 819 F.3d 834, 854 (6th Cir.
2016). Even assuming plaintiffs can establish a
state-created danger claim for harm directly caused
by state actors, as opposed to private third-parties,
plaintiffs fail to show that defendants in this case
created a special danger to plaintiffs as distinguished
from the public at large.
In the Sixth Circuit, the second prong of a statecreated danger claim is satisfied when “the government could have specified whom it was putting at
risk, nearly to the point of naming the possible
victim or victims.” Jones v. Reynolds, 438 F.3d 685,
696 (6th Cir. 2006). But when “the victim was not
identifiable at the time of the alleged state action/
inaction,” the Sixth Circuit holds “that a § 1983 suit
may not be brought under the ‘state created danger’
theory.” Id. at 697.
For example, a plaintiff cannot satisfy this
standard when “officers never interacted with
[decedent],” no “evidence ha[d] been put forward
suggesting that the officers had any reason to know
that they were putting [the plaintiff] at risk by their

153a
action/inaction,” and the crowd plaintiff was among
when she was injured “contained at least 150
people.” Id.; see also Schroder v. City of Fort Thomas,
412 F.3d 724, 729 (6th Cir. 2005) (failing to enforce
or lower the speed limit on a residential street “did
not create a ‘special danger’ to a discrete class of
individuals (of which the [plaintiffs’] son was a
member), as opposed to a general traffic risk to
pedestrians and other automobiles”); Jones v. City of
Carlisle, 3 F.3d 945, 949-50 (6th Cir. 1993) (holding
that an epileptic driver was “no more a danger to
[the plaintiff] than to any other citizen on the City
streets”); Janan v. Trammell, 785 F.2d 557, 560 (6th
Cir. 1986) (holding that the release of an inmate on
parole, who eventually murdered a citizen, did not
violate the Due Process Clause because “there is [no]
showing that the victim, as distinguished from the
public at large, faces a special danger”). Plaintiffs fail
to plead the second element of their state-created
danger claim, so it is dismissed.6
6 It seems there is little difference between the state-created
danger standard of constitutional liability and the shocks-theconscience standard of constitutional liability. See, e.g., Henry v.
City of Erie, 728 F.3d 275, 282 (3d Cir. 2013) (to establish claim
under state-created danger theory, plaintiff must show that “a
state actor acted with a degree of culpability that shocks the
conscience,” among other elements similar to those in the Sixth
Circuit); Jones v. Reynolds, 438 F.3d 685, 695 (6th Cir. 2006)
(state-created danger case citing Cty. of Sacramento v. Lewis,
523 U.S. 833, 849 (1998), which address shocks-the-conscience
standard). Here, plaintiffs could not identify, and the Court
could not independently find, any case law in the Sixth Circuit
in which a state-created danger claim was permitted to proceed
against the government for harm that was caused directly, as
opposed to harm that was caused by a third party. But see
Jones, 438 F.3d at 695 (noting in dicta that “[h]ad the officers
[Footnote continued on next page]

154a
iv. Count 4
In Count 4, plaintiffs bring a § 1983 substantive
due process claim, alleging that all defendants except
Veolia and Lockwood unlawfully violated their fundamental interest in bodily integrity. Defendants
argue that only a forcible physical intrusion into a
person’s body against the person’s will without a
[Footnote continued from previous page]
organized or participated in this race, the issue would cease to
turn on whether they were responsible for harm caused by a
private actor and would turn instead on whether they had
caused the harm themselves”). Given that the state-created
danger theory arises from the Supreme Court’s decision in
DeShaney v. Winnebago County Department of Social Services,
489 U.S. 189 (1989), one way courts of appeals interpret the
doctrine is that liability attaches to the state only “when it fails
to protect [a plaintiff] from third-party harms that it helped
create.” See Barber v. Overton, 496 F.3d 449, 458 n.1 (6th Cir.
2007) (Cook, J., concurring) (quoting Butera v. District of
Columbia, 235 F.3d 637, 651 (D.C. Cir. 2001) (“We join the
other circuits in holding that, under the State endangerment
concept, an individual can assert a substantive due process
right to protection by the District of Columbia from third-party
violence when District of Columbia officials affirmatively act to
increase or create the danger that ultimately results in the
individual’s harm.”)). Because plaintiffs otherwise fail to plead
the elements of a state-created danger claim under the Sixth
Circuit’s formulation, the Court need not decide whether plaintiffs can maintain a state-created danger action against government actors for harm they caused directly; the Court merely
highlights that state-created-danger claims likely collapse into
shocks-the-conscience claims, like that which plaintiffs pursue
in Count 4 of their complaint. See Martinez v. Cui, 608 F.3d 54,
64 (1st Cir. 2010) (“Lewis clarified that the shocks-theconscience test, first articulated in Rochin v. California [],
governs all substantive due process claims based on executive,
as opposed to legislative, action.”) (emphasis in original).

155a
compelling state interest will suffice, and also that
plaintiffs fail to plead that defendants were motivated by malice or sadism. (See, e.g., Dkt. 52 at 3233; see Dkts. 69 at 30-33 and 39-41, 70 at 27-32 and
38-39, 96 at 32-35, 102 at 39-44 and 57-62, 103 at 3336 and 47-52, 105 at 15-16.) Because plaintiffs sufficiently plead that the conduct of many of the individual governmental defendants was so egregious as
to shock the conscience and violate plaintiffs’ clearly
established fundamental right to bodily integrity, the
claim is only dismissed as to defendants Snyder,
Glasgow, and Cook.
“The touchstone of due process is protection of
the individual against arbitrary action of the government,” and the Supreme Court has defined such a
violation as “executive abuse of power as that which
shocks the conscience” in the “constitutional sense.”
Cty. of Sacramento v. Lewis, 523 U.S. 833, 845-46
(1998). To plead this claim against each executive
official in this case, “plaintiffs must show[] not only
that the official’s actions shock the conscience, but
also that the official violated a right otherwise
protected by the substantive Due Process Clause.”
See Martinez v. Cui, 608 F.3d 54, 64 (1st Cir. 2010)
(citing cases).
It has long been held that one’s right to bodily
integrity is a fundamental interest under the Constitution. Union Pac. Ry. Co. v. Botsford, 141 U.S. 250,
251 (1891) (“No right is held more sacred, or is more
carefully guarded by the common law, than the right
of every individual to the possession and control of
his own person, free from all restraint or interference
of others, unless by clear and unquestionable authority of law.”); see Albright v. Oliver, 510 U.S. 266, 272
(1994) (“The protections of substantive due process

156a
have for the most part been accorded to matters
relating to marriage, family, procreation, and the
right to bodily integrity.”). As to the first prong of the
qualified immunity analysis, plaintiffs’ “allegations
give rise to a constitutional violation.” Shreve, 743
F.3d at 134. They have a fundamental interest in
bodily integrity under the Constitution, and, as set
forth below, defendants violated plaintiffs’ fundamental interest by taking conscience-shocking, arbitrary executive action, without plaintiffs’ consent,
that directly interfered with their fundamental right
to bodily integrity. Lewis, 523 U.S. at 845-46; Cui,
608 F.3d at 64; see generally Siegert v. Gilley, 500
U.S. 226, 232 (1991) (“A necessary concomitant to
the determination of whether the constitutional right
asserted by a plaintiff is ‘clearly established’ at the
time the defendant acted is the determination of
whether the plaintiff has asserted a violation of a
constitutional right at all.”). As to the second prong
of the qualified immunity analysis, a series of
Supreme Court cases over the last seventy-five years
makes clear that defendants violated plaintiffs’
clearly established rights.
The Court may consider decisions by the United
States Supreme Court, the Sixth Circuit, and district
courts within the Sixth Circuit to determine whether
the law has been clearly established. Higgason v.
Stephens, 288 F.3d 868, 876 (6th Cir. 2002).
Decisions from other circuits may be considered “if
they ‘point unmistakably to the unconstitutionality
of the conduct complained of and [are] so clearly
foreshadowed by applicable direct authority as to
leave no doubt in the mind of a reasonable officer
that his conduct, if challenged on constitutional
grounds, would be found wanting.’” Barrett v.
Stubenville City Sch., 388 F.3d 967, 972 (6th Cir.

157a
2004) (quoting Ohio Civil Serv. Emps. Ass’n v. Seiter,
858 F.2d 1171, 1177 (6th Cir. 1988)) (alterations in
original).
In 1990, the Court held that the “forcible
injection of medication into a nonconsenting person’s
body represents a substantial interference with that
person’s liberty.” Washington v. Harper, 494 U.S.
210, 229 (1990); see also Cruzan v. Dir. Mo. Dep’t of
Health, 497 U.S. 261, 278 (1990) (“[A] competent
person has a constitutionally protected liberty
interest in refusing unwanted medical treatment.”).
Whether such intrusion is consensual has been a key
consideration in determining the constitutionality of
such invasion of an individual’s person since at least
1942, when the Supreme Court held that the forced
sterilization of adults is unconstitutional. Skinner v.
Oklahoma, 316 U.S. 535, 541 (1942); see also
Winston v. Lee, 470 U.S. 753, 766-67 (1985) (the
potentially harmful, nonconsensual surgical intrusion into a suspect’s chest to recover a bullet without
a compelling need is unconstitutional).
That defendants here violated plaintiffs’ clearly
established right to be free from conscience-shocking,
arbitrary executive action that invades their bodily
integrity without their consent is further exemplified
by courts of appeals’ decisions interpreting these
Supreme Court cases. See, e.g., Barrett v. United
States, 798 F.2d 565, 575 (2d Cir. 1986) (no qualified
immunity, because actions of defendants violated
New York law by administering a “dangerous drug to
human subjects without adequate warning or notice
of the risk involved,” and thus defendants “could be
held responsible in damages for the consequences”);
Lojuk v. Quandt, 706 F.2d 1456, 1465-66 (7th Cir.
1983) (noting that “compulsory treatment with anti-

158a
psychotic drugs may invade a patient’s interest in
bodily integrity, personal security and personal
dignity. . . . , [and] compulsory treatment may invade
a patient’s interest in making certain kinds of
personal decisions with potentially significant
consequences,” in holding that these fundamental
interests are implicated by compulsory electro shock
therapy—“It should be obvious in light of this liberty
interest that the state cannot simply seize a person
and administer [electro shock therapy] to him without his consent”); Rogers v. Okin, 634 F.2d 650, 653
(1st Cir. 1980) (“[A] person has a constitutionally
protected interest in being left free by the state to
decide for himself whether to submit to the serious
and potentially harmful medical treatment that is
represented by the administration of antipsychotic
drugs.”), vacated and remanded Mills v. Rogers, 457
U.S. 291, 303 (1982) (only applies to involuntarily
admitted patients).7
7 See also Wright v. City of Phila., No. 10-1102, 2015 U.S. Dist.
LEXIS 25278, at *37-38 (E.D. Pa. Mar. 2, 2015) (it is clearly
established that the substantive due process right to bodily
integrity is violated when the state allows individuals to suffer
from prolonged asbestos exposure in part because “[t]he health
effects associated with asbestos exposure have been within the
public’s knowledge for years”); Athans v. Starbucks Coffee Co.,
No. CV-06-1841-PHX-DGC, 2007 U.S. Dist. LEXIS 21412, at *9
(D. Ariz. Mar. 23, 2007) (citing Supreme Court, Ninth Circuit,
and Fourth Circuit cases to find that a pro se plaintiff states a
claim by alleging “intentional poisoning” by a government
official); Bounds v. Hanneman, No. 13-266 (JRT/FLN), 2014
U.S. Dist. LEXIS 43947, at *27-29 (D. Minn. Mar. 31, 2014)
(denying qualified immunity because “a reasonable officer
should have known that providing an illicit drug to a citizen,
where such provision was not required by the officer’s
legitimate duties, violates clearly established law”); In re
[Footnote continued on next page]

159a
It would be readily apparent to any reasonable
executive official, given this landscape, that a
government actor violates individuals’ right to bodily
integrity by knowingly and intentionally introducing
life-threatening substances into such individuals
without their consent, especially when such substances have zero therapeutic benefit. Cf. Harper,
494 U.S. at 229 (noting that although “therapeutic
benefits of antipsychotic drugs are well documented,
it is also true that the drugs can have serious, even
fatal, side effects”). This is not a case in which there
are only a “few admittedly novel opinions from other
circuit or district courts,” which would be insufficient
“to form the basis for a clearly established constitutional right.” Barrett, 388 F.3d at 972. The breadth
and depth of the case law “point[s] unmistakably to
the unconstitutionality of the conduct complained of”
here, which was “so clearly foreshadowed by applicable direct authority as to leave no doubt in the mind
of a reasonable officer that his conduct, if challenged
[Footnote continued from previous page]
Cincinnati Radiation Litig., 874 F. Supp. 796, 818 (S.D. Ohio
1995) (“[B]etween 1960 and 1972 the right to due process as
enunciated in Rochin [v. California, 342 U.S. 165 (1952)] was
sufficiently clear to lead a reasonable government official to the
conclusion that forcing unwitting subjects to receive massive
doses of radiation was a violation of due process.”); Thegpen v.
Dillon, No. 88 C 20187, 1990 U.S. Dist. LEXIS 3132, at *9-11
(N.D. Ill. Feb. 1, 1990) (clearly established that “compulsory
treatment with anti-psychotic drugs may invade a patient’s
interest in bodily integrity”); Osgood v. District of Columbia,
567 F. Supp. 1026, 1033 (D.D.C. 1983) (“[t]here is no serious
dispute” that administering psychotropic drugs against an
inmate’s will violated the Due Process Clause of the Fifth
Amendment).

160a
on constitutional grounds, would be found wanting.”
Id. (quoting Seiter, 858 F.2d at 1177).
Taking plaintiffs’ allegations as true and in the
light most favorable to them, as the Court must, the
violation of plaintiffs’ clearly established rights is
adequately pleaded against defendants City of Flint,
Earley, Ambrose, Wyant, Shekter Smith, Busch,
Prysby, Wurfel, Wells, Lyon, Peeler, Scott, and Croft.
Plaintiffs plead (with particularity as to which
defendant did what) that these defendants were the
decision makers responsible for knowingly causing
plaintiffs to ingest water tainted with dangerous
levels of lead, which has no therapeutic benefits, and
hiding the danger from them. The emergency managers and individual state employees switched the
source of Flint’s water from the Detroit River to the
Flint River, then knowingly took deliberate action
that violated federal and state, civil and possibly
even criminal law, which caused the lead levels in
Flint’s water to rise to dangerous levels.8
They knew that their actions were exposing the
residents of Flint, including plaintiffs, to dangerous
levels of lead. Lead poisoning caused plaintiffs to
8 Defendants Earley, Ambrose, Shekter Smith, Busch, Prysby,
Peeler, Scott, and Croft, among others, all face felony and
misdemeanor criminal charges stemming from the Michigan
Attorney General’s Flint Water Investigation. See generally
Flint Water Investigation, STATE OF MICHIGAN ATTORNEY
GENERAL BILL SCHUETTE, http://www.michigan.gov/ag/0,
4534,7-164-78314---,00.html (last visited May 31, 2017). Cf.
Lyons v. Stovall, 188 F.3d 327, 332 n.3 (6th Cir. 1999) (“[I]t is
well-settled that ‘federal courts may take judicial notice of
proceedings in other courts of record’ . . . .”) (quoting Granader
v. Public Bank, 417 F.2d 75, 82-83 (6th Cir. 1969)).

161a
suffer from severe medical problems with their hair,
skin, digestive system, and organs, as well as brain
and other developmental injuries including cognitive
deficits, among other issues. (Dkt. 1 at 65.)
And when the evidence confirmed that, in fact,
the lead levels in the water and in residents’ blood
were rising, these defendants worked to discredit the
evidence and knowingly and proactively made false
statements to the public to persuade residents that
the water was safe to consume. They did so, even
though their own testing revealed the opposite.
Many residents, plaintiffs included, continued to
consume the water in reliance on defendants’ false
assurances.
It cannot be that such actions are not “so
egregious, so outrageous, that [they] may fairly be
said to shock the contemporary conscience.” See
Lewis, 523 U.S. at 847 n.8. Nor can it be said that
reasonable officials would not have had fair notice
that such actions would violate the Constitution, i.e.,
that defendants were violating plaintiffs’ clearly
established right to bodily integrity and to be free
from arbitrary, conscience shocking executive action.
As recently reiterated by the Sixth Circuit, immunity
does not extend to “the plainly incompetent or those
who knowingly violate the law.” Arrington-Bey v.
City of Bedford Heights, No. 16-3317, 2017 U.S. App.
LEXIS 3429, at *8 (6th Cir. Feb. 24, 2017) (quoting
White v. Pauly, __ U.S. __, 137 S. Ct. 548, 551
(2017)). And particularly with respect to the individual governmental defendants who are facing felony
and misdemeanor criminal charges pursuant to the
Michigan Attorney General’s Flint Water Investigation, qualified immunity cannot and should not
protect them from civil liability for the constitutional

162a
violations that are pleaded against them. Id.; see
Barrett, 798 F.2d at 575 (no qualified immunity for
defendants who knowingly violated state criminal
law).
Again, plaintiffs’ involuntariness here is key. See
Riggins v. Nevada, 504 U.S. 127, 137-38 (1992)
(forced administration of antipsychotic medication
during trial violated Fourteenth Amendment);
Harper, 494 U.S. at 229 (“The forcible injection of
medication into a nonconsenting person’s body represents a substantial interference with that person’s
liberty.”); Cruzan, 497 U.S. at 278 (“[A] competent
person has a constitutionally protected liberty
interest in refusing unwanted medical treatment.”);
Rochin v. California, 342 U.S. 165, 172 (1952)
(“Illegally breaking into the privacy of the petitioner,
the struggle to open his mouth and remove what was
there, the forcible extraction of his stomach’s
contents . . . . This is conduct that shocks the
conscience.”). Plaintiffs’ exposure to dangerous levels
of lead was involuntary on two levels.
First, it was involuntary because these defendants hid from plaintiffs that Flint’s water contained
dangerous levels of lead. Misleading Flint’s residents
as to the water’s safety—so that they would continue
to drink the water and Flint could continue to draw
water from the Flint River—is no different than the
“forced, involuntary invasions of bodily integrity that
the Supreme Court has deemed unconstitutional.”
See Heinrich ex rel. Heinrich v. Sweet, 62 F. Supp. 2d
282, 313-14 (D. Mass. 1999) (utilizing false pretenses
to engage patients in participating in radiation treatments with no therapeutic value no different than
“forced, involuntary invasions of bodily integrity that
the Supreme Court has deemed unconstitutional”).

163a
Second, it was involuntary because under state and
municipal law, plaintiffs were not permitted to receive water in any other way. See Flint Code of Ord.
§§ 46-25, 46-26, 46-50(b). The city defendants themselves make this argument. (See Dkt. 52 at 37.) Even
had plaintiffs wanted to receive water from a different source, they would not have been permitted to.
Defendants claim they had a legitimate state
interest in lowering the cost of Flint’s water services.
Accepting that as true, any such cost-cutting
measure cannot justify the harm that was knowingly
inflicted on plaintiffs without their consent. This is
especially so given that Michigan law “forbids the
price [of any water sold] to exceed[] ‘the actual cost of
service as determined under the utility basis of ratemaking.’” Davis v. City of Detroit, 269 Mich. App.
376, 379 (2006) (quoting MICH. COMP. LAWS
§ 123.141).
The alleged actions of defendants City of Flint,
Earley, Ambrose, Wyant, Shekter Smith, Busch,
Cook, Prysby, Wurfel, Wells, Lyon, Peeler, Scott, and
Croft are so egregious that “[e]ven absent the abundant case law that has developed on this point since
the passage of the Bill of Rights, the Court would not
hesitate to declare that a reasonable government
official must have known that by instigating and
participating in” the knowing provision of lead-laden
water and then intentional and active concealment of
this truth to the residents of Flint, who were not
legally permitted to obtain alternative water service,
“he would have been acting in violation of those
rights.” See In re Cincinnati Radiation Litig., 874 F.
Supp. at 815. For these reasons, the motions to
dismiss are denied as to these defendants.

164a
Plaintiffs fail to plead with particularity that
defendant Snyder was directly responsible for being
involved in the decision making himself—rather,
according to plaintiffs, he should be responsible
because he appointed the emergency managers who
are also defendants in this case. And they plead that
defendant Glasgow argued that if “water is
distributed from this plant in the next couple of
weeks, it w[ould] be against [his] direction,” but that
“management above” overrode him. Finally, plaintiffs plead that defendant Cook was involved in the
decision to switch to Flint River water without
proper study or corrosion control, but fail to plead
that he was involved in misleading the public after it
became apparent that lead was rising to dangerous
levels in the drinking water. Plaintiffs fail to allege
that these three defendants violated clearly established law, so Count 4 must be dismissed as to them.
d. State claims
The governmental defendants argue that they
have state statutory immunity for violations of state
tort law and that plaintiffs otherwise fail to plead the
state-law claims. Defendants Veolia and Lockwood
argue that plaintiffs fail to plead their claims and
that certain relief plaintiffs seek is unavailable in
Michigan. The arguments are addressed in that
order.
i.

Whether the governmental defendants have state statutory immunity
for violations of state tort law

Under MICH. COMP. LAWS § 691.1407, “a
governmental agency is immune from tort liability if
the governmental agency is engaged in the exercise
or discharge of a governmental function,” id. at

165a
§ 691.1407(1), and “the elective or highest appointive
executive official of all levels of government are
immune from tort liability for injuries to persons or
damages to property if he or she is acting within the
scope of his or her . . . executive authority.” Id. at
§ 691.1407(5).
As to lower level government employees, “each
officer and employee of a governmental agency . . . is
immune from tort liability for an injury to a person
or damage to property caused by the officer[ or]
employee . . . while in the course of employment or
service . . . while acting on behalf of a governmental
agency if all of the following are met: (a) [the officer
or employee] is acting or reasonably believes he or
she is acting within the scope of his or her authority”; “(b) [t]he governmental agency is engaged in
the exercise or discharge of a governmental function”; and (c) the officer’s or employee’s “conduct does
not amount to gross negligence that is the proximate
cause of the injury or damage.” Id. at § 691.1407(2).
For such lower level employees, Michigan case
law requires not only that the employee be grossly
negligent, but also that the employee’s actions were
the proximate cause of the injury for a tort claim to
proceed. An employee’s action is the proximate cause
of the injury if it is “the one most immediate, efficient, and direct cause, of the [plaintiffs]’ injuries.”
Robinson v. City of Detroit, 462 Mich. 439, 446
(2000). “There cannot be other more direct causes of
plaintiff’s injuries.” White v. Roseville Pub. Schs., No.
307719, 2013 Mich. App. LEXIS 342, at *10 (Mich.
Ct. App. Feb. 21, 2013). If no reasonable juror could
find that a lower level official was “the one most
immediate” cause of plaintiffs’ injuries, the claims as

166a
to those officials must be dismissed. Robinson, 462
Mich. at 463.
The exception to the immunity statute is when
plaintiffs seek “to recover for bodily injury or
property damage arising out of the performance of a
proprietary function.” MICH. COMP. LAWS § 691.1413.
A proprietary function is “any activity which is
conducted primarily for the purpose of producing a
pecuniary profit for the governmental agency,
excluding, however, any activity normally supported
by taxes or fees.” Id.
Plaintiffs argue that the governmental defendants are not entitled to governmental immunity
because their primary purpose in selling water to
plaintiffs was to produce a pecuniary profit for the
state and its agencies, and the municipalities’ and
state’s sale of water is not normally supported by
taxes and fees. (Dkt. 1 at 85.)
Michigan courts have held that the “operation of
the water department is not a proprietary activity,”
i.e., is not excepted from governmental immunity, in
part because Michigan law “requires the price of any
water sold to be based on, and forbids the price to
exceed, ‘the actual cost of service as determined
under the utility basis of rate-making.’” Davis v. City
of Detroit, 269 Mich. App. 376, 379 (2006) (quoting
MICH. COMP. LAWS § 123.141). Thus, the proprietary
function exception to state governmental immunity
does not apply.
Aside from making the proprietary function/nongovernmental function argument, plaintiffs seem to
concede that the emergency managers are the
highest appointed executive officials of the city. The
tort claims against the emergency managers are thus

167a
dismissed. So too for defendant Croft, Flint’s Director
of the Department of Public Works.
Similarly, the MDEQ employee defendants argue
that defendant Shekter Smith is entitled to absolute
immunity as the highest appointed executive official
of her agency—she is the Chief of the Office of
Drinking Water and Municipal Assistance for
MDEQ. MICH. COMP. LAWS § 691.1407(5). Defendant
Wyant, as the former Director of MDEQ, also claims
absolute immunity from the tort claims (Dkt. 69 at
22), as does defendant Wurfel, as the Director of
Communications of MDEQ. (Dkt. 70 at 40.) Plaintiffs
do not argue that any of these defendants are not the
highest appointed or elected officials of their levels of
government. Rather, plaintiffs argue that none of the
MDEQ employee defendants are absolutely immune
because they “knowingly l[ied] to EPA and the public
as ‘performing oversight,’ and the lies alleged [] did
not serve the ends of regulatory oversight”; because
they used their office for an illegitimate purpose,
according to plaintiffs, they are not entitled to
immunity. (Dkt. 123 at 46-50.)
But whether something is considered a governmental function is defined by the general activity
performed, not the specific conduct of the individual
employees. Smith v. State, 428 Mich. 540, 608 (1987).
Michigan courts would find that these MDEQ
employee defendants were performing a governmental function, so they are entitled to immunity under
the state immunity statute. The tort claims against
defendants Shekter Smith, Wyant, and Wurfel are
thus dismissed.
Finally, the State Defendants argue that defendants Snyder, Lyon, and Wells are entitled to absolute immunity under the state immunity statute.

168a
(See Dkt. 103 at 21.) Because under Michigan law
they are the highest “elective or highest appointive
executive official” of their departments (see Dkt. 144
(defendant Wells entitled to absolute immunity)),
and they were acting in the scope of their executive
authority, the tort claims against them are
dismissed.
As to defendant Glasgow, a lower level employee,
no reasonable jury could find that he is the one
defendant most directly responsible for plaintiffs’
harm. Plaintiffs allege that defendant Glasgow
stated “[i]f water is distributed from this plant in the
next couple of weeks, it w[ould] be against [his]
direction,” because he “need[ed] time to adequately
train additional staff and to update [MDEQ’s] monitoring plans before [he would] feel [MDEQ was]
ready.” (Dkt. 1 at 22.) They allege that defendant
Glasgow stated “management above” seemed “to
have their own agenda.” (Id.) At the very least, the
“management above” would be more directly responsible for plaintiffs’ harms. Thus, the tort claims are
also dismissed as to defendant Glasgow.
And defendants Prysby (an engineer at MDEQ),
Cook (a water treatment specialist at MDEQ), and
Busch (the district supervisor for MDEQ), are lower
level employees nonetheless entitled to immunity. As
with defendant Glasgow, even if plaintiffs sufficiently pleaded that defendants Prysby, Cook, and
Busch were grossly negligent, reasonable jurors
could not find that any one of them was the proximate cause of plaintiffs’ injuries. As alleged, defendants “Cook, Busch, and Prysby were undeniably
aware that no corrosion control was being used in
Flint” by “no later than April 2015.” (Dkt. 1 at 34.)
This was long after the water allegedly began to

169a
harm plaintiffs. Plaintiffs say it was “likely much
earlier,” but this is insufficient to show that defendants Cook, Busch, and Prysby were the proximate
cause of their injuries. Thus, the state tort claims
against them are dismissed.
Finally, even accepting as true that plaintiffs
sufficiently allege Nancy Peeler, a lower level
employee at MDHHS, acted with gross negligence,
plaintiffs fail to show that she was the proximate
cause of their injuries. Taking plaintiffs’ allegations
as true, defendant Peeler, at all relevant times an
MDHHS employee in charge of its childhood lead
poisoning prevention program, participated in,
directed, and oversaw the Department’s efforts to
hide information to save face, and to obstruct the
efforts of outside researchers. (Dkt. 1 at 12-13.) And
she tried to generate evidence that there was no lead
contamination problem, even when her own
Department had data that verified outside evidence
to the contrary. (Id. at 13.) Moreover, when MDHHS
epidemiologist Cristin Larder emailed defendant
Peeler, among others, noting an increase in blood
lead levels in Flint just after the switch and concluding that the issue “warrant[ed] further investigation,” Peeler attributed it to seasonal variation. (Id.
at 48.) But given that lead levels were already rising
in plaintiffs’ blood by the time Peeler is alleged to
have acted, Michigan courts would likely hold that a
reasonable juror could not find that she was the
proximate cause of the harm. Thus, the claims
against her must be dismissed.9
9 Plaintiffs do not directly address defendant Scott, but they
similarly fail to plead how he—a data manager at MDHHS who
attempted to refute outside evidence of rising lead levels—is the
[Footnote continued on next page]

170a
Plaintiffs argue that dismissal is premature, and
“it should be sufficient that [d]efendant’s alleged
actions, taken as true . . . , could be ‘the’ proximate
cause of the Flint crisis.” (Dkt. 121 at 30.) But it is
not enough to say any defendant’s actions were
“among” those that caused plaintiffs’ harm. (Id.)
Rather, the test is whether a jury could reasonably
find, if plaintiffs proved their allegations, that a
defendant, individually, was the most direct cause of
the harm.
As this case highlights, the more governmental
actors that are involved in causing a massive tort in
Michigan, the less likely it is that state tort claims
can proceed against the individual government
actors, given the way the state immunity statute
operates. Because the harm that befell plaintiffs was
such a massive undertaking, and took so many
government actors to cause, the perverse result is
that none can be held responsible under state tort
law, at least based on plaintiffs’ pleadings; it is
nearly impossible to point to any one of the
defendants as the most proximate cause of plaintiffs’
injuries. White, 2013 Mich. App. LEXIS 342, at *10
(“There cannot be other more direct causes of
plaintiff’s injuries.”).
It is plaintiffs’ burden to plausibly plead who was
most directly responsible for the harm. They fail to
do so here, so all of the lower-level governmental
employees are immune from plaintiffs’ state tort
claims. Accordingly, plaintiffs’ Counts 7 (nuisance), 8
[Footnote continued from previous page]
proximate cause of plaintiffs’ injuries. The state tort claims as
to defendant Scott are thus dismissed.

171a
(trespass), 12 (gross negligence), 13 (intentional
infliction of emotional distress), and 14 (negligent
infliction of emotional distress) are dismissed as to
all remaining governmental defendants, based on
state statutory immunity.
ii. Breach of contract
In Count 5, plaintiffs allege that defendants City
of Flint and State of Michigan breached the contract
defendants had with plaintiffs for the sale and
purchase of safe, potable water. As set forth above,
plaintiffs fail to sufficiently plead that they had such
a contract under Michigan law. See supra III.c.ii.
Plaintiffs [sic] claim for breach of contract is thus
dismissed.
iii. Breach of implied warranty
In Count 6, plaintiffs allege that defendants City
of Flint and State of Michigan are liable for a breach
of implied warranty. According to plaintiffs, these
defendants directly or impliedly promised to provide
water that was fit for human consumption and later
admitted that the water supplied was contaminated
and thus not fit for human consumption, in breach of
implied warranty. (Dkt. 1 at 71-72.)
Defendants argue that the implied warranty
claim must fail, because implied warranty claims
exist only under Michigan’s version of the UCC and
such a contract would be one for services, but the
UCC only applies to contracts for goods. Defendants
also argue that even if the UCC did apply here,
plaintiffs failed to comply with the UCC’s notice
requirements for bringing an implied warranty
claim. (Dkt. 52 at 39.) Plaintiffs implicitly agree,
arguing that the state’s UCC would never “apply to
the supply of public drinking water to consumers.”

172a
(Dkt. 122 at 45.) And they fail to establish, and do
not even argue, that implied warranty claims exist
outside the UCC. (Id. at 44-46.)
“Warranties of merchantability and fitness for a
particular purpose are, by their nature, inapposite to
a contract for services like that at issue here.” De
Valerio v. Vic Tanny Int’l, 140 Mich. App. 176, 180
(1984). Plaintiffs could not provide, in their briefs or
at the hearing, and the Court could not independently find, any Michigan case law in which implied
warranty claims were adjudicated as to contracts for
services. Because breach of implied warranty claims
exist only under the Michigan UCC, and the alleged
contract here (which, as set forth above, does not
actually exist) would be one for services and not
goods for which the state’s UCC is inapplicable,
plaintiffs’ breach of implied warranty claim is
dismissed.
iv. Nuisance
Plaintiffs allege that all defendants are liable for
nuisance, because they caused lead-contaminated
water to be delivered to plaintiffs’ homes, which
substantially and unreasonably interfered with their
comfortable living and ability to use and enjoy their
homes. (Dkt. 1 at 72-73.)
As noted above, all of the governmental defendants are entitled to immunity from state tort liability. That leaves the private defendants. Defendants
Veolia and Lockwood argue that the claim fails
because they did not control the nuisance. (Dkts. 50
at 14-16, 59 at 19-22.)
To plead a private nuisance claim in Michigan
(plaintiffs only respond to the motions to dismiss as
to private nuisance, so we need not address public

173a
nuisance claims), plaintiffs must show that
defendants committed “a nontrespassory invasion of
[their] interest in the private use and enjoyment of
land.” Adkins v. Thomas Solvent Co., 440 Mich. 293,
302 (1992). Plaintiffs must show that defendants
were “in control, either through ownership or otherwise,” which “must be something more than merely
issuing a permit or regulating activity on the property which gives rise to the nuisance.” McSwain v.
Redford Twp., 173 Mich. App. 492, 498 (1988). Put
differently, Michigan courts do not impose liability
when a “defendant has not either created the
nuisance, owned or controlled the property from
which the nuisance arose, or employed another to do
work which he knows is likely to create a nuisance.”
Id. at 499.
Plaintiffs argue that “control” is satisfied because
defendants Veolia and Lockwood had the “power to
prevent the injury.” (Dkt. 117 at 22.) But the case
cited by plaintiffs for this proposition—a defective
premises case—holds that the “power to prevent the
injury . . . rests primarily upon him who has control
and possession” of the premises. Sholberg v. Truman,
496 Mich. 1, 10-11 (2014). Plaintiffs’ argument
assumes the conclusion. To plead their claim, plaintiffs are required to sufficiently allege that Veolia or
Lockwood had sufficient control and possession of the
premises to establish that either had the power to
prevent the injury.
Plaintiffs plead that Lockwood, “an engineering
firm, was hired to prepare Flint’s water treatment
plant for the treatment of new water sources.” According to plaintiffs, they were “responsible for providing engineering services to make Flint’s inactive
water treatment plant sufficient to treat water from

174a
each of its new sources.” Plaintiffs elsewhere note
that Lockwood was “the consultant.” (Dkt. 1 at 21.)
Plaintiffs plead that Veolia “was hired to conduct
a review of the City’s water quality, largely in
response to citizen complaints.” Veolia’s “task was to
review Flint’s public water system, including
treatment processes, maintenance procedures, and
actions taken.” According to plaintiffs, “Veolia had an
opportunity to catch what [d]efendant [Lockwood]
had missed or refused to warn about.” However,
Veolia concluded that the water was “in compliance
with . . . state and federal standards and required
testing.” (Id. at 31.)
Because control under Michigan law “must be
something more than merely issuing a permit or
regulating activity on the property,” see McSwain,
173 Mich. App. at 498, defendants Veolia and
Lockwood, in their role as consultants and advisors,
cannot be held liable for the alleged nuisance. Their
“control” is even less than that of a regulating or
permit-granting authority. Moreover, plaintiffs plead
that defendant MDEQ was “Flint’s ‘primacy agency,’”
and thus “responsible for ensuring that Flint set
water quality standards and properly treated its
water” (Dkt. 1 at 25), further undercutting their
argument that defendants Veolia and Lockwood were
in control of the nuisance. The claim is therefore
dismissed.
v. Trespass
Plaintiffs allege that all defendants are liable for
trespass, because they willfully caused contaminants
to enter plaintiffs’ property and plaintiffs’ bodies.
(Dkt. 1 at 74.) Again, because the governmental
defendants are immune from state tort liability, this

175a
claim remains only as to defendants Veolia and
Lockwood. Defendants Veolia and Lockwood argue
that the claim fails because they did not intentionally invade plaintiffs’ land with a tangible object.
(See Dkts. 50 at 16, 59 at 22.)
In Michigan, “claims of trespass and nuisance
are difficult to distinguish and include overlapping
concepts.” Traver Lakes Cmty. Maint. Ass’n v.
Douglas Co., 224 Mich. App. 335, 344 (1997). But
Michigan courts have “recognized a desire to
‘preserve the separate identities of trespass and
nuisance,” Wiggins v. City of Burton, 291 Mich. App.
532, 555 (2011), and thus trespass requires “proof of
an unauthorized direct or immediate intrusion of a
physical, tangible object onto land over which the
plaintiff has a right of exclusive possession.” Adams
v. Cleveland-Cliffs Iron Co., 237 Mich. App. 51, 67
(1999). When “the possessor of land is menaced by
noise, vibrations, or ambient dust, smoke, soot, or
fumes, the possessory interest implicated is that of
use and enjoyment, not exclusion, and the vehicle
through which a plaintiff normally should seek a
remedy is the doctrine of nuisance.” Id.
Put differently, although the intrusion of particulate matter may give rise to a claim of nuisance, the
“tangible object” requirement for trespass is not met
by such intrusion. Id. at 69. This is so because particulate matter “simply become[s] a part of the ambient circumstances of th[e] space.” Id. Plaintiffs argue
that they are permitted to plead in the alternative,
and defendants actions “either constitute[] a nuisance or trespass.” (Dkt. 117 at 23.) But for different
reasons, plaintiffs fail to plead either.
Even if particulate matter were sufficient to
satisfy the tangible object requirement to plead a

176a
trespass in Michigan, plaintiffs fail to plead that
Veolia and Lockwood intended for the particulate
matter to invade plaintiffs’ property. “Trespass is an
intentional tort, meaning it is based on an
intentional act,” specifically requiring “an intentional
and unauthorized invasion.” Swiderski v. Comcast
Cablevision of Shelby, Inc., No. 227194, 2002 Mich.
App. LEXIS 806, at *8 (Mich. Ct. App. June 4, 2002).
For these reasons, plaintiffs’ claim of trespass is
dismissed.
vi. Unjust enrichment
Plaintiffs allege that defendants City of Flint and
State of Michigan received the benefits of funds paid
by plaintiffs for water, that they utilized these funds
for the government, and that retaining the benefit of
these funds would be unjust. (Dkt. 1 at 75.)
Defendant City of Flint argues that an unjust
enrichment claim is a tort claim, and thus governmental immunity applies. (Dkt. 52 at 46.) Defendant
cites one case in which the Michigan Court of
Appeals characterizes tort claims to include “common
law misappropriation and unjust enrichment.” See
Polytorx v. Univ. of Mich. Regents, Nos. 318151,
320989, 2015 Mich. App. LEXIS 939, at *19 (Mich.
Ct. App. May 7, 2015). But that case was about the
statute of limitations. Id. (holding that there is a
three-year statute of limitations); see, e.g., Trudel v.
City of Allen Park, Nos. 304507, 304567, 312351,
2013 Mich. App. LEXIS 1855, at *49 (Mich. Ct. App.
Nov. 14, 2013) (citing MICH. COMP. LAWS § 600.5813).
The Michigan Supreme Court has held that “‘tort
liability’ as used in [MICH. COMP. LAWS §]
691.1407(1) encompasses all legal responsibility arising from noncontractual civil wrongs for which a

177a
remedy may be obtained in the form of compensatory
damages.” Mick v. Kent Cty. Sheriff’s Dep’t (In re
Estate of Bradley), 494 Mich. 367, 397 (2013); see id.
at 409 (McCormack, J., dissenting) (“[U]njust enrichment . . . . is based on principles of equity; it sounds
in neither contract nor tort, yet it shares characteristics of both.”). And unjust enrichment claims are
equitable claims only available when there is no
express contract. But plaintiffs could not identify,
and this Court could not independently find, any
case in which Michigan statutory immunity was
extended to state actors for claims of unjust
enrichment.
Whether the governmental defendants are
entitled to immunity from unjust enrichment claims
is a complicated and unsettled area of state law.
Accordingly, the Court declines to exercise jurisdiction over this claim. 28 U.S.C. § 1367(c)(1) (“The
district courts may decline to exercise supplemental
jurisdiction over a claim . . . [if] the claim raises a
novel or complex issue of State law.”); see, e.g.,
Arrington v. City of Raleigh, 369 F. App’x 420, 423
(4th Cir. 2010) (district court abused discretion by
retaining jurisdiction over claim involving “state law
immunity issues [that] are both novel and complex”).
vii. Negligence/professional negligence/
gross negligence against defendant
Veolia
Plaintiffs allege that defendant Veolia, by agreeing to work for defendant City of Flint on the switch
from the Detroit River to the Flint River as its
municipal water source, undertook a duty to plaintiffs and carelessly and negligently caused plaintiffs’
harm. (Dkt. 1 at 75-76.)

178a
Defendant Veolia argues that there is no
independent cause of action for gross negligence in
Michigan, and ordinary negligence claims cannot be
brought against Veolia as professionals, thus only
the professional negligence claim is proper. (Dkt. 50
at 20.) Veolia does not argue that the professional
negligence claim should be dismissed as a matter of
law.
Defendant Veolia is correct that “gross negligence is not an independent cause of action under
Michigan law.” Buckner v. Roy, No. 15-cv-10441,
2015 U.S. Dist. LEXIS 108371, at *23 (E.D. Mich.
Aug. 18, 2015). Plaintiffs do not adequately address
Veolia’s argument that gross negligence is used as a
standard in certain types of claims rather than an
independent cause of action, instead stating in
conclusory terms that they have sufficiently alleged
an action for gross negligence. (See Dkt. 117 at 19.)
In Michigan, gross negligence is used as a standard for a plaintiff’s tort claim to proceed against a
defendant with whom the plaintiff has signed a
waiver of liability. See Xu v. Gay, 257 Mich. App.
263, 269 (2003) (“A contractual waiver of liability
also serves to insulate against ordinary negligence,
but not gross negligence.”). The case plaintiffs cite to
support their argument that gross negligence is an
independent claim is merely an application of this
principal. See Sa v. Red Frog Events, LLC, 979 F.
Supp. 2d 767, 778-79 (E.D. Mich. 2013) (waiver of
liability did not apply because plaintiff adequately
pleaded gross negligence). Because gross negligence
is not an independent cause of action in Michigan,
the claim is dismissed.
As to ordinary negligence, Veolia argues that
because plaintiffs’ claim arises from actions taken in

179a
“the course of a professional relationship” and raises
questions of its professional judgment “beyond the
realm of common knowledge and experience,” the
claim is one of professional negligence. (Dkt. 50 at
20-21 (citations omitted).) According to Veolia, the
ordinary negligence claim is precluded because
Veolia is sued as a water treatment professional. (Id.
at 21.) Veolia quotes plaintiffs’ allegations, which
identify Veolia as a “professional engineering
service[]” that was required to “exercise independent
judgment . . . in according with sound professional
practices.” (Id. at 22.)
Plaintiffs respond that they have plausibly
alleged that Veolia violated both standards of care—
that of a reasonable person and that of a reasonable
professional—and thus both claims should remain.
(Dkt. 117 at 20-21.)
The cases Veolia cites are generally medical
malpractice cases, which are distinct from plaintiffs’
negligence claim here. In Michigan, malpractice
actions do not include actions against engineers.
Nat’l Sand, Inc. v. Nagel Constr., Inc., 182 Mich.
App. 327, 340 (1990). Rather, even assuming a
“malpractice” action could be brought against an
engineer, it would simply mean that ordinary “negligence by an engineer is malpractice,” not “that an
action against engineer is a malpractice action.” Id.
at 339; see, e.g., Bacco Constr. Co. v. Am. Colloid Co.,
148 Mich. App. 397, 416 (1986) (sustaining ordinary
negligence action against engineer for harm caused
by miscalculations).
The professional negligence claim is dismissed.
Because Veolia does not argue that plaintiffs otherwise fail to sufficiently plead an ordinary negligence
claim, the claim survives.

180a
viii. Negligence/professional negligence/
gross negligence against defendant
Lockwood
Plaintiffs make the same negligence/professional
negligence/gross negligence claims against defendant
Lockwood as they make against defendant Veolia,
and defendant Lockwood makes similar arguments
as those made by defendant Veolia in its motion to
dismiss. (See Dkt. 59 at 25-26.) For the same reasons
as those set forth above, the professional negligence
and gross negligence claims are dismissed but the
ordinary negligence claim survives.
ix. Punitive damages/joint and several
liability
Defendants Veolia and Lockwood argue that
punitive damages are not recoverable in Michigan
unless authorized by statute, which is not the case
here, and thus plaintiffs’ request for such damages
must be barred. (Dkts. 50 at 20, 59 at 26.) Plaintiffs
respond indirectly, arguing that exemplary damages
are permitted. (Dkts. 50 at 24-25, 59 at 20-21.)
Punitive damages “are generally not recoverable
in Michigan” with the exception of when “they are
expressly authorized by statute.” Casey v. Auto
Owners Ins. Co., 273 Mich. App. 388, 400 (2006). And
when a plaintiff does not identify “any statute that
would grant them punitive damages,” dismissal of a
request for punitive damages is proper. Id. Plaintiffs
do not do so here, so their request for punitive
damages is dismissed.
Plaintiffs are correct, though, as to exemplary
damages; “exemplary damages are distinct from
punitive damages and are designed to compensate
plaintiffs for humiliation, outrage, and indignity

181a
resulting from a defendant’s wilful, wanton, or
malicious conduct.” Fellows v. Superior Prods. Co.,
201 Mich. App. 155, 158 (1993) (quotations omitted).
Rather than punishment for bad acts, for which
punitive damages are awarded, exemplary damages
are intended to compensate for emotional harms that
are not adequately compensated by pecuniary or
compensatory damages. Id. Although the punitive
damages request should be dismissed, plaintiffs may
be entitled to exemplary damages. Their request for
exemplary damages may proceed.
Defendant Veolia also argues that plaintiffs cannot recover joint-and-several liability in Michigan.
(Dkt. 50 at 27.) Michigan has replaced joint-andseveral liability with fair-share liability. See Smiley
v. Corrigan, 248 Mich. App. 51, 55 (2001). Plaintiffs
concede the point. (Dkt. 117 at 12.) Thus, any claim
for joint-and-several liability is dismissed.
IV. Conclusion
For the reasons set forth above, the motions to
dismiss (Dkts. 50, 52, 59, 69, 70, 96, 102, 103, 105)
are each GRANTED IN PART and DENIED IN
PART.
Plaintiffs’ Counts 1 (substantive due process
property claim), 2 (procedural due process property
claim), 3 (substantive due process state-created
danger claim), 5 (breach of contract claim), 6 (breach
of implied warranty claim), 7 (nuisance claim), 8
(trespass claim), 12 (gross negligence claim), 13
(IIED claim), and 14 (NIED claim) are DISMISSED
WITH PREJUDICE.
Plaintiffs’ Count 4 (substantive due process
bodily integrity claim) is DISMISSED WITH
PREJUDICE as to defendants Shekter Smith, Busch,

182a
Prysby, Wurfel, Wells, Lyon, and Peeler in their
official capacities. Count 4 is DISMISSED WITH
PREJUDICE as to defendants State of Michigan,
MDHHS, MDEQ, Snyder, Cook, and Glasgow in its
entirety.
The Court declines to exercise supplemental
jurisdiction over Count 9 (unjust enrichment claim),
so it is DISMISSED WITHOUT PREJUDICE.
Plaintiffs’ Counts 10 and 11 (professional negligence and gross negligence claims) are DISMISSED
WITH PREJUDICE.
Plaintiffs’ Count 15 (proprietary function claim)
is not an independent cause of action, and so is
DISMISSED WITH PREJUDICE.
Accordingly, plaintiffs’ Count 4 (substantive due
process bodily integrity claim) may proceed against
defendants City of Flint, Earley, Ambrose, Wyant,
and Croft, and defendants Shekter Smith, Busch,
Prysby, Wurfel, Wells, Lyon, and Peeler in their
individual capacities. Plaintiffs’ Counts 10 and 11
(ordinary negligence claims) may proceed against
defendants Veolia and Lockwood, respectively.
IT IS SO ORDERED.
Dated: June 5, 2017
Ann Arbor, Michigan

s/Judith E. Levy
JUDITH E. LEVY
United States
District Judge

CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing
document was served upon counsel of record and any
unrepresented parties via the Court’s ECF System to
their respective email or First Class U.S. mail

183a
addresses disclosed on the Notice of Electronic Filing
on June 5, 2017.
s/Felicia M. Moses
FELICIA M. MOSES
Case Manager

184a
RECOMMENDED FOR FULL-TEXT
PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0093p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________________
SHARI GUERTIN, individually and
Nos. 17-1699
as next friend of her child, E.B., a
/1745
minor; DIOGENES MUSE-CLEVELAND,
Plaintiffs-Appellees,
v.
STATE OF MICHIGAN, et al.,
Defendants,
CITY OF FLINT, MICHIGAN, HOWARD
CROFT, DARNELL EARLEY, and
GERALD AMBROSE (17-1699); LIANE
SHEKTER-SMITH, DANIEL WYANT,
STEPHEN BUSCH, MICHAEL PRYSBY,
and BRADLEY WURFEL (17-1745),
Defendants-Appellants.
Appeal from the United States District Court for
the Eastern District of Michigan at Ann Arbor.
No. 5:16-cv-12412—Judith E. Levy, District
Judge.
Decided and Filed: May 16, 2019
Before: McKEAGUE, GRIFFIN, and WHITE,
Circuit Judges.
_________________

185a
COUNSEL
ON PETITION FOR REHEARING EN BANC:
Frederick A. Berg, Jr., Sheldon H. Klein, BUTZEL
LONG, P.C., Detroit, Michigan, Alexander S. Rusek,
WHITE LAW PLLC, Okemos, Michigan, William Y.
Kim, CITY OF FLINT, Flint, Michigan, Barry A.
Wolf, LAW OFFICE OF BARRY A. WOLF PLLC,
Flint, Michigan, for Appellants in 17-1699. John J.
Bursch, BURSCH LAW PLLC, Caledonia, Michigan,
Philip A. Grashoff, Jr., KOTZ SANGSTER
WYSOCKI P.C., Bloomfield Hills, Michigan,
Thaddeus E. Morgan, Michael H. Perry, FRASER
TREBILCOCK, Lansing, Michigan, Charles E.
Barbieri, Allison M. Collins, FOSTER, SWIFT,
COLLINS & SMITH, P.C., Lansing, Michigan, Jay
M. Berger, Michael J. Pattwell, CLARK HILL PLC,
Lansing, Michigan, for Appellants in 17-1745. ON
RESPONSE: Steven Hart, HART, MCLAUGHLIN
& ELDRIDGE, LLC, Chicago, Illinois, John Sawin,
SAWIN LAW FIRM, LTD., Chicago, Illinois, Paul T.
Geske, MCGUIRE LAW, P.C., Chicago, Illinois, for
Appellees. ON BRIEF: Samuel R. Bagenstos, Ann
Arbor, Michigan, for Amici Curiae.
GIBBONS, J. (pg. 3), delivered a separate
concurring opinion in which STRANCH, J., joined.
SUTTON, J. (pp. 4–10), delivered a separate
concurring opinion in which BUSH, J., joined.
KETHLEDGE, J. (pp. 11–13), delivered a separate
dissenting opinion in which THAPAR, LARSEN,
NALBANDIAN, and MURPHY, JJ., joined.
_________________
ORDER
_________________

186a
The court received petitions for rehearing en
banc. The original panel has reviewed the petitions
for rehearing and concludes that the issues raised in
the petitions were fully considered upon the original
submission and decision. The petitions then were
circulated to the full court.1 Less than a majority of
the judges voted in favor of rehearing en banc.
Therefore, the petitions are denied.
_________________
CONCURRENCE
_________________
GIBBONS, Circuit Judge, concurring in the
denial of rehearing en banc. I write separately to
note that at this stage in the proceeding, it is better
to find out what facts will eventually be before the
district court, rather than to prematurely attempt to
determine what law would apply to those hypothetical facts. In reading the 89-page complaint, this court
could find many iterations of possible allegations. As
Judge Sutton notes, some of those possible allegations would not permit finding a constitutional violation. Still, others would permit such a finding.
When considering a 12(b)(6) motion to dismiss, it
is not our job to find the facts. Our job is, and only is,
to determine whether any possible allegation plausibly states a claim under which relief can be granted.
To decide any other issue would be judicial overreach. To discuss anything further would be an
advisory opinion. Both the majority and dissent
1 Judge Readler recused himself from participation in this
decision.

187a
rushed to articulate a standard before the facts had
been fully discovered.
The plaintiffs, with whom every opinion
expresses sympathy, are entitled to the full benefit of
the rule’s broad standard. That means that, so long
as they have pled plausible allegations that would
constitute a constitutional violation, they are entitled
to discovery. The 12(b)(6) standard “does not impose
a probability requirement at the pleading stage; it
simply calls for enough fact to raise a reasonable
expectation that discovery will reveal evidence of
illegal [conduct].” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 556 (2007). We must “let district courts do
what district courts do best—make factual findings—
and steel ourselves to respect what they find.”
Taglieri v. Monasky, 907 F.3d 404, 408 (6th Cir.
2018) (en banc).
_________________
CONCURRENCE
_________________
SUTTON, Circuit Judge, concurring in the denial
of rehearing en banc. If bad facts run the risk of
making bad law, terrible facts run the risk of
disfiguring law and silencing it altogether. In their
complaint, the plaintiffs in this traumatic case plant
the seeds of two potential stories. One speaks of local
officials who bungled their response to a water crisis
and in the process inadvertently polluted the water
supply for the people of Flint, Michigan. The other
speaks of local officials who intentionally poisoned
Flint’s water supply. In each telling, the claimants
invoke the Due Process Clause of the Fourteenth
Amendment. In each telling, the claimants invoke
the most far-reaching and the least guide-posted

188a
permutation of that guarantee: substantive due
process. And in each telling, the claimants seek
hundreds of millions of dollars in retroactive money
damages for the alleged constitutional violations.
Each story leads to a different end.
Negligent, even grossly negligent, conduct by
local officials does not generally violate citizens’ substantive due process rights. Least of all would these
actions clearly violate such rights, as there is very
little that is clear about substantive due process. If
that’s what happened here, this litigation needs to
end—promptly. It is a distraction to the key goal
(fixing Flint’s water supply), and it is unfair to the
public servants to boot. Their mistakes may deserve
public criticism, but they do not deserve the tag of
violating clearly established constitutional rights
and what comes with it: exposure to crippling
monetary judgments.
But an intentional or reckless effort to poison
Flint’s water supply is another matter. If that’s what
happened, the case must proceed.
So which account is the right account? It’s too
early to say. At the pleading stage of a case,
plaintiffs are entitled to make plausible allegations
in their complaint and use the discovery process to
ferret out support for their preferred account through
depositions, emails, and documents. At this early
stage of the case, we must give the benefit of the
doubt to the plaintiffs’ preferred theory of the case
and allow the discovery process to determine
whether plausible allegations in their complaint
mature into fact-supported allegations.
In view of the starkly different nature of these
two accounts and in view of the starkly different

189a
outcomes for each of them, I would have written the
majority opinion—permitting this case to proceed to
discovery—in a different key. At least five features of
this unfortunate case warrant a tone of caution.
Cautionary feature one. This is a money damages
case against public officials in their individual
capacities. We do not lightly allow citizens to tap
private pockets or the public treasury by suing the
public officials that a majority of them selected to
handle these jobs. That’s why claimants must show
that (1) the officials violated their constitutional
rights and (2) the officials were on notice of the
prohibition because they violated well-established
constitutional rights. Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982). Only when the unconstitutionality of
a local official’s actions is “beyond debate,” only when
“every reasonable official would have understood
that what he is doing violates that right,” will we
deny him protection. Ashcroft v. al-Kidd, 563 U.S.
731, 741 (2011) (quotation omitted). Qualified
immunity protects “all but the plainly incompetent
or those who knowingly violate the law.” Malley v.
Briggs, 475 U.S. 335, 341 (1986). That is a rigorous
standard.
Cautionary feature two. Even when viewed in its
best light, the plaintiffs’ claim of unconstitutionality
takes us to the outer edges of judicial competence.
Unlike claims anchored in the U.S. Constitution’s
text, substantive due process cases offer little
guidance about the reach of our authority, inviting a
free-floating inquiry devoid of textual rhyme or
reason. That’s why we are directed to proceed slowly
in this area “lest the liberty protected by the Due
Process Clause be subtly transformed into the policy
preferences of” any two judges on this court.

190a
Washington v. Glucksberg, 521 U.S. 702, 720 (1997).
And that’s why the U.S. Supreme Court warns us
that “the Fourteenth Amendment is not a font of tort
law to be superimposed upon whatever systems may
already be administered by the States.” County of
Sacramento v. Lewis, 523 U.S. 833, 848 (1998)
(quotation omitted).
But “a font of tort law” layered onto the state
courts’ remedial laws is just what we seem to be
getting in this case. Our job is not to invoke highly
abstract rights to facilitate money damages actions
under § 1983 but to stoop to examine the details of
the cases to make sure they plainly mark the lines of
constitutional trespass and alert public officials to
their metes and bounds. A comparison between this
case and the bodily integrity cases invoked by the
claimants shows a yawning gap. Sure, the U.S.
Supreme Court has prohibited investigators from
forcibly pumping a suspect’s stomach to recover
swallowed evidence, Rochin v. California, 342 U.S.
165, 172 (1952), has allowed a prisoner (in some
cases) to forgo unwanted antipsychotic medication,
Washington v. Harper, 494 U.S. 210, 221–22 (1990),
and has assumed a right to refuse life-saving medical
treatment, Cruzan v. Dir., Mo. Dep’t of Health, 497
U.S. 261, 279 (1990).
But to describe these fact patterns is to question
their applicability here. Not one of them involves the
provision of a public utility in a time of economic
hardship. Not one of these decisions, innovative at
the time, involves a retroactive money damages
action against public officials in their individual
capacities. And all of them caution us to adopt the
tenor of restraint when it comes to extending the
right to bodily integrity in a new direction.

191a
The precedent the panel majority found
“especially analogous” to today’s case, Guertin v.
Michigan, 912 F.3d 907, 921 (6th Cir. 2019), has no
business in the inquiry. It is a district court case. See
In re Cincinnati Radiation Litig., 874 F. Supp. 796
(S.D. Ohio 1995). And district court decisions do not
mark appellate law—the relevant benchmark for
ascertaining well-established constitutional law. See
Camreta v. Greene, 563 U.S. 692, 709 n.7 (2011); Hall
v. Sweet, 666 F. App’x 469, 481 (6th Cir. 2016).
Cautionary feature three. Even aside from the
one-off nature of these cases, the inscrutable nature
of the inquiry by itself gives pause. While many acts
of public officials might theoretically affect the right
to bodily integrity, only an official who “shocks the
conscience” violates the right. Lewis, 523 U.S. at 846.
Missing from this case so far is any recognition that
the purpose of the test is to restrain judges, not
empower them; to remove claims from the constitutional arena, not to expand nebulous notions of
substantive due process. See id. at 846–49. Also
missing is an appreciation of the imperative that we
not apply the “clearly established” prong of qualified
immunity at a nose-bleed level of generality, but
rather must find precedent “particularized to the
facts of the case.” White v. Pauly, 137 S. Ct. 548,
551–52 (2017) (per curiam) (quotation omitted).
Whatever else the shocks-the-conscience test means
in the context of an effort to pierce public employees’
qualified immunity, it at a minimum requires “an
exact analysis of circumstances,” Lewis, 523 U.S. at
850, measured by truly comparable cases. In the
often “unfamiliar territory” that cases like this one
present, “mechanical application” of prior precedent
usually does little good. Id.

192a
Cautionary feature four. All of this means that
our court and the district court must carefully match
allegations to individual defendants to determine
whether the plaintiffs can show that each official engaged in conscience-shocking behavior—and clearly
established behavior at that. Doubt clouds several
aspects of the claims that remain in the case. By the
plaintiffs’ own account, the defendants relied on
independent experts in making the most crucial
decisions. How could that conduct show intentional
misconduct—intentional poisoning of the people of
Flint—given that the officials, aware of their own
limitations, sought outside help? That does not sound
like intentional or reckless behavior.
A like concern arises from the allegations against
individual defendants still in the case. Take Darnell
Earley as one example of this problem. He served as
Flint’s emergency manager from November 2013
until January 12, 2015. The complaint alleges that
he “made the decision to switch to Flint River water,”
R. 1 at 7, then “forced the transition through” before
Flint’s treatment plant was ready in order to keep up
with his “aggressive deadline,” R. 1 at 21. He also
allegedly made false and misleading statements that
Flint’s water was safe. But the complaint does not
allege that he knew those statements were false. It
instead says that the government hired an outside
engineering firm to make sure the city properly
treated the water. Those experts did not recommend
that the city set water quality standards or implement corrosion control before using the river’s water.
And the first report of lead in Flint’s drinking water
did not come until January 9, 2015. That’s only four
days before Gerald Ambrose replaced Earley as the
emergency manager and around the same time that
officials employed a second outside engineering firm

193a
to investigate complaints. (That firm also concluded
that the water was safe.) I struggle to see how
Earley’s actions, all consistent with outside experts’
advice, rise to the threshold of a clearly established
substantive due process violation. The same may be
true of other individual defendants.
Cautionary feature five. A similar case already
exists in state court. Based on the same events,
several individuals filed a putative class action in the
Michigan courts against most of the same defendants
under the substantive due process guarantee of the
Michigan Constitution. See Mays v. Snyder, 916
N.W.2d 227, 240, 242 (Mich. Ct. App. 2018). The
Michigan Court of Appeals denied the defendants’
motions for summary disposition as to the state law
due process bodily integrity claims, and that case
continues to wind its way through the Michigan
court system. Id. at 242–43, 277.
Would it not make sense for the federal courts to
wait and see what relief the Michigan Constitution
provides before determining whether the state
defendants violated the Due Process Clause of the
U.S. Constitution? Before deciding whether someone
may sue a State for depriving him of property or
liberty or life without due process, the federal courts
first consider the judicial process the State provides
him to remedy his alleged injuries. Parratt v. Taylor,
451 U.S. 527, 543–44 (1981); see Hudson v. Palmer,
468 U.S. 517, 533 (1984); see also Albright v. Oliver,
510 U.S. 266, 283–86 (1994) (Kennedy, J., concurring
in the judgment). For that reason, if the underlying
state and federal claims in today’s case turned on
process in its conventional sense, the federal courts
presumably would stay their hand to determine what
process the State provided. If that approach makes

194a
sense in the context of procedural due process, it
makes doubly good sense in the context of substantive due process. Otherwise, we give claimants more
leeway when they raise the most inventive of the two
claims, rewarding them for asking us to do more of
what we should be doing less.
This is not a new concept. For some time, the federal courts have tried to avoid federal constitutional
questions when they can. See Ashwander v. Tenn.
Valley Auth., 297 U.S. 288, 341 (1936) (Brandeis, J.,
concurring). One way to further that goal is to learn
whether the substantive due process protections of
the Michigan Constitution or any other state laws
redress the plaintiffs’ injuries. Because the “openended” nature of substantive due process claims
lacks “guideposts for responsible decisionmaking,”
Collins v. City of Harker Heights, 503 U.S. 115, 125
(1992), we should welcome input from the Michigan
courts about what process, substantive or otherwise,
is due under state law. Better under these circumstances, it seems to me, to hold the federal substantive due process claims in abeyance—and avoid
prematurely creating new federal constitutional tort
regimes—until the plaintiffs have had a chance to
vindicate their rights in state court. Cf. Browder v.
City of Albuquerque, 787 F.3d 1076, 1083–85 (10th
Cir. 2015) (Gorsuch, J., concurring).
All of this by the way will prove beneficial
whether the plaintiffs win or lose in state court. If
they win, there will be less, perhaps nothing at all,
for the federal courts to remedy under federal
substantive due process. If they lose, the state courts’
explanation may inform the federal claims.
Having urged our court and the district court to
address these claims with caution and restraint, I

195a
must accept a dose of my own medicine. Two features
of this case offer some support for these decisions—
sufficient support to wait and see before granting a
petition to review the case as a full court. One
reasonable explanation for waiting to review the
dispute is the stage of the case—Rule 12(b)(6)—from
which these decisions arose. This is not a barebones
complaint based on implausible allegations. It comes
in at 89 pages. And it offers plenty of details that at
least plausibly allege public acts of recklessness and
intentional misbehavior. The point of discovery is to
allow claimants and the courts to determine whether
facts support plausible claims. That opportunity
should help us all in resolving this case fairly.
A second reasonable explanation for waiting to
review this case as a full court is the hard-to-pindown nature of the clearly established inquiry. The
officials, it is true, can be found liable only if this
lawsuit falls into the narrow category of cases so
egregious, so obvious, that all reasonable officials
must have known what they did was wrong. See
Hope v. Pelzer, 536 U.S. 730, 741 (2002). What’s
tricky is figuring out what counts as reckless or
intentional behavior—in the context of a clearly
established conscience-shocking standard of care. For
better or worse, the case law seems to present a
sliding scale—the more evidence of unforgiveable
intent, the less necessity to identify a case just like
this one. That is what seemed to happen in Hope v.
Pelzer. The facts were unique. No correctional
officials before then, at least in a litigated case, had
thought to chain inmates to a hitching post in the
unrelenting heat of the Alabama sun for seven hours
as a form of prison discipline. What permitted the
U.S. Supreme Court to hold that the state officials
violated clearly established norms turned not on any

196a
one precedent but on the egregiousness of the state
officials’ state of mind. Id. at 741, 745. So long as
that is an appropriate approach to qualified immunity claims, it would seem that allegations like
these—intentional or reckless poisoning of citizens—
plausibly clear the clearly established hurdle and
warrant discovery. See Wesley v. Campbell, 779 F.3d
421, 433–34 (6th Cir. 2015); Evans-Marshall v. Bd. of
Educ. of Tipp City Exempted Village Sch. Dist., 428
F.3d 223, 235 (6th Cir. 2005) (Sutton, J., concurring);
see also Jacobs v. City of Chicago, 215 F.3d 758, 774–
76 (7th Cir. 2000) (Easterbrook, J., concurring in
part and concurring in the judgment).
That discovery should proceed does not eliminate
a role for the district court. One would hope that the
court, in view of the seriousness of the allegations
and the potential protections of qualified immunity
at summary judgment, would not deploy a laissezfaire approach to document and deposition discovery.
Carefully tailored and prompt discovery should
answer whether the intentional and reckless poisoning allegations hold up. If not, this case needs to
return to the court of public opinion, where one
suspects it should have remained all along.
_________________
DISSENT
_________________
KETHLEDGE, Circuit Judge, dissenting from
the denial of rehearing en banc. To state the obvious,
the sympathies of every decent person run entirely to
the plaintiffs in this case. But sometimes the law,
evenhandedly applied, leads to a result contrary to
the crush of popular opinion. This is one of those
cases.

197a
Respectfully, the majority’s decision on the issue
of qualified immunity is barely colorable. To overcome qualified immunity, the plaintiffs must show
that “existing law” made not merely the legality, but
“the constitutionality of the [state] officer’s conduct
‘beyond debate.’” District of Columbia v. Wesby, 138
S.Ct. 577, 589 (2018) (emphasis added) (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)). Here,
the putative constitutional violation concerns the
vaguest of constitutional doctrines, namely substantive due process. The doctrine purports to protect—
“specifically,” no less—“those fundamental rights and
liberties which are, objectively, deeply rooted in this
Nation’s history and tradition, and implicit in the
concept of ordered liberty, such that neither liberty
nor justice would exist if they were sacrificed.” Maj.
Op. at 6-7 (quoting Washington v. Glucksberg, 512
U.S. 702, 720-21 (1997)). That formulation (along
with any number of alternative ones) is more oratory
than legal rule, which has made the doctrine malleable enough to generate an array of constitutional
rights over the years. Those include, to cite only a
handful: the right to work unlimited hours in a
bakery, Lochner v. New York, 198 U.S. 45, 53 (1905);
the right to procreate, Skinner v. Oklahoma ex rel.
Williamson, 316 U.S. 535, 541 (1942); the right to
charge certain minimum railroad rates, Ex parte
Young, 209 U.S. 123, 149 (1908); the right to teach
schoolchildren in German, Meyer v. Nebraska, 262
U.S. 390, 403 (1923); and the right not to pay
“grossly excessive” punitive damages, BMW of N.
Am., Inc. v. Gore, 517 U.S. 559, 562 (1996).
But just as crowbars are not made out of tin, substantive due process’s easy malleability makes it a
notably poor instrument for prying away an officer’s
qualified immunity. For to overcome that immunity

198a
in a case (like this one) where the claim is constitutional, the “contours” of the relevant constitutional
rule “must be so well defined that it is ‘clear to a
reasonable officer’” that his conduct would violate the
rule. Wesby, 138 S.Ct. at 590 (quoting Saucier v.
Katz, 533 U.S. 194, 202 (2001)). That requirement—
often repeated by the Supreme Court, but sometimes, as here, overlooked—presents two obstacles to
the majority’s decision in this case. The first
concerns the particular “fundamental right” (or rule)
that the majority relies upon, namely a “right to
bodily integrity[.]” Maj. Op. at 7. The sheer
vagueness of that formulation illustrates that its
“contours” are shapeless rather than crisp, subjective
rather than objective, unknowable until judicially
announced. Even the majority acknowledges (as it
stretches the right further) that the right presents
“far from a categorical rule.” Maj. Op. at 8.
The second problem is related: the “bodily
integrity” caselaw fails to provide the “high ‘degree of
specificity[,]’” Wesby, 138 S.Ct. at 590 (quoting
Mullenix v. Luna, 136 S.Ct. 305, 309 (2015) (per
curiam)), necessary to overcome qualified immunity,
at least as to the claim here. Instead that caselaw for
the most part provides a handful of data points,
which form more of a dusty nimbus than a planetary
ring. But the caselaw does reveal a sine qua non for
the right’s violation: that the officer’s invasion of the
plaintiff’s bodily integrity be intentional. To cite the
majority’s own examples: the right protects against
“forcible injection” of “antipsychotic medication[,]”
Washington v. Harper, 494 U.S. 210, 220-21, 229
(1990); against forcible stomach-pumping, Rochin v.
California, 342 U.S. 165, 172 (1952); and, in a district court case, against conducting medical experiments upon cancer patients without their consent, In

199a
re Cincinnati Radiation Litigation, 874 F.Supp. 796,
803 (S.D.Ohio 1995). Nobody forcibly injects or
stomach-pumps or conducts medical experiments
upon another person by accident. Yet the claim at
issue here, as the plaintiffs themselves make it,
indisputably sounds in negligence: that “Defendants
violated Plaintiffs’ rights to bodily integrity, insofar
as Defendants failed to protect Plaintiffs from a
foreseeable risk of harm”—the classic formulation, as
any first-year law student knows, of a negligence
claim—from “exposure to lead contaminated water.”
Compl. ¶ 384 (emphasis added). And even the
majority concedes that “[t]here is no allegation
defendants intended to harm Flint residents.” Maj.
Op. at 18. Thus, the only manner in which the
majority’s “examples illustrate the breadth” of the
right to bodily integrity, Maj. Op. at 9, is to show
that the right is inapposite here.
What the majority opinion does, in response, is
simple: it changes the level of generality at which it
describes the putative right, until the description is
general enough to reach the plaintiffs’ allegations of
negligence. Specifically, what the court first
describes as a “constitutional right [of persons] to be
free from forcible intrusions on their bodies against
their will,” Maj. Op. at 9 (emphasis added), on the
next page becomes a sweeping right of “nonconsenting individuals” to be free of “foreign substances with
no known therapeutic value[,]” Maj. Op. at 10—in
short, a constitutional right to be free of unwanted
substances. That putative right is violated every day,
indeed every time that virtually any of us takes a
breath. But more to the point, the majority’s
formulation elides what the prior cases require—
namely that the officer’s injection or intrusion of the

200a
“foreign substance” into the plaintiff’s body be
intentional.
No official—no matter how blameworthy he
might be on moral grounds—can be expected to
recognize in advance that a court will recast a legal
rule so that it applies to conduct to which it has
never applied before. That in part is why the
Supreme Court has “repeatedly stressed that courts
must not ‘define clearly established law at a high
level of generality[.]’” Wesby, 138 S.Ct. at 590 (quoting Plumhoff v. Rickard, 572 U.S. 765, 779 (2014)).
Yet that is precisely what our court’s opinion does
here. The Supreme Court has also repeatedly said
that courts must not turn substantive due process
into “a font of tort law to be superimposed upon
whatever systems may already be administered by
the States[.]” Daniels v. Williams, 474 U.S. 327, 332
(1986) (quoting Paul v. Davis, 424 U.S. 693, 701
(1976)). Yet our court’s opinion does that too, by
expanding substantive due process to reach claims
based on negligence rather than intent. Our court’s
opinion, “in other words, does exactly what the
Supreme Court has repeatedly told us not to do.”
Etherton v. Rivard, 800 F.3d 737, 757 (6th Cir. 2015)
(dissenting opinion), rev’d sub nom. Woods v.
Etherton, 136 S.Ct. 1149 (2016) (per curiam).
I respectfully dissent from the order denying
rehearing en banc.
ENTERED BY ORDER OF THE COURT
______________________________________
Deborah S. Hunt, Clerk

